<html>
<title> - THE FUTURE OF CYBER AND TELECOMMUNICATIONS SECURITY AT DHS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                        THE FUTURE OF CYBER AND
                   TELECOMMUNICATIONS SECURITY AT DHS

=======================================================================


                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2006

                               __________

                           Serial No. 109-102

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                     U.S. GOVERNMENT PRINTING OFFICE

35-624 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

        .........................................................

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity



                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Mike Rogers, Alabama                 Zoe Lofgren, California
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)

                                  (II)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Protection, and 
  Cybersecurity:
  Oral Statement.................................................     1
  Prepared Opening Statement.....................................     2
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Economic Security, Infrastructure Protection, and Cybersecurity     3
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    39
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    43
The Honorable Stevan Pearce, a Representative in Congress From 
  New Mexico.....................................................    55
The Honorable Mark E. Souder, a Representative in Congress From 
  the State Indiana..............................................    51

                               Witnesses
                                Panel I

The Honorable George Foresman, Undersecretary for Preparedness, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. David Powner, Director, Information Technology Management 
  Issues, Government Accountability Office:
  Oral Statement.................................................     9
  Prepared Statement.............................................    12

                                Panel II

Mr. David Barron, Chair, Telecommunications Sector Coordinating 
  Council:
  Oral Statement.................................................    93
  Prepared Statement.............................................    95
Mr. Guy Copeland, Chair, Information Technology Sector, 
  Coordinating Council:
  Oral Statement.................................................    80
  Prepared Statement.............................................    82
Mr. Paul B. Kurtz, Executive Director, Cyber Security Industry 
  Alliance:
  Oral Statement.................................................    74
  Prepared Statement.............................................    75
Mr. William Pelgrin, Director, New YorK State Office of Cyber 
  Security and Critical Infrastructure:
  Oral Statement.................................................    58
  Prepared Statement.............................................    60


          THE FUTURE OF CYBER AND TELECOMMUNICATIONS SECURITY



                                 AT DHS

                              ----------                              


                     Wednesday, September 13, 2006

                     U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Economic Security, Infrastructure 
                             Protection, and Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:21 p.m., in 
Room 2212, Rayburn House Office Building, Hon. Daniel Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Souder, Pearce, Sanchez, 
Dicks, and Jackson-Lee.
    Mr. Lungren. [Presiding.] I would like to welcome everyone 
this afternoon to the Subcommittee on Economic Security, 
Infrastructure Protection and Cybersecurity of the Homeland 
Security as hearing on the future of cyber and 
telecommunications security at Department of Homeland Security.
    The security of information infrastructure has not received 
the emphasis that it deserves, in spite of the fact that our 
economy and our nation's preparedness is so dependent on this 
technology.
    Two days ago, this country commemorated the 5-year 
anniversary of the worst terrorist attack on American soil. The 
attacks of 9/11 not only killed thousands of American citizens, 
but also targeted our way of life.
    Those responsible have vowed to continue to attack our 
country and our economy.
    Information and communications technology are a prime 
target for those intending to do us harm and a successful 
terrorist attack could cause immeasurable danger and damage to 
our everyday lives, for example, disrupt our electrical power 
supply or disrupt our ability to respond to emergencies.
    The Department of Homeland Security has been designated the 
point of government contact for the critical infrastructure 
owners and operators within both the information technology 
sector and the telecommunications sector.
    It is, therefore, incumbent upon the department to develop 
an organization that can work effectively with these two 
critical sectors to protect the assets under their control that 
benefit the entire country.
    This committee has been critical of the department's 
priorities regarding cybersecurity and telecommunications in 
the past and has called for the creation of an assistant 
secretary for these issues to ensure their visibility within 
the department.
    Disappointingly, it has been over a year since the 
secretary announced the creation of acting secretary for 
cybersecurity and telecommunications, and, yet, the position 
has not been filled.
    We are concerned the department has not been as effective 
as possible in ensuring the security and resiliency of our 
information infrastructure or its efficient reconstitution in 
the case of an incident of national significance.
    We have been fortunate enough not to have suffered a 
debilitating information infrastructure incident, but we cannot 
rely upon good fortunate alone. We must create a strong, 
focused organization to ensure our cyber assets our protected 
and to enable us to respond effectively to a cyber incident.
    Today we will hear from Undersecretary for Preparedness 
George Foresman, to whom the yet to be named assistant 
secretary will report. And we look forward to hearing your 
vision for the department with regard to these important 
issues.
    We will also hear from David Powner, with the Government 
Accountability Office, who has reviewed the department's 
programs and priorities for the past several years and will 
present their findings and recommendations for going forward.
    On our second panel, we will hear from William Pelgrin, the 
director of New York State's Office of Cybersecurity and 
Critical Infrastructure Coordination. He has experience in 
running a government organization task, with coordinating the 
protection of information infrastructure, and will provide 
important insight on how this can be done successfully.
    Also, Mr. Paul Kurtz, executive director of the 
Cybersecurity Industry Alliance, will provide a private sector 
perspective on the department's leadership, priorities and 
programs.
    We will also hear from Guy Copeland, the chairman of the 
Information Technology Sector Coordinating Council, and David 
Barron, the chairman of the Telecommunications Sector 
Coordinating Council.
    Both of these gentlemen have extensive experience with 
managing critical information infrastructure and dealing with 
the department and they will provide private sector 
expectations and priorities for the future.
    I would like to thank all the witnesses for joining us 
today, look forward to hearing everyone's testimony.
    Before recognizing the ranking member, Ms. Sanchez, for any 
opening statement she may wish to make, I give everybody 
permission to take their coats off, because I don't know why we 
decided that we need to heat the place up in September in 
Washington, D.C. But someone has evidently thought that was a 
good thing.

       Prepared Opening Statement of the Honorable Daniel Lungren

    I would like to welcome everyone this afternoon to the Subcommittee 
on Economic Security, Infrastructure Protection, and Cybersecurity of 
the Committee on Homeland Security's hearing on the future of cyber and 
telecommunications security at the Department of Homeland Security.
    The security of our information infrastructure has not received the 
emphasis that it deserves, in spite of the fact that our economy and 
our nation's preparedness is so dependent on this technology.
    Two days ago this country commemorated the five year anniversary of 
the worst terrorist attack on American soil.
    The attacks of 9/11 not only killed thousands of American citizens 
they also targeted our way of life. Those responsible have vowed to 
continue to attack our Country, and our economy.
    Information and communications technology are a prime target for 
those intending to do us harm.
    A successful terrorist attack could cause immeasurable damage to 
our everyday lives, for example, disrupt our electrical power supply or 
disrupt our ability to respond to emergencies.
    The Department of Homeland Security has been designated the point 
of governmental contact for the critical infrastructure owners and 
operators within both the information technology sector and the 
telecommunications sector.
    It is therefore incumbent upon DHS to develop an organization that 
can work effectively with these two critical sectors to protect the 
assets under their control that benefit the entire country.
    This Committee has been critical of the Department's priorities 
regarding cybersecurity and telecommunications in the past and has 
called for the creation of an Assistant Secretary for these issues to 
ensure their visibility within the department.
    It has been over a year since the Secretary announced the creation 
of an Assistant Secretary for Cyber Security and Telecommunications and 
yet the position has not been filled.
    I am concerned that the Department has not been as effective as 
possible in ensuring the security and resiliency of our information 
infrastructure or its efficient reconstitution in the case of an 
incident of national significance.
    We have been fortunate enough not to have suffered a debilitating 
information infrastructure incident, but we can not rely upon good 
fortune alone; we must create a strong, focused organization to ensure 
our cyber assets are protected and to enable us to respond effectively 
to a cyber incident.
    Today we will hear from Under Secretary for Preparedness, George 
Foresman, to whom the yet to be named Assistant Secretary will report. 
I look forward to hearing his vision for the Department with regard to 
these important issues.
    We will also hear from David Powner with the Government 
Accountability Office who has reviewed the Department's programs and 
priorities for the past several years and will present their findings 
and recommendations for going forward.
    On our second panel we will hear from William Pelgrin the Director 
of New York State's Office of Cyber Security and Critical 
Infrastructure Coordination. Mr. Pelgrin has experience in running a 
government organization tasked with coordinating the protection of 
information infrastructure and will provide important insight on how 
this can be done successfully.
    Also, Mr. Paul Kurtz, the Executive Director of the Cyber Security 
Industry Alliance will provide a private sector perspective on the 
Department's leadership, priorities and programs.
    We will also hear from Guy Copeland, the chairman of the 
Information Technology Sector Coordinating Council and David Barron the 
chairman of the Telecommunications Sector Coordinating Council. Both of 
these gentlemen have extensive experience with managing critical 
information infrastructure and dealing with the Department. They will 
provide private sector expectations and priorities for the future.
    I would like to thank all our witnesses for joining us today.
    I look forward to hearing everyone's testimony, and I now recognize 
the Ranking Member, Ms. Sanchez, for any opening statement she may wish 
to make.

    Ms. Sanchez?
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you for 
agreeing to hold this hearing. I think it is an incredibly 
important one.
    As you know, cybersecurity is a critical issue that I 
believe deserves a lot more attention than this committee and 
others have been paying to it, and I think it also needs a lot 
more resources than we have devoted to it in the Department of 
Homeland Security.
    Our whole infrastructure, when you think about business 
these days, relies on secure information networks, so that we 
can ensure that reliable operations of water systems, 
electrical grids, emergency response systems, Internet, 
everything.
    In addition, for many Americans, it is really a part of 
their lives. This is the way we communicate. And, 
unfortunately, I think that the information networks that we 
have that we really rely on are really big areas for attack.
    And, you know, we are not talking about maybe losing 
people, but we are talking about an economic crunch that would 
happen to our nation. And I am always just as concerned that 
the terrorists affect us economically, because then I think 
they will have won this issue of trying to come after our 
lifestyle.
    So I am looking forward to hearing from our witnesses. 
There is a lot of issues that I am concerned with with respect 
to cybersecurity. I want to find out when the assistant 
secretary for cybersecurity and telecommunications is going to 
be appointed.
    I think the position has been open over a year now. I also 
know that there are a lot of titles in this area that are still 
acting and I want to find out when we are going to see more 
permanent appointments of people, because I think that this is 
just one little piece, but it sends a really big message.
    Do we take cybersecurity seriously? And when we have acting 
and empty spots, et cetera, then I think we are not devoting 
the resources we need. And, lastly, do we have the right 
resources for the department? And I look forward to discussing 
these.
    Thank you for calling this hearing, Mr. Chairman.
    Mr. Lungren. I thank the gentlelady for her comments.
    I might say that I know the ranking member of the full 
committee and the chairman of the full committee wish they 
could be here. They are on the floor right now managing time on 
the bill commemorating 9/11 and the efforts of Congress 
thereafter.
    The chair now recognizes Mr. George Foresman, the 
undersecretary for preparedness, to testify.

STATEMENT OF THE HONORABLE GEORGE FORESMAN, UNDERSECRETARY FOR 
         PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Foresman. Mr. Chairman, Ranking Member Sanchez, and 
members of the subcommittee, thank you for the opportunity to 
appear today to discuss cyber and telecommunications security.
    Before I begin, I would very much like to acknowledge this 
committee's exceptional leadership and dedication to 
strengthening the cybersecurity of our nation.
    Mr. Chairman, I look forward to working closely with this 
committee to receive your guidance and to collaborate as we 
continue the process that we have already made.
    You have my written statement and I offer that for the 
record.
    I would like to briefly, though, highlight several points. 
First, there has, in fact, been much discussion about the 
department's ability to find and hire a qualified individual to 
serve as the assistant secretary for cyber and 
telecommunications security.
    I want to be very clear. This has been and remains a top 
priority for the department. We are, in fact, in the final 
stages of a security review process for a candidate that we 
feel is very well qualified. We look forward to announcing the 
candidate with Congress very soon and I am confident that this 
individual will continue to build on the progress that is being 
made every day.
    Second, today, the department is releasing its after action 
report from our recent government, private sector, national and 
international cybersecurity exercise, Cyberstorm.
    This report will measurably advance refinements to 
operational protocols and our coordination between the public 
sector and the private sector.
    Its lessons will not simply be documented. They will be 
implemented.
    Third, telecommunication networks and information 
technology activities are both mutually dependent and 
interdependent. They have, in fact, converged. By the end of 
the year, we will complete our efforts to collocate together 
the U.S. computer emergency readiness team and the national 
coordination center for telecommunications to improve 
operational coordination.
    This means better coordination among all levels of 
government and better coordination between government and the 
private sector during threats and actual events.
    Secretary Chertoff said last week, in his speech that 
reflected on the 5 years since 9/11, the way to protect the 
critical infrastructure is to work in partnership with federal, 
state and local officials, and with the private sector folks 
who actually own the things that we are trying to protect.
    This collaboration is key to our approach to protecting 
telecommunications and cyber infrastructure. We remain resolute 
in our approach that will balance the security of the nation 
against the economic security of the nation.
    Last month, our cybersecurity experts worked quietly with 
their counterparts at Microsoft to address critical software 
vulnerability. Microsoft was competent in their partnership 
with DHS and quickly brought this to our attention.
    While Microsoft worked over several weeks to develop a 
patch, our U.S. CERT was quietly and effectively monitoring 
Internet activity to ensure the vulnerabilities were not being 
exploited.
    At the same time, the department was working domestically 
and internationally with our private sector partners and public 
sector partners to mitigate terrorist threats associated with 
the British airline plot.
    These two concurrent actions are just examples of many of 
the day-to-day public and private sector activities taking 
place in the department's preparedness efforts.
    Maintaining these types of collaborations remains, as you 
know, as it relates to cybersecurity and telecommunications 
security, a multi-dimensional challenge. From personal 
computers in homes to vast networks to control systems to the 
Internet, cyber and telecommunications security presents 
enormous challenges.
    These challenges are obvious: prioritizing our work, 
partnering for effective collaboration, balancing security and 
economic considerations, and, most notably, increasing 
understanding.
    The other witnesses today will add clarity to this points 
from varying perspectives. I think it is safe to say, however, 
there is no one that will appear before you today that does not 
share the belief that protecting America's cyber and 
telecommunications systems is as critical to national security 
as it is to citizen security.
    I want to be clear, Mr. Chairman and members of the 
subcommittee. Progress is being made every day. There is more 
to be done.
    Mr. Chairman and members of the committee, as you well 
know, the security of America's cyber and telecommunications 
systems do not lend themselves to surrounding one building with 
heavily armed police officers or simply mandating an action and 
we are safe.
    Simply put, there is no magic bullet.
    In closing, the success of our national cyber and 
telecommunications security efforts depend on unity of purpose 
and continuing public/private sector collaboration. This is 
serious business and we are serious about this business.
    We look forward to continuing discussions with Congress on 
the wide range of policy issues that we must confront together.
    Thank you, and I look forward to your questions.
    [The statement of Mr. Foresman follows:]

               Prepared Statement of Hon. George Foresman

    Good morning, Mr. Chairman and Members of the Subcommittee. Thank 
you for inviting me to speak about cyber security and the recovery and 
reconstitution of critical networks in the event of a catastrophic 
Internet disruption.
    One of the most pressing challenges facing the Department of 
Homeland Security is preparing for attacks on the Internet and the 
information networks supporting our critical infrastructure. Our 
vision, our philosophy, and our strategy for preventing, responding to, 
and recovering from cyber attacks reflect the expanding importance of 
communications and the information infrastructure in all aspects of our 
lives today. Policies that advance a safe and secure communications 
infrastructure rely on fostering valuable relationships between the 
public and private sectors, and promoting public trust and confidence. 
Strong policies also project stability and strength to those who wish 
us harm.
    The key to continued success is partnering strategically with the 
communications and information technology sectors, end-users of 
Internet technologies, and other experts.
    During the past several weeks our cyber security experts worked 
quietly with their counterparts at Microsoft to address a critical 
software vulnerability first identified to us by the Department of 
State's cyber defense team. In the interim between identification of 
the vulnerability and development of the solution, the Department was 
closely monitoring technical indicators for indications of additional 
exploitation of the vulnerability. Once a patch was available, the 
Department's U.S. Computer Emergency Readiness Team (US-CERT) 
coordinated an alert with Microsoft. DHS issued an alert through the 
National Cyber Alert System urging the public, private industry, as 
well as federal users to apply the security patch in order to protect 
their systems. Overshadowed in the news media by the successful foiling 
of the U.K. terror threat, this collaboration is typical of the kind of 
behind-the-scenes, day-to-day public-private cyber security activity 
that exemplifies the work being accomplished between the Department and 
so many of our strategic partners.
    These partnerships also entail strengthening cooperation across the 
government institutions and, at a minimum, finding ways to cultivate 
support outside of the Department where expertise clearly exists. We 
are actively collaborating with 116 private firms. We are working 
closely with the private sector entities established within the 
National Infrastructure Protection Plan (NIPP) framework to collaborate 
on risk management, including the Information Technology (IT) Sector 
Coordinating Council (SCC) and the Telecommunications SCC. From an 
operational perspective, we work with the Information Technology 
Information Sharing and Analysis Center (IT-ISAC) and the National 
Coordinating Center (NCC)/Telecommunications ISAC through various 
information sharing mechanisms, including the US-CERT Portal. Our 
partners, both public and private, are involved in a number of 
programmatic activities that address software assurance, Internet 
disruption, as well as exercises such as Cyber Storm.
    In addition, there are about 400 firms that are part of the Process 
Control Systems Forum, which was recently transferred from Science and 
Technology Directorate to National Cyber Security Division (NCSD) and 
addresses Control Systems security. There are 21 associations that we 
work with on a regular basis that represent hundreds of companies, 
including large enterprises and smaller companies. Whether public or 
private, these partnerships must deliver real and measurable value in 
light of the catastrophic damages that could occur to our national 
cyber assets if we do not collaborate effectively.
    Finally, we must reinforce a culture of preparedness and 
increasingly shift from a reactive to a proactive stance. In sum, we 
must prepare by promoting effective security strategies that evolve as 
the risks evolve.

    Assistant Secretary for Cyber Security and Telecommunications

    Mr. Chairman, the Committee has expressed as a priority the 
designation of the Assistant Secretary for Cyber Security and 
Telecommunications, and has communicated interest in the Department's 
plan to fill this vacancy.
    Mr. Chairman, the Department shares the Committee's view on the 
importance of filling the position of Assistant Secretary for Cyber 
Security and Telecommunications with a qualified candidate.
    Given the complexity of the portfolio, we believe it is important 
to fill this position with a person of necessary talent and expertise 
who understands both policy and technology issues regarding cyber 
security and telecommunications and can further strengthen our national 
efforts.I am personally engaged in this process and, in the interim, am 
providing program direction to the talented men and women who are part 
of our NCSD and National Communications System (NCS). Because of the 
importance of our mission, all parties want to ensure that the 
individual appointed to this position possesses the right combination 
of skills, experience, and leadership necessary to succeed.
    In the interim, I want to assure you, Mr. Chairman, that I am 
personally overseeing strategic management objectives associated with 
NCSD and specifically Internet recovery. These include, by way of 
example:
        <bullet> Positioning the NCSD, especially the US Computer 
        Emergency Readiness Team (US-CERT), and the NCS so these 
        organizations are structured to be at the forefront of 
        preventing, responding to, and recovering from massive Internet 
        disruptions. Just as FEMA is on point for coordinating disaster 
        response, and the Coast Guard is on point for coordinating the 
        response to an oil spill, key experts like NCS and NCSD must be 
        capable of coordinating our response to events that target the 
        Internet;
        <bullet> Re-aligning CS&T component entities to create a 
        cohesive organization. The NCS and NCSD (including the US-CERT 
        and the NCC) must more fully synchronize their activities, 
        without a loss of either's core mission capabilities. 
        Communications convergence, threats against the communications 
        infrastructure, the increasing use of Voice over Internet 
        Protocol (VOIP) for emergency communications purposes, and 
        other influences demand that we merge the work of these 
        entities to create new and stronger synergies and;
        <bullet> Ensuring resources are sufficiently allocated to meet 
        new needs. I am personally overseeing the development of a 
        budget strategy that spans the next five years. This strategy 
        is essential for shepherding CS&T priority programs into the 
        next decade.

    Information Sharing and Internet Recovery
    Mr. Chairman, the Committee has communicated interest in the 
programs within the Department that are designed to improve information 
sharing regarding the recovery of the Internet
    We fully recognize the challenges inherent in our preparedness 
responsibilities. As the President stated in the National Strategy to 
Secure Cyberspace, it is the policy of the United States to protect 
against ``the debilitating disruption of the operation of information 
systems for critical infrastructures and, thereby, help to protect the 
people, economy, and national security of the United States.'' The 
strategy also underscores the importance of partnering with the private 
sector as well as State, local, and tribal governments to effectuate 
this policy.
    On my fourth day as Undersecretary for Preparedness, I met with the 
Business Roundtable to discuss strategic collaboration and their 
Internet reconstitution study. We outlined a 120-day plan to advance 
our collaboration on this important work and continue to work in tandem 
with the Roundtable as they expand their efforts to focus on business 
needs and issues regarding Internet recovery and reconstitution in the 
coming year. The timeframes for specific actions and results will be 
the topic of more discussion with the Business Roundtable in the next 
several months. That effort supplements the work we are doing with the 
IT-SCC and the Telecommunications SCC under the NIPP to address 
Internet protection and prioritization as part of our collaborative 
approach to risk management in the core sectors for the Internet.
    US-CERT, NCC & the NAIRG
    In addition to coordinating with the Business Roundtable, our 
outreach specifically focuses on building relationships with private 
industry owners and operators of the Internet and information networks. 
For example, the US-Computer Emergency Readiness Team (US-CERT) 
continues to develop operational relationships and processes to enhance 
its ability to respond to an Internet disruption of national 
significance through its work with the IT-ISAC, and with the North 
American Incident Response Group (NAIRG) of industry participants. In 
addition, the NCC represents a fully collaborative model as the ISAC 
for the Telecommunications Sector, with both public and private 
participation in its operations.
    The US-CERT has deployed several programs as part of its efforts to 
support cyber incident response. We expect funding in Fiscal Year 2007 
to reach approximately $37 million. These funds support deployment of 
multiple programs, including the Einstein Program, which tracks attacks 
on federal information systems and warns stakeholders in near real-
time. Other program areas funded as part of this total include an 
Internet Health Service for federal agency incident response teams, the 
US-CERT's 24X7 cyber incident handling center, vulnerability 
management, forensics education and support, and malicious code 
analysis.

    Internet Disruption Working Group (IDWG)
    The NCSD and NCS have also established an Internet Disruption 
Working Group (IDWG) to address the resiliency and recovery of Internet 
functions in the event of a major cyber incident. With public and 
private sector representatives, the IDWG's near-term objectives help to 
augment the level of information sharing among government and the 
private sector. The IDWG is also undertaking an information sharing 
assessment to better understand the information exchange landscape 
involving Internet incidents.

National Cyber Response Coordination Group (NCRCG)
    The Business Roundtable report also underscores the role of the 
National Cyber Response Coordination Group (NCRCG). Established in 
partnership with the Department of Defense and the Department of 
Justice in the National Response Plan's (NRP) Cyber Annex, the NCRCG 
serves as the Federal government's principal interagency mechanism for 
coordinating the federal effort to respond to and recover from cyber 
incidents of national significance and includes 19 federal agencies 
including the Intelligence Community. The NCSD is working with industry 
to establish a private sector counterpart to the NCRCG, which would 
communicate and collaborate with the Federal government NCRCG during 
times of crisis.
    Mr. Chairman, further detail regarding the Committee's inquiries 
related to the goals, resources, and timeframes for implementation 
associated with these programs is also provided in the Department's 
recent letter in response to your July 5, 2006 query.

    The Role of US-CERT in Internet Recovery
    Mr. Chairman, the Committee has expressed concern about the role 
and responsibility of the United States Computer Emergency Readiness 
Team with regard to Internet reconstitution.
    US-CERT is the operational component of the National Cyber Security 
Division and represents a partnership between the Department and the 
public and private sectors. US-CERT is charged with protecting our 
nation's Internet infrastructure by coordinating defense against and 
response to cyber attacks. US-CERT is responsible for:
        <bullet> Analyzing and reducing cyber threats and 
        vulnerabilities;
        <bullet> Disseminating cyber threat warning information; and
        <bullet> Coordinating incident response activities.
    As indicated above, I am personally overseeing the retooling of the 
US-CERT and CS&T to ensure that roles and responsibilities align with 
our mission with regard to Internet recovery and the NRP.

    The Role of FEMA in Internet Recovery
Mr. Chairman, the Committee has communicated interest in learning about 
the role of the Federal Emergency Management Agency (FEMA) with regard 
to restoration of Internet functions in the case of a major disruption 
or attack.

    Depending upon the nature of the disruption or attack, FEMA, under 
the direction of the Secretary of Homeland Security, and advised by the 
Assistant Secretary for Cyber Security and Telecommunications and other 
Department officials, may be called upon to support industry and other 
Federal efforts to restore connections to the Internet. FEMA's specific 
responsibilities under the National Response Plan through Emergency 
Support Function (ESF) #5--Emergency Management may entail providing 
logistical, communications or administrative support as they would for 
any other emergency or disaster that they do not have the primary lead 
role. However FEMA would not have the lead role for Internet 
restoration.

Conclusion
    The National Cyber Security Division has established its mission 
and priority objectives, developed a strategic plan, and undertaken 
significant steps to implement its strategic plan across the programs 
outlined here. Our progress to date is tangible: we have a construct 
for public-private partnership; we have a track record of success in 
our cyber operations; we have established relationships at various 
levels to manage cyber incidents; we have built international 
communities of interest to address a global problem; and we have tested 
ourselves at a critical development stage and will continue to examine 
our internal policies, procedures, and communications paths in future 
exercises. We are building on each of these achievements to take 
further steps to address Internet recovery and reconstitution as well 
as to increase our overall cyber preparedness and improve our response 
and recovery capabilities.
    In this ever-evolving environment, we know that we must always be 
attuned to new threats, new vulnerabilities, and new technologies. We 
need to be flexible enough to adjust our efforts to meet these new 
challenges.
    I would like to thank the Subcommittee for its time today, and I 
appreciate this opportunity to bring further transparency to these 
important cyber security priorities.

    Mr. Lungren. Thank you very much, Mr. Foresman, for your 
testimony.
    The chair will now recognize Mr. David Powner, the director 
of information technology management issues at the Government 
Accountability Office, to testify.
    And, again, the full text of your comments will be in the 
record, and we would ask you to summarize for 5 minutes.

  STATEMENT OF DAVID POWNER, DIRECTOR, INFORMATION TECHNOLOGY 
      MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Thank you, Chairman Lungren, Ranking Member 
Sanchez, and members of the subcommittee. We appreciate the 
opportunity to testify on the Department of Homeland Security's 
efforts associated with securing our nation's critical 
infrastructures from cybersecurity threats.
    Recent attacks and threats have underscored the need to 
effectively manage and bolster cybersecurity of our nation's 
critical infrastructures. For example, criminal groups, foreign 
intelligence services, and terrorists are threats to our 
nation's computers and networks.
    To address these threats, federal law and policy calls for 
critical infrastructure protection activities and establishes 
DHS as our nation's focal point. It also designates other 
agencies to coordinate with key sectors, including energy, 
banking and finance, and telecommunications.
    This afternoon, as requested, I will summarize three key 
points. First, DHS has many responsibilities called for in law 
and policy that remain unfulfilled. Second, many challenges 
confront the department, including organizational stability and 
leadership. And, third, I will highlight our key 
recommendations to improve our nation's cybersecurity posture.
    Expanding on each of these. Last year, we reported to you, 
Mr. Chairman, that based on federal law and policy, DHS has 13 
key cybersecurity responsibilities that include developing a 
national plan, enhancing public-private information sharing of 
cyber threats, vulnerabilities and attacks, conducting a 
national cyber threat assessment, facilitating vulnerability 
assessments, and coordinating incident response and recovery 
efforts, if, in fact, attacks occur.
    Although DHS has initiated efforts that begin to address 
each of its responsibilities, the extent of progress varies and 
more work remains on each.
    For example, its computer emergency response team, referred 
to the U.S. CERT, issues warnings about vulnerabilities and 
coordinates responsibilities for cyber attacks. However, our 
nation still lacks a national threat assessment, sector 
vulnerability assessments, a mature analysis of warning 
capability, and key recovery plans, including a plan for 
recovering Internet functions.
    Despite federal policy requiring DHS to develop an 
integrated public-private Internet recovery plan, to date, no 
such plan exists. Such a plan is important because the Internet 
has been targeted and attacked and private sector companies, 
who own the majority of the Internet infrastructure, deal with 
cyber and physical disruptions on a regular basis.
    Several recent cyber attacks highlight the importance of 
having robust Internet recovery plans, including a 2002 
coordinated denial of service attack that targeted all 13 
Internet root servers.
    DHS faces a number of challenges in building its 
credibility as a stable, authoritative and capable organization 
that can fulfill its cyber critical infrastructure 
responsibilities.
    These include achieving organizational stability and 
authority. Filling the assistant secretary for cyber and 
telecommunications position is critical. However, leveraging 
this new authority will remain a challenge.
    Another challenge is establishing effective partnerships 
and information sharing arrangements with other government 
entities and the private sector.
    During our most recent interviews, representatives from 
various sectors told us that the level of trust is not 
sufficient to have productive information sharing.
    In addition, DHS needs to demonstrate value, meaning that 
it needs to provide useful and timely information on such items 
as threats and analytical products to key stakeholders.
    Regarding challenges that have impeded Internet recovery 
progress, it is unclear what government entity is in charge, 
what the government's role should be, and when they should get 
involved.
    Over the last several years, we have made a series of 
recommendations to enhance the cybersecurity of critical 
infrastructures that demand immediate attention, including 
conducting important threat and vulnerability assessments, 
developing a strategic analysis and warning capability for 
identifying potential threats, developing a strategy to protect 
infrastructure control systems, and developing recovery plans 
to respond to attacks, including a plan for Internet 
reconstitution.
    In summary, Mr. Chairman, DHS has made progress in planning 
and coordinating efforts to enhance cybersecurity, but much 
more needs to be done, including conducting threat 
vulnerability assessments, bolstering our analytical 
capabilities, aggressively pursuing threat and vulnerability 
reduction efforts, and developing recovery plans.
    Our testimony today lays out a comprehensive roadmap of key 
recommendations to help DHS tackle its many responsibilities.
    Until DHS addresses its many challenges and more fully 
completes critical activities, it cannot function as the 
cybersecurity focal point intended in federal law and policy, 
resulting in increased risks that large portions of our 
national infrastructure will be unprepared to effectively 
manage cybersecurity attacks.
    This concludes my statement. I would be pleased to respond 
to any questions.
    [The statement of Mr. Powner follows:]
    [GRAPHIC] [TIFF OMITTED] 35624.013
    
    [GRAPHIC] [TIFF OMITTED] 35624.014
    
    [GRAPHIC] [TIFF OMITTED] 35624.015
    
    [GRAPHIC] [TIFF OMITTED] 35624.016
    
    [GRAPHIC] [TIFF OMITTED] 35624.017
    
    [GRAPHIC] [TIFF OMITTED] 35624.018
    
    [GRAPHIC] [TIFF OMITTED] 35624.019
    
    [GRAPHIC] [TIFF OMITTED] 35624.020
    
    [GRAPHIC] [TIFF OMITTED] 35624.021
    
    [GRAPHIC] [TIFF OMITTED] 35624.022
    
    [GRAPHIC] [TIFF OMITTED] 35624.023
    
    [GRAPHIC] [TIFF OMITTED] 35624.024
    
    [GRAPHIC] [TIFF OMITTED] 35624.025
    
    [GRAPHIC] [TIFF OMITTED] 35624.026
    
     [GRAPHIC] [TIFF OMITTED] 35624.027
    
    [GRAPHIC] [TIFF OMITTED] 35624.028
    
     [GRAPHIC] [TIFF OMITTED] 35624.029
    
     [GRAPHIC] [TIFF OMITTED] 35624.030
    
    [GRAPHIC] [TIFF OMITTED] 35624.031
    
    [GRAPHIC] [TIFF OMITTED] 35624.032
    
     [GRAPHIC] [TIFF OMITTED] 35624.033
    
     [GRAPHIC] [TIFF OMITTED] 35624.034
    
     [GRAPHIC] [TIFF OMITTED] 35624.035
    
    Mr. Lungren. Thank you very much for your testimony, from 
both of you.
    If I knew how to work this thing, I would work it, too. 
Anyway, I will try and keep myself to 5 minutes.
    Mr. Foresman. Mr. Chairman, we do have a bunch of technical 
experts in the room.
    [Laughter.]
    Mr. Lungren. I know that. I just don't know which button to 
push. I am sure it will work out.
    Thank you very much for your testimony. I will give myself 
the first 5 minutes to ask you these questions.
    Mr. Foresman, in your testimony, you acknowledge--and in 
the letter that I received from the secretary, dated September 
12, that I received, I guess, today or last evening, in 
response to my letter of July 5--you acknowledge the importance 
of cybersecurity.
    Yet, this position has remained vacant for such a long 
period of time. From the outside looking in, that would suggest 
that you don't have that really at the top of your priority 
list or you don't think it is important to fill it, because in 
the letter that I received, you indicate that, ``Hey, we are 
still doing these things. It hasn't stopped us or slowed us 
down from doing it.''
    Why hasn't that attention been given to this?
    Mr. Foresman. Mr. Chairman, let me address it with two 
points.
    First, this has been the most top priority position since I 
came into office in January, and we have been through a number 
of candidates, candidates who have withdrawn from the IT 
industry, who found divestment of their businesses unattainable 
in the timeframes we needed to get them on board.
    We have had individuals that have gone through the security 
review process and, for a variety of reasons, have not been 
able to continue on. But we feel confident in the candidate 
that we do have.
    Part of this comes down to the fact that one person is 
absolutely critical, but not indispensable anymore than you, 
Mr. Chairman. If your director of constituent services leaves 
your office, it doesn't mean you quit doing constituent 
services.
    We have been continuing to move forward with this, but we 
weren't going to simply hire someone in order to fill the 
position. We wanted to get a top quality candidate, get a top 
quality individual.
    We believe that we are at that point. We felt like we were 
at that point several times before, but we are much further 
through the process this time.
    Mr. Lungren. Mr. Powner, based on your work, it appears 
that DHS has not fully addressed any of its 13 key 
cybersecurity responsibilities. Of the 13 key responsibilities, 
which, from your review, should be the highest priority for 
DHS?
    Mr. Powner. Clearly, within those areas of responsibility, 
there are some core areas that should be focused on. We look at 
threat assessment as being one. Vulnerability assessments and 
reduction activities in that area would be another key one. The 
third one would be bolstering their analytical capability.
    One of the issues in building credibility with the private 
sector is what does the government have that is of value to the 
private sector infrastructure owners. And if we had more robust 
analytical capability, where we were ahead of attacks, and I 
know the department is trying to pursue that with some of their 
projects, like Einstein and other things that are ongoing.
    But if we offered that to the private sector, they would be 
more willing to participate and share information with the 
government.
    Mr. Lungren. How much, if any, of the reluctance to 
participate--you say their lack of trust, I think is the word 
that you used--is the result of us not building into our 
legislation and our regulations protections against liability?
    That is, if I am on the outside looking in, the government 
comes to me and says, ``We would like you to share information 
with us with respect to the state of your cybersecurity,'' you 
may be reluctant because you may be looking at a lawsuit down 
the line if you are exposed as not having done everything that 
needs to be done, based on analysis done by the department.
    Do you have any sense of that?
    Mr. Powner. Well, we clearly hear that from some of the 
infrastructure owners that that is one reason why they do not 
provide any information.
    The second reason is, you know, they provide information, 
but what do they get back in return? If you don't get something 
in return, you are less willing to provide that.
    Although I will say, in all fairness to the department, 
they recently issued a rule which is associated with how 
critical infrastructure information is shared and there is 
greater clarity in terms of how that information is handled and 
protected on the government side.
    So that was clearly a step in the right direction that 
recently occurred.
    Mr. Lungren. Mr. Foresman, there is criticism, obviously, 
that you have not fully addressed any of the 13 key 
cybersecurity responsibilities.
    What would you say in response to that, number one? And, 
number two, how do you prioritize among those 13 in terms of 
what you need to do at the department?
    Mr. Foresman. Mr. Chairman, what I would say is we very 
much acknowledge the great work that the Government 
Accountability Office continues to do on a wide range of fronts 
and the recommendations that Mr. Powner has brought forward are 
ones that will help us chart the road ahead.
    But to the second piece of it, in terms of prioritization, 
this is not simply unilateral action on the part of the 
Department of Homeland Security.
    One of the reasons why we have a wide range of 
constituencies involved in this process, public sector and 
private sector, sector coordinating council, just being one of 
many examples, as we are working through the national 
infrastructure protection plan in the IT sector, is so that we 
can bring the private sector stakeholders to the table with 
government and in an environment of collaboration to make a 
mutual determination about where the priorities are, because if 
we in the department were to have a priority that was different 
than, say, the Office of Management and Budget at the federal 
level or the state of New York at the state level or Microsoft 
at the corporate level, we are not going to be headed in the 
same direction.
    So this is not the easiest environment in the world, 
because it is not a regulated environment. It shouldn't be a 
regulated environment. And we have got to create a mutually 
shared vision and gain a wide range of consensus.
    And, clearly, one of the things that we know is that there 
are market factors that can be brought into play that will 
incentivize. You mentioned liability, just being one of many.
    Mr. Lungren. My time, I believe, has expired. When we come 
back, I want to ask you about the three top priorities 
specifically.
    The gentlelady?
    Ms. Sanchez. Thank you, gentlemen, for being before us.
    You know, it is not just a lack of this assistant secretary 
that you have been unable to fill for the last year. I mean, 
the GAO noted, in its last report, in 2005, that there were 
various people who had left the department and that there 
really is no leadership going on.
    And my question is how can you say that because you haven't 
filled that position, you--I mean, there seems to be no 
leadership in this area.
    In fact, I think your report noted that some of the 
industry groups you had spoken to said that the lack of these 
positions being filled really noted a lack of leadership from 
that department.
    Is that not true?
    Mr. Foresman. Yes, that is true. What we heard from certain 
infrastructure owners was the lack of leadership was sending a 
message that it was not an administration priority.
    Ms. Sanchez. So is it an administration priority?
    Mr. Foresman. Ms. Sanchez, it is, in fact, an 
administration priority. When Secretary Chertoff went through 
the second stage review and we created this position, we did it 
in response to a desire on the part of the industry and a 
desire on the part of Congress, as well as the federal 
executive branch, to have greater collaboration and 
coordination.
    And I acknowledge and I am the first one to acknowledge 
that this has been a tough process to get this position filled.
    And, Congresswoman, I want to say it is not for wont of 
trying. We have been working exceptionally hard and, as you 
know, the department--it is hard to recruit, frankly, because 
there is great criticism of the department on many fronts.
    And many of the folks who have the IT background are making 
very substantial salaries in the private sector and you have to 
make a sacrifice to come into government and it has been 
difficult to find individuals willing to make the sacrifice.
    Ms. Sanchez. I think a lot of us make a sacrifice to come 
into the government.
    Mr. Dicks. Would you yield just for one question?
    On that very point, do you have an acting assistant 
secretary? We have acting secretaries all over the government. 
Is there an acting assistant secretary?
    Mr. Foresman. Congressman, there is. And we had Bob 
Stephan, who was our assistant secretary for infrastructure 
protection, was dual hatted, carrying the responsibilities of 
doing infrastructure protection, also overseeing the efforts of 
our cybersecurity and our national communications systems 
activities.
    Recently, we interjected the deputy undersecretary for 
preparedness, Rob Zitz, who works for me, to provide for the 
day-to-day management and oversight, in collaboration with the 
national cybersecurity division and the national communications 
system, simply because of the fact that we are going through 
trying to get the national infrastructure protection plan done, 
get all the sector coordination plans done.
    And Bob was doing yeoman's work with both hats on, but we 
have added an additional person in there to help make sure that 
the folks in both of these shops have the tools, the resources 
and the guidance necessary to be successful.
    Mr. Dicks. Thank you.
    Ms. Sanchez. Certainly, Mr. Dicks.
    So you are telling me that he was--did you officially do 
that? Because we never got word that you did this. You titled 
him with the acting secretary position?
    Mr. Foresman. We did not. What I am saying to you is--
    Ms. Sanchez. You just said you were going to give it all 
over to him to do.
    Mr. Foresman. No, ma'am. What we have said is that Mr. Zitz 
has the responsibility for ensuring day-to-day oversight and 
coordination efforts between the national cybersecurity 
division, as well as the national communications system.
    Ms. Sanchez. Okay, I think the question that Mr. Dicks had 
was did you have an acting assistant secretary for 
cybersecurity and telecommunications.
    Mr. Foresman. We did and that is Mr. Steffen.
    Ms. Sanchez. So he is doing both secretary positions.
    Mr. Foresman. He is doing both secretary positions. And, 
Congresswoman, he is on paper today doing the cybersecurity and 
the communications system in the context that Bob was working 
phenomenal hours, trying to do both jobs, and we added a second 
person in to provide day-to-day direction and oversight.
    Ms. Sanchez. Well, this is such an important job. I mean, I 
can't imagine that someone is going to have a real full-time 
job and then take this job on.
    And you can really sit there with a straight face and tell 
me that he was doing both jobs.
    Mr. Foresman. Congresswoman, my--
    Ms. Sanchez. That is like saying I am a congresswoman and 
Mr. Lungren's district doesn't have a congressperson, 
therefore, I am going to be the acting one. I mean, it is two 
jobs you just can't do together.
    Mr. Foresman. Well, Congresswoman, let me just offer this. 
In the context of providing advice and counsel to the men and 
women of both of these shops, providing strategic direction and 
leadership, we have plenty of folks who are available and are 
doing that on a day-to-day basis.
    Ms. Sanchez. Did you have a comment?
    Mr. Lungren. Well, if the gentlelady would yield for a 
second.
    Mr. Foresman, could you tell us when you do anticipate 
filling this position?
    Mr. Foresman. Congressman, as you know, the individual who 
will fill this position will have access to some of the most 
highly classified data that is available. They are going 
through the security clearance process.
    The way I would best characterize it is in terms of where 
one would normally expect them to be in the security clearance 
review process. They are way beyond that point, which shows 
that we are making getting the security clearance done a 
highest priority.
    Mr. Lungren. So is the answer that the only thing holding 
this up is the finalization of the security clearance?
    Mr. Foresman. That is correct.
    Ms. Sanchez. I want to talk about compensation for a 
minute, because we had the whole issue of Andy Purdy and being 
paid from different pots.
    Do you think that you have adequate protections in place to 
deal with potential conflicts of interest that arise when the 
IPA contractors oversee business arrangements between the 
government and their home employer?
    Mr. Foresman. Congresswoman, we do, but beyond that step, 
as you know, the department used a large number of IPAs in the 
early days to get the department up and running.
    We made a very deliberate decision and in consultation with 
the secretary and the deputy secretary, when I came on board, 
we are moving as many of the current IPA positions to full-time 
federal employee positions, recognizing that we are 
transitioning from what one would reasonably say is the startup 
point of the department, where IPAs were a necessity, to the 
point of where we need to convert these to full-time federal 
employees.
    Ms. Sanchez. So how many IPAs would you estimate are still 
around? And I am assuming what you are telling me is that you 
are moving them from however many you might have right now to a 
net of zero.
    You don't really want IPAs hanging around in the 
department?
    Mr. Foresman. No, Congresswoman, I wouldn't say that we are 
going to do it at a 100 percent. There is going to be a 
necessity for IPAs particularly in selected expertise areas, 
high science areas.
    But for the vast majority of positions that were IPA 
before, we are taking a very hard look at this and, frankly, we 
want to make sure that we had these as full-time federal 
employees, not subject to the provisions of some of the 
limitations that, frankly, are placed on IPAs, because they 
don't fit into that full-time federal employee status.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Lungren. The time of the gentlelady has expired.
    The gentleman from the state of Washington is recognized 
for 5 minutes.
    Mr. Dicks. Well, thank you.
    You have got this person that you signed a 2-year contract 
with, Andy Purdy, is that correct?
    Mr. Foresman. That is correct.
    Mr. Dicks. And 2 years to serve as acting director of the 
national cybersecurity division.
    Mr. Foresman. That is correct.
    Mr. Dicks. In a time when enduring leadership over the 
federal government's effort in this arena is vital, why would 
the department sign a two-year contract that expressly provides 
for an interim director?
    Mr. Foresman. Congressman, I will have to offer that that 
occurred before my arrival, but what I will say is that upon my 
arrival, upon my assumption of the duties and the 
responsibilities, we have looked at our IPA activities and I 
want to convert these over to FTE, full-time federal employee 
positions, and we are in the process of doing that.
    Mr. Dicks. Now, we know that the preparedness directorate 
also uses IPAs, as was mentioned. A recent news article 
revealed that acting NCSD director Andy Purdy receives a 
$277,000 salary, mostly paid by the department, all while 
overseeing a multi-million dollar budget for this home 
institution of Carnegie Mellon.
    Does the preparedness directorate have adequate protections 
in place to deal with potential conflicts of interest?
    Mr. Foresman. Congressman, as you know, this issue did come 
up in the public, in the press over the course of the last 
several months, and we went and did an exhaustive review of it.
    When Andy came on board, he was subjected to the same 
ethics requirements that the rest of the federal employees are 
subjected to. We have a series of checks and balances.
    We have separate business functions from those who oversee 
program activities. And we do feel like it was adequate.
    Mr. Dicks. The Cybersecurity Alliance have called for 
increased funding of cybersecurity efforts within the 
department. Yet, the administration lowered the budget by 
several hundred thousand dollars this year and the Senate 
Homeland Appropriations Committee recommended a decrease of 
almost $10 million for the budget request for 2007.
    Why is cybersecurity having such a hard time obtaining 
proper funding from the administration and from the majority 
party in the Senate?
    Mr. Foresman. Congressman, I think I would articulate it 
like this. We shouldn't measure our success or failure with 
cybersecurity efforts in dollars spent, but rather in the 
ability to leverage the resources.
    As a for instance, one of the things that the GAO report 
mentions in terms of the analytical ability--Mr. Chairman, this 
goes to one of your three top priorities--is enhancing our 
analytical ability.
    Part of that hinges on leveraging better the intelligence 
community. And I will tell you, Congressman, that as we look 
across the spectrum of things that we are doing on our 
cybersecurity efforts, we are trying to break down the 
stovepipes inside the department so that we don't have, if you 
will, two activities doing the same function.
    The Secret Service does elements of cyber training. Their 
cybersecurity division is involved in cyber training. And we 
are looking to achieve efficiencies where we can merge 
activities and get more bang for the buck.
    So I would not articulate that dollars spent is a clear 
indicator of whether we are being successful or not with our 
cybersecurity efforts.
    Mr. Dicks. Well, Mr. Powner, you are the GAO fellow, right?
    Mr. Powner. Correct.
    Mr. Dicks. I missed your presentation, but you guys have 
done studies over the last several years and it is still your 
impression that we are not making very much progress in terms 
of getting this area moving forward.
    Mr. Powner. Well, if you look comprehensively at the whole 
plan for tackling the cyber critical infrastructure protection 
arena, we can go back to 1996, with Presidential Directive 63. 
We haven't made much progress.
    We put a lot of plans--
    Ms. Sanchez. May I ask a question related to that?
    Mr. Dicks. Let him finish his answer. Then I will yield to 
you.
    Mr. Powner. I mean, we put resources and there are always 
plans in place, but we need to get off of putting plans in 
place and actually get down to implementation.
    We are going to get sector-specific plans, hopefully, at 
the end of the year, that are tied to the national 
infrastructure protection plan. Hopefully, those plans move us 
beyond another plan, but more into vulnerability assessments, 
efforts to protect our infrastructure, efforts to reduce the 
vulnerabilities that are out there, and, also, to put in place 
recovery plans.
    We don't have those things, if you look at--individual 
companies do, yes, but if you look at sector by sector and what 
is called for in law and policy, we do not have those.
    Mr. Dicks. I yield.
    Ms. Sanchez. Do you think they have a vision? I mean, with 
nobody at the top really under this and with so many people 
having come in and been cyber czar, as I call them, I think the 
fifth person now.
    I mean, do the people that work in this area and does the 
department really have a vision about what they are supposed to 
be doing or do you find them struggling?
    Mr. Powner. Clearly, they are struggling, in aspects. But 
in terms of a vision, there is a national infrastructure 
protection plan that has a lot of the right pieces in place. It 
calls for the right things, to engage the right parties.
    Now, what we need to do is to engage those parties and move 
forward on the implementation phase. So I would say the 
national infrastructure protection plan, a lot of the aspects 
of that plan are pretty good, but now the challenge becomes in 
implementing it and it is tough to implement it when you have 
this history of not necessarily having the strongest 
relationship with various sectors in the private sector who own 
the majority of the infrastructure.
    It is a huge challenge.
    Ms. Sanchez. Thank you, Mr. Dicks.
    Mr. Dicks. Let me ask you these. We spent a lot of money in 
the Department of Defense looking at cybersecurity from a 
Defense Department perspective. I serve on Defense 
Appropriations. Has DHS benefited at all from the work that was 
done at the DOD?
    Mr. Powner. A couple comments. I think, clearly, we could 
leverage other aspects of the federal government where we have 
made progress. DOD, if you look at their defense cybersecurity 
lab, if you look at their joint task force, they have got many 
areas that look at cyber initiatives.
    And I think the department has acknowledged that trying to 
link up and leverage those aspects within the Department of 
Defense and build a partnership in those areas are needed.
    Mr. Dicks. Mr. Chairman, just one quick, last, brief 
question.
    Mr. Lungren. Sure, go right ahead.
    Mr. Dicks. Thank you.
    Mr. Foresman, did the DHS ethics officer approve the Purdy 
arrangement?
    Mr. Foresman. Congressman, I believe he did, but let me 
confirm that and provide you a written response.
    Mr. Dicks. Get us a response. And if there was a letter 
written at the time, we would like to have that, if that would 
be all right with the chairman.
    Mr. Lungren. That would be fine.
    Mr. Dicks. I think we need to be able to see a copy of what 
was sent at the time.
    Does the GAO know anything about that?
    Mr. Powner. No, sir.
    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    Mr. Lungren. The gentleman's time has expired.
    The gentleman from Indiana is recognized for 5 minutes.
    Mr. Souder. I appreciate your testimony and the 
unbelievable complexity of the challenge.
    I had kind of a side question, but I wonder how it is 
extending the front that you have to defend.
    I know in the GAO testimony, you have about how to protect 
government computers and there is a reference also to the 
university names that were stolen and others.
    But in the Veterans a Administration, where we, in effect, 
had most of our veterans a, a high percentage of our veterans a 
names appeared to have been stolen in a random burglary, 
because it went home and the computer went home, and, at one 
point, it looked like we might have even compromised home 
addresses and our active servicemen, meaning that they would be 
vulnerable.
    How does the whole experience of contracting out, not only 
in the government arena, but in the private arena--are you 
looking at how to build--I understand the veterans a department 
is trying to work additional firewalls in.
    How are we going to handle this without, in effect, pulling 
everything back inside a few walls? This is like making our 
entire system vulnerable at its weakest link, which is at home. 
It is vulnerable to random robberies, penetrations of some kid 
hacker on his dad's computer.
    Mr. Foresman. Congressman, let me start and maybe Mr. 
Powner may have additional comments. This actually very much 
underscores the complexity of probably among our greatest 
vulnerabilities is not on our networks, as I think some of your 
next panels of witnesses will talk about, but in the context of 
the computer sitting on the desk at home or in the small 
business office somewhere.
    And, you know, this becomes the same challenge that we have 
when we talk about how do we prepare America for emergencies 
and disasters of any kind and part of this comes back to 
citizen education.
    You know, October is national cybersecurity awareness month 
and just as much as we want the average citizen to know that 
they need to check their smoke detector batteries in October, 
we also want our citizens to know that you can at buy the 
computer, you can't load the software on it, and you can't say, 
``Okay, I am good forever on until I get the next computer.''
    And it requires maintenance, it requires work, and this is 
one of the areas where I think strong collaboration between the 
public sector and the private sector, constant messaging is 
going to be absolutely critical.
    Mr. Powner. Just to second that, when you look at security 
as a whole, it is only as good as your weakest link.
    We do a lot of work not only looking at cyber critical 
infrastructure, but looking at individual agencies and 
departments. We have a lab internally that we attempt to break 
into systems and networks in federal departments and agencies 
and we are almost always successful.
    But there are simple things, like when you are not 
successful, we will call the Department of Homeland Security 
and say, ``We are working for Mr. Foresman and he forgot his 
password and can you give it to us.'' And you know what? We 
usually get it.
    So it is those type of things, too, and it makes it very 
difficult, because you have got this huge technological 
component that you have to secure, but it is also relying on 
the individuals and the people, too.
    And educating everyone and having that whole picture in 
place is very difficult with many of these departments.
    Mr. Souder. Well, thank you for scaring me even more. Mr. 
Chairman, I want to point out, I have blue and gold on.
    Mr. Lungren. That is very good. I am just painting my 
office blue and gold, after the victory against Penn State, I 
guess it was. Now it is Michigan, the next one coming up.
    The gentlelady from the great state of Texas is recognized 
for 5 minutes.
    Ms. Jackson-Lee. Well, you know, I am stuck in orange and 
we are struggling, but we are going to make it.
    Mr. Lungren. I wasn't going to say a thing.
    Ms. Jackson-Lee. But thank you very much, Mr. Chairman, to 
the ranking member.
    I am going to use a part of my time to try to articulate 
some of the piquing frustration. As I do that, Mr. Foresman, I 
do want to acknowledge that you are a superb professional. We 
thank you for your service.
    We thank Mr. Powner, as well, and the GAO is certainly one 
of our frequent witnesses throughout the Congress.
    But I notice that this room is particularly tranquil and 
very well appointed and would give us a sense of calm. Here is 
my frustration.
    We are not living in a calm arena. Day to day, we are 
noting the use of technology, levels of sophistication by Al 
Qaida, certainly the new sophisticated creative uses of mere 
liquids that would create havoc in the nations and the world 
skies, and, of course, as my colleague mentioned, the ludicrous 
incident or accident of a missing laptop and thousands upon 
thousands of veterans a personal information.
    I just had a hearing yesterday on the National Security 
Agency and, of course, the issues dealing with warrantless 
searches, which speaks to corporations who are now either 
engaged or not engaged in providing data, issues of data 
mining.
    These are major issues and I guess as I look at this 
structure that you have, I am a little--we call it unready, a 
great deal of discomfort.
    Mr. Purdy may be a very fine professional himself, but I am 
listening to Mr. Powner, who said he is completely blank on 
this arrangement.
    My concern would be attention span and the ability to run a 
multi-conglomerate, whatever responsibility Mr. Purdy has, 
whether or not he has put it in trust, I am not sure, and this 
very important responsibility.
    I do hear you saying that there is a process going and 
someone is being embedded as we speak.
    But I think the message I want you to take back to 
Secretary Chertoff, and we had great hopes and dreams for 
homeland security, we still do, we wouldn't be here, committed, 
as you heard, that there has to be a certain energy, a certain 
sense of urgency, a certain sense of panic, that we wouldn't 
have to see one area after another be vacant, be with acting or 
interim.
    And we are all sort of facing those uphill obstacles. You 
are not the personnel director, of course, but I think it is 
important to note that the idea of staffing is crucial.
    So maybe you can give me a sense of who is working under 
Mr. Purdy. What kind of shop do we have there? Vision has never 
been--it is good planning, but it has never been answers to 
terrorism, because we can visioning for a long time and subject 
the American people to a major, if you will, terrorist attack.
    We are all sort of sitting on edge because we know that 
just by the nature of this heinous business now that is going 
on the world, that we are certainly as vulnerable as the next. 
We are trying to secure this nation, but we have a lot of 
gaping holes.
    So tell me what staffing you have and what are you 
practically doing as it relates to cybersecurity, because you 
have got an interim person?
    And, Mr. Powner, in my closing moment, would you then take 
it to the next level of what are the Achilles heels as we are 
presently structured? The interim person, maybe some of your 
questions not being answered, in a world of cybersecurity.
    And I yield to you, Mr. Foresman.
    Mr. Foresman. Congresswoman, thank you for the question. 
And let me also, to the context of what Congressman Dicks asked 
about, I did get a note from staff and the ethics officer did 
review the arrangement before Mr. Purdy came on board. So it 
did go through the ethics review process, but we will provide 
any additional clarity that you wish.
    I would generally break four primary functions in the 
national cybersecurity division and some of the most talented 
men and women and very dedicated men and women, and I would 
invite all of you all to come out to the U.S. CERT center out 
in Northern Virginia and see what they do every day to monitor 
what is going on across the Internet, to identify and look for 
vulnerabilities.
    Ms. Jackson-Lee. Do you know the numbers of your staff, how 
many are out there?
    Mr. Foresman. I can get you an approximate. Congresswoman, 
I don't know off--
    Ms. Jackson-Lee. But is every spot filled?
    Mr. Foresman. I believe that they are close, because we are 
making sure vacancies--
    Ms. Jackson-Lee. You are making headway.
    Mr. Foresman. Minimizing vacancies. But there are four 
primary buckets. One is kind of the detection and monitoring. 
That is the U.S. CERT folks. That is the operational piece, 
knowing what is going on, having a place that the federal 
interagency and the private sector can reach into 24/7 to be 
able to do it.
    The second category is those efforts that are targeted 
towards raising education and awareness across the university 
sector and that type of activity.
    The third area is what is traditionally the planning, 
getting the private sector and the public sector folks in the 
room together and making sure that we know how we are going to 
respond to a threat, we know how we are going to respond to an 
actual event, we know how we are going to implement recovery.
    And those are the folks who had the hard time of 
translating the idea for greater cooperation.
    Ms. Jackson-Lee. And your team is engaged in information 
sharing. You are part of the component that deals with the 
information sharing component. I assume that you look at 
information.
    Are you the gatherers or are you providing information out?
    Mr. Foresman. Well, it is both. It is really both being--
    Ms. Jackson-Lee. You are functioning in two ways. You feel 
confident that you are functioning now with your staff.
    Mr. Foresman. We are functioning, but, Congresswoman, I am 
not going to mislead you or this committee. We got our high 
track activity, which is a collaborative activity that is 
responsible for getting intelligence information out to the 
private sector and getting it back in and feeding it into the 
intelligence community.
    We have got the work of the U.S. CERT. We have got our 
national operations center, the national coordination center 
for telecommunications. They are closer and better tied than 
they were a year ago. They are closer and much better tied than 
they were 4 years ago or 3 years ago, when the department was 
stood up.
    But we still have more work to do and we need to make sure 
it is a seamless operation. One of the things I said earlier in 
my testimony was we are going to put the telecommunications 
coordinating group that is there 24/7 right next to the 
information technology, the cybersecurity group that is there 
24/7, because the telecommunications infrastructure and our 
information technology infrastructure are inextricably related 
and we want to make sure that those folks are sitting next to 
each other when things go on so that they can share that 
information back and forth.
    Ms. Jackson-Lee. Mr. Chairman, if you will indulge me, so 
that Mr. Powner could respond, please.
    Thank you. Thank you, Mr. Foresman.
    Mr. Powner. Congresswoman, clearly, there are--getting at 
the human capital issue within the department there, clearly, 
there are many capable men and women within the national 
cybersecurity division. Many of them are sitting in this room 
today. We just need more of them.
    In terms of leadership, though, there is a leadership void. 
We need a permanent leader not only for the department 
internally, but because of the interaction with the private 
sector, the state and local governments.
    So we clearly need that. This isn't the only department 
that has struggled with getting capable folks on board. I do 
work in many areas across the federal government. IRS is an 
example.
    They had a huge human capital issue there, not being able 
to deliver. I can say today, looking at them over a number of 
years, they have one of the better IT organizations when it 
comes to their modernization efforts.
    They still have hiccups, but how did they do that? They got 
critical position pay, where they paid folks above the SES 
salary cap. So there are things you could do and you could 
pursue.
    It is not perfect, because it is still difficult to compete 
with the private sector salaries, but there are things you 
could do and you could pursue and there are some good examples 
out there in other federal departments that we could move 
forward on.
    Ms. Jackson-Lee. Thank you.
    To you, Mr. Chairman, I would just say those of us who live 
beyond the beltway, I would really like to give an SOS e-mail 
to our friends here in Washington to start going out and 
recruiting across the country, whether it is Texas or 
California or Washington state.
    We have got to be able to find good people and good people 
are out there and there must be some recruiting blindness, but 
we need to start reaching out to our own constituents, because 
they are out there and they know this business.
    And I yield back. Thank you.
    Mr. Lungren. I thank the gentlelady. We will do a second 
round with this panel before we go to the second panel.
    Mr. Foresman, you were going to tell me what the three top 
priorities are regarding cybersecurity responsibilities? You 
gave us one, which is enhancing analytical abilities.
    What would the other two be?
    Mr. Foresman. Congressman, clearly, it is the ability to 
effect the coordination between the agencies of the federal 
government with our state and local partners and between 
government and the private sector, just the basic operational 
coordination.
    And then the second one is information sharing. As Mr. 
Powner pointed out, there has got to be a tangible benefit to 
the private sector and this is not just limited to the 
information technology sector. This is across all of our 
critical, whether we are talking about ports in transportation 
systems or our IT systems.
    What is the value added for the private sector to share 
information with government and, conversely, government has got 
to--it has got to be a two-way street.
    Mr. Lungren. I mean, part of this hearing is, obviously, 
beating up on you, because the department hasn't done as much 
as it needs to do in this area. But, look, I am going to 
confess, the Congress hasn't either.
    If there is one area that we probably lag behind in terms 
of the array of vulnerabilities we have, in my judgment, more 
than anything else, it is probably cybersecurity.
    But we will keep sending these letters to you and we will 
still keep prodding you to do these things.
    Mr. Dicks. Mr. Chairman, didn't we have national commission 
on cybersecurity? That, I thought, did an outstanding effort. I 
mean, this issue has been out there.
    Mr. Lungren. I am not saying the issue hasn't been out 
there. What I am suggesting is, I mean, as I look at the 
Congress, I am not sure that we have done what we need to do.
    Mr. Dicks. In terms of oversight?
    Mr. Lungren. In terms of oversight, in terms of prodding 
the department. I just want to let you know we are going to be 
doing a much stronger job on that. We are going to be inviting 
you to come up here more often.
    We are going to be sending letters out. We are going to 
make inquiries. We need to get moving on this.
    This is not as visible as a physical piece of critical 
infrastructure, yet it is as important, if not more important, 
because it is embedded in and underlies so much of what we do.
    And in that regard, I would ask you about the SCADA 
systems, the control systems that we have. They are so 
critical, as they provide a link between the cyber world and 
the physical world. These need to be a top priority.
    Does the department have a specific plan to work with 
various critical infrastructure sectors to protect their 
control systems, to actually get it done? As Mr. Powner said, 
we have done a lot of studies, a lot of planning.
    Are we actually doing it?
    Mr. Foresman. Congressman, three quick points on that. 
First, we are looking, as we are doing all of the sector plans, 
whether it is the chemical sector or the dam sector, all of 
these other ones that have SCADA systems that we are concerned 
about.
    We have got a cyber component that is built in as they go 
about doing their sector coordination. The sector coordinating 
councils develop their sector-specific plans and then part of 
this is having them say what is the best practice, what is the 
acceptable standard that we are promoting and pushing within a 
particular sector and having that implemented.
    The second piece is training and education and I think you 
and this committee undoubtedly understand the SCADA issues as 
well as any group out there and there is a growing need to 
educate.
    As a matter of fact, here at the end of the month, there is 
a session that we are going to be teaching out in Las Vegas in 
conjunction with a conference, where we are going to focus 
exclusively on the SCADA issues and protection and prevention 
measures associated with it.
    And then the third part of it is there is a business issue 
here. You know, if you think about SCADA systems, the control 
systems back pre-a92-a93, when we saw the major proliferation 
of information technology, the older systems tend not to be as 
reliant on the Internet as those that are built into the 
current systems.
    And a lot of this is we have to make the business case to 
corporate America that protection of their SCADA systems goes 
back to what you talked about earlier, the liability issue. 
What is the acceptable national standard by which someone will 
be judged as it relates to the protection of SCADA systems?
    And, frankly, I think that market-driven incentives rather 
than overt, heavy-handed regulation is going to get us there, 
but there is a liability issue for corporate America and we 
need to make sure that we articulate that.
    Mr. Lungren. And one of the things we have to do, from our 
standpoint, working with your department, is to ensure that we 
know that the landscape is out there. How can we get the 
information from the various sectors dealing with their own 
cybersecurity?
    How are we going to develop the trust such that they will 
give us that information, so that we can utilize it, so that we 
can make a better judgment here in the Congress as to what 
makes sense from a legislative standpoint as opposed to what 
makes sense from a regulatory standpoint as opposed to what 
makes sense from an incentive standpoint as opposed to what 
makes sense from the risk management experts, which is the 
insurance industry?
    If we don't have that information, we may be heavy-handed 
on the regulatory side or the statutory side only because we 
don't have that information.
    So we have to build a relationship of trust with the 
private sector so that they will feel free to share that 
information with us, feel free to share it with you.
    That is not an easy thing to do, even with the question of 
liability. But beyond that, do they trust us to have the 
competence to be able to deal with the information they give 
us?
    So I am looking at this not to point fingers at people. I 
am looking at this to solve a problem. And when we are given 
the responsibility in this committee and this subcommittee of 
dealing with critical infrastructure, it seems to me, if we 
don't look at cybersecurity as a part of that, we are not doing 
our job.
    And we are like a non-modern governmental entity trying to 
deal with a modern world. It just isn't going to work.
    So we will be pressing and working hard and we will do this 
on a bipartisan basis, because I know the concern is shared by 
both Democrats and Republicans.
    All right, if I can get this working again, I will start it 
off for another 5 minutes for my ranking member, the gentlelady 
from California.
    Ms. Sanchez. Thank you, Mr. Chairman. I just want to say 
that one of the reasons that we may have not been paying as 
much attention lately to cybersecurity is, as you will recall, 
when we first started the Homeland Security Committee, we had 
an actual subcommittee that dealt with cybersecurity.
    And then the reorg that happened in the last 2 years, this 
was put under the jurisdiction of this subcommittee, which, as 
you know, has an extensive portfolio and trying to get through 
TSA and ports and everything else.
    I guess this may be the second hearing that we have had on 
cybersecurity in the 2 years.
    So it is important to get done. I just don't know how we 
also will find the time. It is always a difficult thing to do.
    And there are some good things that have come out of the 
directorate. As you know, when we have been in the markup 
sessions, I have tried to put more money into some of the 
programs that I think have been done well.
    So for me, it is more of understanding that we have had 
this revolving door at the top and the frustration of not being 
able to fill it and the idea of the people, the rest of the 
people in the agency having less direction than they probably 
need to get things done.
    So that is why we are so, I think, concerned to see this 
issue of filling the slots with competent people who want to 
stay around, which we see in a lot of the different areas of 
homeland security. It is a major problem. And the morale issues 
and the pay issues and everything that go with it.
    And just, you know, developing something new, it takes a 
special kind of person. A lot of people can follow, but it is 
hard to lead. So we really need to fill those leadership 
positions.
    The GAO said that progress to date on initiatives to 
improve the nation's ability to recover from Internet 
disruption, that the progress had been limited and that other 
initiatives lacked timeframes for completion, and, also, that 
the relationships between these initiatives are not evident.
    Can you tell me what efforts must be made by the department 
to achieve the kinds of relationships that need to exist for 
these initiatives to work? Again, the ones that deal with 
working groups to facilitate coordination and exercises in 
which government and the private industry practice respond to 
cyber events.
    Mr. Foresman. Congresswoman, I think there are three really 
big issues here. One is clear deliverable timelines and I will 
tell you, this is an issue--you noted correctly that the 
department continues to go through growing pains, but we have 
gotten through that first visceral reaction of getting the 
department up and running.
    And we do need to take a collective deep breath and look at 
all of the things that we are doing and make sure and make sure 
what we are doing is still what we need to be doing this time 
next week, but that we are putting specific deliverable 
timelines on these.
    And I think part of this, and I talked to Mr. Powner ahead 
of time, when we get the new assistant secretary on board, I 
would like to sit down with the GAO and amalgamate all of the 
recommendations across the cyber front and develop a matrix.
    I am not going to say we are going to do them all, but 
there is a lot of great work that has gone in there. There is a 
lot of great work that is coming out of the sector coordinating 
councils.
    One of the advantages is we are working with the business 
sector. They don't do well if we don't have clear, definitive 
end products that we are looking for and timelines. So they are 
helping to push us. That is the first thing.
    The second piece of it really comes down to the issue of 
trust that we have talked about. And I want to be clear, when 
we talk about trust, these types of public-private sector 
relationships, even going back to PDD-63 in the 1990s 
timeframe, and 67, this is new. Government has always been a 
regulator and private sector has always been a regulatee.
    So we are talking about new relationships here. The PCII 
rule, the protecting critical infrastructure information, the 
tool that this Congress gave to the department, a very 
important tool, we have taken, we have implemented just here in 
the last several months, and it provides an additional layer of 
competence to the private sector that key information that they 
provide to us is not going to end up out in the public domain, 
particularly where we are talking about proprietary 
information, because you know one bad piece of information 
affects stock prices and we understand that.
    So I am anxious to see how the PCII rule, married together 
with our ongoing relationships, provides tangible benefits as 
we go forward.
    And then the third piece of it is I think it is going to 
come back to as we define and continue to work with Congress on 
this issue, we have got a national strategy on securing 
cyberspace. That is the high level document.
    As Mr. Powner said, we have got the national infrastructure 
protection plan, the next level down. We have got the sector 
coordination plans that are being put--the sector-specific 
plans that are being put together.
    But we have got to get down into the implementation level 
and that is what normally would come next in the cycle. That is 
what is normally going to come next in the cycle, but I will 
tell you I don't want to be up here 6 months from now telling 
you all we haven't made progress.
    I would like to be able to appear before this subcommittee 
and say here are the 15 or 20 things--or, actually, I would 
like to have the assistant secretary appear before you all and 
say here are the 15 or 20 things that have gotten done in the 
last 6 months and, by the way, here are the 15 or 20 things 
that the private sector agrees with us that we are going to do 
in the next 6 months.
    Ms. Sanchez. Mr. Powner, do you have anything you might 
want to enlighten us on that?
    Mr. Powner. Just one comment about the whole trust issue. 
There is a lot of discussion about building trust and I think 
naming the secretary position, that will be great going 
forward.
    But we don't build trust through individuals or because we 
are competent or a good person in this position. You are going 
to build trust with the private sector because the government 
is going to have something that is of value to them.
    And right now we need to grow the capability in the 
government to offer something that is of value. That is 
ultimately how you are going to build trust.
    I have spent some time in the telecommunications sector 
and, I will tell you, when I was there, we didn't share a lot 
with the government, because the ultimate question was what 
benefit is that to our company.
    If we are interested in stock prices, when we have someone 
we wanted prosecuted because they were in our central office, 
that is when we wanted the government assistance, because they 
could help us.
    He key question is building trust. I think we go back to 
that analytical capability and some of the key items that are 
called for, called for in policy and in law. If we start 
tackling some of those key priorities, we can build trust.
    It is difficult, but I think there are some things that are 
in place that we can march forward with.
    Ms. Sanchez. Thank you.
    Mr. Lungren. Thank you.
    The gentleman from Indiana is recognized for 5 minutes.
    Mr. Souder. First, I wanted to say something about the 
Cybersecurity Subcommittee here. That is, first, I want to 
thank the speaker for giving us any flexibility at all to do 
cybersecurity.
    The Energy and Commerce Committee has been trying to muscle 
this committee and we need to push back. In every session of 
Congress, we need to work to make sure jurisdiction for 
homeland security stays under this committee.
    It is a wonder that we have had any jurisdiction, given how 
hard they went after our committee on that.
    Mr. Lungren. If the gentleman would yield on that.
    One of the points I have been trying to make is if 
cybersecurity is not part and parcel of critical 
infrastructure, I don't know what is. And I didn't come back 
here to have fights with other committees, but we need to do 
our job and we cannot do our job in terms of critical 
infrastructure protection if we do not involve ourselves in an 
major way in terms of cybersecurity.
    Mr. Souder. There are members of Congress in both political 
parties that would love to see the death of this committee and 
we need to fight.
    Ms. Sanchez. Will the gentleman yield for one second?
    When I was talking about the history of this, what I meant 
is it is so critical. I mean, it warranted its own subcommittee 
before. It is very important.
    Mr. Souder. Because my concern was that we weren't going to 
have any jurisdiction whatsoever, because that was why we 
initially eliminated the cybersecurity, because we had that.
    Energy and Commerce tried to make a move to exclude us from 
having any jurisdiction and the chairman and the committee and 
the subcommittee chairman here has put some cybersecurity in, 
because we are all in agreement here what we need to do is make 
sure that this committee--because if you don't have 
cybersecurity, everything else falls apart.
    As the chairman just said, we are acting like we are in the 
dark ages here. This is where they are talking the stories that 
you have in here on the worms and what can happen at nuclear 
power plants, what happens if our electrical grid shuts down, 
the internal security of the United States.
    There are lots of things that people just assume are 
protected. I felt the most scaring, eye-opening hearing--it 
wasn't a hearing--a briefing that I had was with the 
cybersecurity subcommittee under this, when we first created 
homeland security, and we had the guy who had originally been 
the attacker of our systems and now the defender of our Defense 
Department systems.
    I just can't see anything other than that repeated, 
firewalls with incredible strength to feel off different parts, 
we are never going to be able to protect everything, is, in my 
book, the number one thing that has to be done.
    How that can be done on the Internet, surely, we have to 
have the ability to cut this off, much like if the bird flu 
hits, how you are going to have to do segmentation of society 
like we did in 1916 with the flu epidemic.
    You have to be able to isolate this stuff more rapidly than 
we are doing.
    But I had a couple other particular questions. I would be 
interested if you agree that that is the biggest challenge, is 
how to wall it off when we get hit.
    But one is clearly staffing and you are competing in an 
industry that pays incredible amounts of money, trying to keep 
people long term, divest stocks that they have, it is a huge 
challenge.
    Have you been looking at innovative payroll type things, 
that if somebody stays a period longer, they get a bonus? In 
other words, tier the pay somewhat on how long they are there.
    Should we be looking at personnel things that change? 
Because this is not a typical department. And I don't see, in 
the future, that there is going to be less demand for people 
with high skill cybersecurity and we don't want to have 
basically the people who couldn't quite cut it out in the 
rating field trying to defend us from the people who want to 
attack us, because there is incredible amounts of money to be 
made by attacking a system.
    And a second part of this is that as I was alluding to 
earlier and you correctly said, the weakest part of the system 
is our vulnerability.
    As we look at contracting out, as companies diversify and 
you have all these different modes of operation, are we looking 
at requiring different security systems for the level of the 
vulnerability of the site that you are at and putting in 
requirements and penalties if you fail to do that?
    In other words, yes, we need cooperation. I am a free 
market businessperson who wants to see cooperation. But there 
are certain things that the society assumes are happening.
    And the question is how do we put in certain safeguards, 
because now it isn't just your business, you can endanger 
everybody in the United States because you got sloppy.
    What are we doing in putting in standards that if you are 
going to have access that can get you into one of these 
networks, particularly if we are a little uncertain of our 
wall, to do that?
    Mr. Foresman. Congressman, let me maybe give three points, 
and I don't know whether Mr. Powner might want to add 
something, as well.
    But I would also suggest that your next panel, I think, 
could address that same question and give some good clarity to 
it.
    The first part, in terms of filling this position, I have 
looked at every innovative human resource opportunity that we 
can and there is nobody in the city of Washington who wants 
this position filled more than the undersecretary for 
preparedness at the Department of Homeland Security, for a 
whole bunch of reasons.
    But to one of the things that Congresswoman Sanchez said, 
we made it very clear that whoever was going to sign up with 
this was going to sign up for the long term, because we didn't 
need a revolving door and that would have been the worst thing 
for industry.
    So we put some strong parameters on it. Please come serve 
the nation and, oh, by the way, you have got to be here for the 
long haul, and that did scare some people off, in addition to 
the things you have mentioned.
    But we are restricted by law in certain categories, but we 
have tried to be innovative.
    To the second point, I think I would very much offer to you 
that industry has shown tremendous progress at developing, if 
you will, acceptable standards and practices, but they are not 
universally adopted across all industries.
    So part of this is going to be the ongoing dialogue and 
discussion with the private sector about how do we get 
universal compliance. Is it going to be through market-driven 
incentives, through insurance? Is it going to be through 
regulation?
    We don't know the answer to that, but I will offer to you 
that I have met very few folks in the technology community that 
don't understand the vulnerabilities. But as one person said at 
a session this morning, you have got to compare the bottom line 
and the needs of the moment.
    And these are tough decisions and I think we may need to 
provide some structural policy incentives to make it all 
happen, but ultimately, the same that we develop the Internet 
through innovation, we probably need to develop increased 
security through innovation.
    Mr. Lungren. The time of the gentleman has expired.
    The gentleman from Washington is recognized for 5 minutes.
    Mr. Dicks. Thank you, Mr. Chairman.
    I want to go back to this question about Andy Purdy. As we 
understand, as I said, he earns $245,000, roughly, a year. The 
secretary of homeland security makes $175,000, but he is also 
on loan from the school to the government, which is paying 
nearly all his salary. Is that correct?
    Mr. Foresman. Congressman, I will need to go back and--
    Mr. Dicks. He is here today. He is here in the audience.
    Mr. Foresman. I understand that. But in terms of the 
contractual relationship, I would like to provide you a written 
response to that so that we are very clear.
    But on the first part of it, let me also acknowledge that 
when we talk about compensation packages, we have to remember 
that what my base salary is in the federal government, on top 
of it, there is a 33-34 percent package on top of it.
    Mr. Dicks. Right.
    Mr. Foresman. So I think part of it is looking at this in 
terms of the total compensation, but I am more than happy to 
provide a detailed written response to you.
    Mr. Dicks. Now, as of January 2006, the national 
cybersecurity division had 27 government employees out of 40 
full-time equivalent positions assigned. These 27 employees 
make up only 27 percent of the total workforce, with the 
remaining 73 percent being provided through contracts with one 
or more of 10 different private sector organizations, such as 
Booz Allen Hamilton and SRA International, Inc.
    In addition, NCSD has contracts with Carnegie Mellon 
University totaling $19 million, which is one-fifth of the 
unit's total budget.
    Now, that appears to me to be a very questionable practice. 
How can you have a person who is running the division and being 
paid by Carnegie Mellon also giving contracts to them of $19 
million? I don't understand that.
    Mr. Foresman. Congressman, three points on that. First, 
when I assumed this position in January, we did have a large 
number of unfilled positions, as well as a lot of contractors, 
IPAs and contract support.
    We made a very deliberate policy decision in the 
department. That was the way to get the department up and 
running back when Congress created it.
    But as we move forward, we are trying to transition as many 
positions as possible into full-time federal employee 
positions. That process continues to take time, but we have 
made hiring and filling vacant positions and transitioning as 
many from contract status to permanent status a priority.
    In terms of Mr. Purdy and the relationship with Carnegie 
Mellon, we do have checks and balances in place. His ability to 
obligate funds is not sole and exclusive in the context of not 
having checks and balances.
    And, in fact, what I will--
    Mr. Dicks. What are the checks and balances?
    Mr. Foresman. Well, there are a variety of checks and 
balances. You have to go through the business review process, 
through a procurement process.
    And what I would like to do is describe those for you and 
for the committee in exact detail, because, Congressman, if I 
attempted to do it, I am going to miss an important part and 
that is going to create an incorrect picture and I want to 
paint the correct picture of what--
    Mr. Dicks. Well, the picture isn't real pretty, as far as I 
am concerned. This doesn't look right to me.
    Has he recused himself from making any decisions about 
Carnegie Mellon?
    Mr. Foresman. Congressman, I believe in the context of his 
ethics agreement, he is, but, again, let me--
    Mr. Dicks. He is right here. Why can't you let him testify?
    Mr. Foresman. But, Congressman, he is not the witness and 
what I would prefer to do is to make sure that we get you a 
factual and accurate answer, please.
    Mr. Dicks. Well, Mr. Chairman, I think the gentleman is 
here in the audience, I think we ought to have him testify.
    Mr. Lungren. Well, the problem is he was not requested to 
testify. We did not notify that he was going to be asked to 
testify.
    Mr. Dicks. Well, the administration's witnesses bring up 
people with them all the time, in all the hearings I have ever 
been in. If the person is there and can answer the question, I 
think the question ought to be answered.
    Mr. Lungren. I don't want to avoid this, but that is not 
the procedure we follow in this subcommittee. We notice people. 
They are given an opportunity to know they are going to testify 
and if it is appropriate--
    Mr. Dicks. How long is it going to take to get an answer to 
this question?
    Mr. Lungren. Mr. Foresman, could you get an answer to us in 
written form within the week?
    Mr. Foresman. Yes, sir. Well, what day of the week is it, 
Congressman, Wednesday?
    Mr. Lungren. Yes.
    Mr. Foresman. I think Friday is reasonable, yes, sir.
    Mr. Lungren. And we will make that a part of the record, as 
well.
    Ms. Sanchez. Will the gentleman yield?
    Mr. Dicks. I yield.
    Ms. Sanchez. I don't think it is going to be very 
difficult. I mean, this issue has been in the newspaper for 
about 6 months, almost day in and out in some of them. And I 
would imagine, Mr. Secretary, that you have this all written 
out already, because you have probably had to explain this over 
and over.
    It is just that our committee hasn't really gotten the real 
explanation.
    Mr. Foresman. Well, Congresswoman, I want to make sure that 
this committee, in terms of your oversight and responsibilities 
for our department and this particular area, that you get the 
information you need to do the job that you need to do.
    So we will put posthaste on this when we get back to our 
offices today.
    Mr. Lungren. So we will get that by Friday and we will make 
it a part of the record.
    Mr. Dicks. Thank you, Mr. Chairman. I appreciate that.
    Mr. Lungren. The gentleman's time--
    Mr. Dicks. Well, let me just ask one final question.
    Mr. Lungren. The only thing I just want to mention is Mr. 
Pearce hasn't asked any questions yet and we have a second 
panel coming up.
    Mr. Dicks. Okay, that is fine. Thank you.
    Mr. Lungren. Thank you.
    Mr. Pearce is recognized for 5 minutes.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Powner, over the course of time, GAO has issued you all 
some findings, recommendations to strengthen your ability to 
implement the cybersecurity and I just wonder which of the 
recommendations are considered a priority and where we stand on 
implementing those.
    Mr. Powner. My written statement today lays out 
recommendations in five broad areas and there are 25 specific 
recommendations in that statement. I would say the priority 
areas are in four key areas, threat assessments, vulnerability 
assessments and reduction efforts, bolstering analysis and 
warning capabilities, and putting in place recovery plans.
    Mr. Pearce. Mr. Foresman, the business roundtable report 
issued suggested that too many organizations, both public and 
private, had overlapping responsibilities in managing the 
Internet reconstitution.
    Do you have any comment about their comment?
    Mr. Foresman. Congressman, one of the first meetings I took 
when I became the undersecretary was 2 or 3 days after I 
arrived in Washington on the job, was to sit down with the 
business roundtable and specifically to talk through a number 
of these issues.
    You know, it is hard for any of us to assess whether there 
are too many or too few, but I think the one thing that is 
clear from the GAO report, one thing that is clear from our 
Cyberstorm exercise is we need to have clarity and 
coordination, increased clarity and increased coordination of 
roles and responsibilities.
    We are far better than we were a year ago. There is still 
more work to be done. But, you know, I wouldn't assess whether 
we need more or fewer, but believe they need to be well 
coordinated.
    Mr. Pearce. Now, as I listened to Mr. Powner discuss the 
threat and vulnerability assessments, I wonder where we stand 
on accomplishing those.
    Mr. Foresman. That is, Congressman, actually one of the 
things that will come out of the work of the sector 
coordinating council in developing the IT sector-specific plan, 
as we will do across all of the sectors.
    Part of that will be the engagement of the public sector, 
the private sector, leveraging a wide array of U.S. government 
resources to do that vulnerability assessment, so that we 
understand what is it that we are trying to protect and how do 
we prioritize towards doing that.
    And to that end, one thing I will just mention, Mr. 
Chairman, it may be worthwhile in the early part of January for 
us to come up and brief you on what is, in fact, in those 
sectors, what each of the sectors have come up with.
    And the vulnerability analysis on the IT sector is one that 
I'm most anxious to receive.
    Mr. Pearce. Thank you, Mr. Chairman. I see my time is about 
expired.
    Mr. Lungren. Does the gentlelady from Texas wish to 
participate in the second round?
    Ms. Jackson-Lee. Very briefly, Mr. Chairman, thank you.
    I think I want to go back to my point of frustration, 
because we face daily challenges. And I want to ask or at least 
emphasize why I use the term frustration. It is because we have 
noted over the last couple of weeks the administration, and I 
will yield to their higher moral responsibility which has 
caused them to utilizes the extensive media that they have 
done, meaning the president has been making speeches almost 
every day, every other day, on the war on terror, which means 
that, I guess, there is a sense of urgency.
    Of his public pronouncements, I don't see the equating of 
those public pronouncements with the agency that has the 
responsibility to carry forth those policies. So I find that 
particularly frustrating.
    And I want to go to Mr. Powner. And you went rather 
quickly, excuse me for being redundant in asking the question, 
but I would like to hear those four points again. That was 
asked by the distinguished gentleman from New Mexico.
    Then I would like you to categorize where we are, because 
those points that you enumerated were the key element of our 
line of homeland security defense, whether we are dealing with 
cybersecurity or we are talking about border patrol or 
protecting the borders.
    And you have made, I guess, a limited assessment, but let 
me hear those again and, if you would, walk us through, so that 
we are awake, where we are in that, because that is my--again, 
I am using this word frustration--the urgency of getting this 
department back--not back, but on its feet in numerous areas, 
and we are now talking about cybersecurity, infrastructure of 
that.
    And any number of incidences over the last couple of weeks 
show us that that is crucial. That is crucial.
    Again, you gave us four points. Could you just--
    Mr. Powner. And, clearly, there are multiple ways to 
prioritize and I make these four comments because this is 
really the heart and soul of information security, whether it 
is our critical infrastructure or federal agencies or private 
sector organization security. But it starts with threat, 
understanding the threat.
    Clearly, there has been a lot of work on threat. We have 
the U.S. CERT and there are many aspects within the department 
that work on threats. So it is not devoid of threat 
information. I think Mr. Foresman mentioned the threat needs to 
be bolstered through greater intelligence information. That is 
one area that could greatly be improved.
    I think when you look at the requirement, it calls for a 
national threat assessment. I don't think we have seen that 
yet.
    Ms. Jackson-Lee. No, we have been talking about that for 3 
years. But I will let you skip on. I got the gist of that one.
    Mr. Powner. So that is threat. The second one is 
vulnerability assessments. Mr. Foresman referred to the sector-
specific plans that come out.
    I would imagine that some of those plans may get at 
vulnerability assessments. Some of those plans likely may call 
for vulnerability assessments. Hopefully, we get vulnerability 
assessments within those plans at the end of the year.
    The third area is looking at analysis and warning 
capability.
    Ms. Jackson-Lee. Analysis.
    Mr. Powner. And warning capability. And this is a point 
that I mentioned earlier, where the U.S. CERT, there is certain 
analysis and warning capability that currently exists, where we 
provide information on--more of it is after-the-fact type of 
vulnerabilities and incidents.
    We need to get more on the front end with our analytical 
capabilities, where we get precursors to attacks. And I think 
the department acknowledges that and is working on that.
    The fourth area then is recovery plans. We just completed a 
large review focusing on this, not only do the individual 
sectors need a recovery plan, and that is called for, but if 
you take the Internet, an Internet recovery plan is called for 
in national policy.
    That doesn't exist to date. That is very important that we 
work in the government with the private sector in recovering 
the Internet, if, in fact, there is a large-scale outage. And I 
think some of those lessons learned from Katrina and 9/11 
really drove that home.
    Now, that wasn't a cyber event, but in terms of the 
partnering and working together to restore some things, there 
were many lessons learned from that.
    Ms. Jackson-Lee. Many lessons, many lessons. Mr. Chairman, 
I would, in conclusion--thank you very much, Mr. Powner--say 
that it is time for Secretary Chertoff to come again before 
this committee, the full committee, because I think there are 
some large vulnerabilities.
    The idea that a threat assessment still may not be complete 
is one that I think should disturb this committee, Republicans 
and Democrats alike.
    So I thank you, Mr. Powner and Mr. Foresman, for your 
testimony and your service.
    I yield back.
    Mr. Lungren. I thank the gentlelady. And I want to thank 
both witnesses for their testimony and responses to our 
questions.
    Mr. Foresman, I know you are a busy individual, but perhaps 
you or some members of your staff could stay around to listen 
to what the other panel has to say, as we try to build that 
trust further.
    Again, thank both of you for appearing. We appreciate it.
    The chair would not like to call the second panel. Mr. 
William Pelgrin, Mr. Paul Kurtz, Mr. Guy Copeland, Mr. David 
Barron.
    We have someone to the rescue who is going to try and bring 
the heat down a little bit here.
    I thank the four of you for being with us. I introduced the 
individuals briefly beforehand and we would now ask the panel, 
again, gentlemen, your prepared testimony will be made a part 
of the record in its entirety, and we would ask you to please 
summarize your testimony.
    And we will go from my left to right or your right to left, 
starting with Mr. William Pelgrin, director of the New York 
State Office of Cybersecurity and Critical Infrastructure 
Coordination.

 STATEMENT OF WILLIAM PELGRIN, DIRECTOR, NEW YORK STATE OFFICE 
         OF CYBER SECURITY AND CRITICAL INFRASTRUCTURE

    Mr. Pelgrin. Good afternoon, Chairman Lungren, Ranking 
Member Sanchez, and distinguished members of the subcommittee. 
I am William Pelgrin, the director of New York State's Office 
of Cybersecurity and chair of the multi-state Information 
Sharing and Analysis Center.
    I am honored to represent New York state and the multi-
state ISAC to discuss our efforts to be more vigilant, prepared 
and resilient regarding cybersecurity.
    Two days ago, we marked the fifth anniversary of the tragic 
event of September 11. Since 2001, much has been implemented to 
improve our nation's security posture. I am very proud of what 
has been accomplished in cybersecurity at both the New York 
state and multi-state levels.
    Our achievements could not have been done without the 
support at the highest levels. In New York, Governor Pataki has 
been a true champion on these issues. And I would also like to 
thank Undersecretary Foresman. His leadership and support of 
our efforts are very much appreciated. It has been a great 
partnership with DHS and one that I believe has made a 
difference.
    But we cannot be complacent. We need to stay one step ahead 
of those who wish to do us harm. More than ever, we must 
continue to make significant progress in our fight against 
cyber threats.
    It is critical that we learn from the past in order to 
improve the future. It is not about how good we are, but about 
how good we can be. Cybersecurity is more about the management 
of technology. The best technology in the world, if it is not 
managed properly, can leave us vulnerable.
    Our successes have been driven by the following guiding 
principles. It is not about one person or entity, it is about 
the collective effort. It can't be territorial. We have got to 
work together across sectors and geographic boundaries.
    Trust must be earned. It is not a right. We have worked 
hard to earn trust. The culture must change. Implementing sound 
cybersecurity practices must be as second nature as buckling a 
seatbelt. This can only be done through education and 
awareness.
    We must be deliverable oriented. The time to talk is over. 
It is the time to do.
    My approach has been threefold. First, we wanted to make 
sure that New York state is strategically aligned to meet the 
emerging threats. My office was created in order to have an 
entity with a single focus, dedicated to addressing the highly 
specialized need of cybersecurity, one that wouldn't be 
diverted to other competing priorities.
    Second, we recognized early on that we could not do this 
alone. So we focus on developing strong collaboration with 
others, true partnerships. We established the New York state 
public-private cybersecurity workgroup in 2002 to foster 
sharing across sector borders and to build important trust 
relationships.
    The workgroup comprises high level executives from the 
public and private sectors, representing critical industries, 
including telecommunications, financial, utilities, chemical, 
health and food.
    Third, we recognize that the traditional geographic borders 
are irrelevant when dealing with cybersecurity issues. So there 
was a need for strong partnerships with other states and local 
governments across the nation, as well as with our federal and 
international partners.
    The multi-state ISAC was created in 2003 and I am pleased 
to say that all 50 states and D.C. are members. The mission of 
the MSISAC, consistent with the objectives of the national 
strategy to secure cyberspace, is to provide a common mechanism 
for raising the level of cybersecurity readiness and response 
in each state and with local governments.
    This volunteering and collaborative effort provides a 
central resource for gathering information on cyber threats and 
events, providing two-way sharing of information between and 
among states, and with local governments, as well as with the 
federal government.
    A key component of the MSISAC is our 7-by-24 cybersecurity 
center. This center provides cybersecurity monitoring for 
analysis of intrusions and other anomalous cyber activities for 
all the members of the multi-state ISAC.
    The center works very closely with U.S. CERT, other cyber 
researchers, security vendors, and the ISPs. In addition, we 
have deployed equipment that provides real-time monitoring of 
network traffic, specifically to two states, one in New York 
and, most recently, Alaska.
    Many other states and local governments have expressed an 
interest in being part of this service. The concept is that the 
collective view is more valuable and informative than a 
singular view.
    Another key initiative is our cybersecurity alert map, 
which allows each state to identify and display its current 
cybersecurity status and contact information. I am pleased that 
all 50 states and D.C. have adopted this common cyber alert 
protocol.
    What a tremendous step forward in facilitating information 
sharing than situational awareness.
    We have a number of other initiatives focused on helping 
local governments address cybersecurity. They are facing the 
same issues that the states are. However, many of them don't 
have the necessary resources or expertise for the cyber 
challenges that they face.
    For example, when we issued a cybersecurity advisory 
recommending patching vulnerable systems, I received a call 
from a town supervisor, telling me, ``Will, I don't understand 
what you mean by patching. When I hear the word, I look for 
duct tape.''
    To aid local governments, we have established a local 
government cybersecurity committee, with representatives from 
towns, counties, cities, schools and state governments. The 
committee has developed a roadmap for addressing the 
cybersecurity needs of local governments.
    In partnership with DHS, we have completed our first major 
deliverable, the first national cybersecurity guide for 
localities. It is called ``Just Get Started,'' and I do have 
copies for the chairman and members of the committee, as well.
    The goal of the guide was to keep it short, easy to read, 
like a magazine, that there would be periodic installments.
    In closing, I have briefly highlighted for you some of our 
major accomplishments. The key guiding principle that has been 
instrumental in these efforts is collaboration. We must ensure 
that all stakeholders are at the table. We also need to realize 
that you can't get from A to Z overnight. You have to 
prioritize and move strategically.
    I appreciate the opportunity to testify today and thank 
you, Chairman Lungren and the members of the subcommittee, for 
your strong leadership and attention to this important matter 
of cybersecurity.
    Thank you.
    [The statement of Mr. Pelgrin follows:]

                Prepared Statement of William F. Pelgrin

    Good Afternoon Chairman Lungren, Ranking Member Sanchez, and 
distinguished Members of the Subcommittee on Economic Security, 
Infrastructure Protection, and Cyber Security. I am William Pelgrin, 
the Director of New York State Office of Cyber Security and Critical 
Infrastructure Coordination and Chair of the Multi-State Information 
Sharing and Analysis Center (Multi-State ISAC).
    I am honored to represent New York State and the Multi-State ISAC 
to discuss the challenges, successes and lessons learned in our efforts 
to address cyber security.
    It is time for plain speaking--we must be open to sharing 
information. We must learn from the past to improve the future. Cyber 
security must be everyone's responsibility. I have adopted this mantra 
as a call to action.
    Two days ago, we commemorated the 5th anniversary of the tragic 
events of September 11. Since 2001, much has been implemented to 
improve our nation's security posture. I am very proud of what has been 
accomplished in cyber security at both the New York State and Multi-
State levels to assist in this effort to be more vigilant, prepared and 
resilient. But we cannot be complacent; we still have a long way to go.

    Why We Must Be So Concerned?
        <bullet> Cyber terrorism or human error can both have 
        devastating consequences;
        <bullet> Cyber attacks can originate from anywhere;
        <bullet> The technology to launch such cyber attacks is 
        relatively inexpensive and widely available; and
        <bullet> Sophisticated computer expertise is no longer 
        necessary to launch attacks.
    My testimony today will describe our approach to address these 
issues and how we are working to improve the cyber security posture not 
only of New York State but of all the states and local governments in 
our nation. This could not have been done without the strong leadership 
of Governor Pataki, who has been a true champion of these issues.
    Since it is the start that stops most of us, we took the approach 
of ``let's just get started'' using the ``build it as you go'' and 
``best effort'' rules to move forward as quickly as possible.
    The time to talk is over--it is the time for action.
    For many it is very difficult to fully grasp the cyber challenges 
and threats that we face today. My method is to make it real and 
tangible in order to provide clarity and understanding of these issues.
    None of us is as smart as all of us. Therefore, collaboration, 
cooperation and communication are the cornerstones of our approach. We 
can't do this alone. Our partnership with U.S. Department of Homeland 
Security has been a positive example of what can be accomplished when 
we truly work together toward a common goal.
    Cyber security is more about management than technology. The best 
technology in the world, if not managed properly, with appropriate 
policies and procedures, will leave us vulnerable. We all must become 
champions for good cyber security practices and set an example for 
others to follow.
    I would like to start off by describing my philosophy. I believe 
these guiding principles are major factors for our successes in New 
York, as well as with the Multi-State.
        <bullet> First and foremost, it is not about one person or 
        entity; it is about the collective effort.
        <bullet> It is about moving in a common direction.
        <bullet> Trust must be earned; it is not a right. We work hard 
        to earn that trust.
        <bullet> We have a willingness to share as much as possible 
        without concern for what would or would not be shared with us. 
        Over time, sharing is becoming two-way.
        <bullet> The culture must change. Implementing sound cyber 
        security practices must be as second nature as buckling a 
        seatbelt.
        <bullet> We continually strive to eliminate traditional 
        bureaucratic impediments.
        <bullet> We have created a safe haven in order to facilitate 
        true collaboration and sharing.
    The remainder of this testimony will describe how we addressed our 
challenges.
    First, we needed to strategically realign our focus to meet the 
emerging threats.

Creation of the New York State Office of Cyber Security and Critical 
Infrastructure Coordination
    The New York State Office of Cyber Security and Critical 
Infrastructure Coordination (CSCIC) was established in September 2002 
by Governor George E. Pataki in order to have an entity with a single 
focus dedicated to addressing the highly specialized needs of cyber 
security and critical infrastructure coordination.
    The Office is responsible for leading and coordinating New York 
State's efforts regarding cyber readiness and resilience; expanding the 
capabilities of the State's cyber incident response team; monitoring 
the State's networks for malicious cyber activities; coordinating the 
process by which State critical infrastructure data is collected and 
maintained; as well as leading and coordinating geographic information 
technologies.
    Second, we focused on developing strong collaboration with the 
private sector.

NYS Public/Private Sector Cyber Security Workgroup
    Because more than 85% of critical infrastructure is owned or 
controlled by the private sector, we immediately saw the need to create 
true partnerships. New York State actively engaged the private sector 
in addressing the State's cyber security and critical infrastructure 
needs.
    Our NYS Public/Private Sector Cyber Security Workgroup comprises 
private sector high-level executives and public sector commissioners to 
represent critical industry sectors, including telecommunications, 
financial and economic, utilities, public safety, chemical, health, 
food and education/awareness. For example, for the Telecommunications 
Sector, we have as co-chair from the private sector, the Vice President 
and Chief Cyber Security Officer for AT& T, and for the public sector, 
the Chair of the NYS Public Service Commission.
    The Workgroup is examining the current state of cyber readiness 
throughout the entities within each sector, working to identify and 
assess vulnerabilities and identify mitigation strategies.
    The Workgroup has published two reports: Cyber Security: Protecting 
New York State's Critical Infrastructure details the on-going efforts 
in New York State to address cyber security readiness and response, in 
both the public and the private sectors; and The Best Practice 
Guidelines for Cyber Security Awareness which includes a number of 
useful tips and practical advice, along with links to additional 
information for all New Yorkers on how to become more ``cyber security 
aware.''
    The Workgroup has expanded its participation to include all major 
entities within the sectors. These entities work closely with the 
established sector chairs and New York State to more fully engage those 
critical entities to share information and build important 
communication relationships.
    The Workgroup meets monthly via conference call with each sector 
and meets together as a full group in person periodically. The 
participation in this Workgroup has been tremendous, and the 
information sharing relationship with the private sector serves to 
better prepare and protect New York State. This mutual information 
sharing arrangement is an important component in helping to ensure the 
readiness and resilience of New York State's critical infrastructure 
assets--both public and private. We are truly breaking down the 
traditional barriers that have prevented the public and private sectors 
from communicating. This Workgroup is important not only to New York, 
but the nation as well.
    We are also working collaboratively on the national level with the 
private sector, through the National ISAC Council. The Council 
represents the critical industry sectors and focuses on advancing the 
physical and cyber security of the critical infrastructures of North 
America. I'm honored to have been elected to serve as Vice Chair of the 
ISAC Council. This is another great example of strong relationships 
between the public and private sectors.
    Third, we recognized that traditional geographic borders are 
irrelevant when dealing with cyber security issues, so the need was 
clear for strong partnerships with other states and local governments 
across the nation.

Multi-State Information Sharing and Analysis Center (Multi-State ISAC)
    The Multi-State ISAC is a voluntary and collaborative organization. 
I am pleased to say that we have 50 states and the District of Columbia 
as members, and we are actively pursuing local governments and 
territories. The mission of the Multi-State ISAC, consistent with the 
objectives of the National Strategy to Secure Cyberspace, is to provide 
a common mechanism for raising the level of cyber security readiness 
and response in each state and with local governments. The MS-ISAC 
provides a central resource for gathering information on cyber threats 
to critical infrastructure from the states and providing two-way 
sharing of information between and among the states and with local 
government.
    The U.S. Department of Homeland Security has officially recognized 
the Multi-State ISAC as the national ISAC for the states and local 
governments to help coordinate cyber readiness and response.

Major Objectives of the Multi-State ISAC
        <bullet> to provide two-way sharing of information on cyber 
        critical infrastructure incidents and threats
        <bullet> to provide a process for gathering and disseminating 
        information on cyber and physical threats to cyber critical 
        infrastructures
        <bullet> to share security incident information among critical 
        industry sectors
        <bullet> to focus on the cyber and physical vigilance, 
        readiness, and resilience of our country's cyber critical 
        infrastructure assets
        <bullet> to promote awareness of the interdependencies between 
        cyber and physical critical infrastructure as well as between 
        and among the different sectors
        <bullet> to ensure that all necessary parties are vested 
        partners in this effort
        <bullet> to work collaboratively with the public and private 
        sectors to foster communication and coordination
        <bullet> to coordinate training and awareness
    The following major initiatives reflect the successes we--ve 
accomplished at both the New York State level and the Multi-State ISAC 
level.

7x 24 Cyber Security Center
    One of the key components in addressing our cyber security needs is 
the establishment of a 7x24 cyber security center. This Center provides 
cyber security monitoring for and analysis of intrusions and other 
anomalous cyber activity for New York State agencies and public 
universities, as well as the members of the Multi-State ISAC. The State 
has deployed Intrusion Detection/Prevention Systems (IDS/IPS) for the 
State agencies. Since the inception of the IDS/IPS program in May 2003, 
more than 17 billion log entries have been analyzed. Currently we also 
provide intrusion prevention monitoring for the State of Alaska, and 
several other states are actively engaging the MS-ISAC in considering 
similar arrangements.
    The Center monitors cyber intelligence activity at a State, 
national and global level. It works closely with US-CERT, cyber 
researchers, security vendors and ISPs. The Center distributes cyber 
security advisories and alerts to all New York State agencies, to 
members of the private sector through its Public/Private Sector 
Workgroup and to other States and local governments through the Multi-
State ISAC. New York State also posts cyber alerts and advisories on 
its public website: www.cscic.state.ny.us, and the Multi-State ISAC 
through its public website: www.msisac.org.
    The Center monitors State and local government websites for web 
page defacements and affected entities are notified. In 2005, 1,169 
defacements have been reported out to state and local governments.

Incident Response Team
    New York State has an incident response team to respond to cyber 
incidents. A mandatory incident policy has been issued to all state 
agencies, which outlines what must be reported and how. The goal of 
this policy is to ensure that a state entity recovers from an incident 
in a timely and secure manner and to minimize impact. Reporting 
incidents to a central group promotes collaboration and information 
sharing with other sites that may be experiencing similar 
problems.Sec. 
    The Multi-State ISAC Members also report incidents to the Multi-
State ISAC. The Multi-State ISAC serves as the liaison between the 
states and US CERT for cyber incident reporting.

Multi-State ISAC Secure Portal and Cyber Security Alert Map
    The Multi-State ISAC uses the US-CERT portal as its secure portal. 
The Multi-State ISAC's compartment on this portal serves as a central 
repository for Multi-State ISAC members to utilize as a secure 
mechanism in sharing important, secure and vital information among the 
states. The portal allows for secure emailing and includes a library so 
that Multi-State ISAC members can readily share information and 
documents, such as statewide policies, procedures, and white papers.
    One of the most unique features on the Multi-State ISAC secure 
portal is an alert map application that the Multi-State ISAC developed. 
This is a map of the nation, in which each state displays its current 
cyber security alert level, along with contact information for the 
Multi-ISAC Members. The Multi-State ISAC members have adopted this 
common Cyber Alert Indicator Protocol process; thus, when any Multi-
State ISAC member state is at a ``Guarded'' level for cyber, for 
example, all of the other Multi-State ISAC Members will know the 
specific criteria used to arrive at that level.

State ISACs on the Secure Portal
    A major step in fostering the strong relationships between and 
among state and local governments is the build-out of the secure portal 
so that each MS-ISAC Member state will have its own section of the 
portal in which to communicate securely, share documents, and display 
alert level status. This pilot is currently underway with five states.
    These individual state ``ISACs'' will include representatives from 
state agencies, counties, cities and other municipalities and 
educational institutions and will provide the following benefits to 
members:
        <bullet> direct access to cyber security threat information 
        from the State
        <bullet> access to security awareness materials, including 
        computer-based training modules
        <bullet> access to security policy templates
        <bullet> access to security-related solutions
        <bullet> periodic meetings, teleconferences and webcasts to 
        promote peer networking and information sharing
    This initiative is focusing on building strong relationships 
between and among the state and local government entities to best 
ensure our cyber readiness.
    To view examples of the alert map and the individual state ISAC 
sections of the portal, please refer to Appendix A.

Local Government Committee
Local governments face the same cyber security issues. However, many of 
them can be at a disadvantage in addressing the issues due to lack of 
resources and expertise. We are cognizant of the need for local 
government involvement and want local government as vested partners as 
we move forward.
    To that end, I've established a Local Government Cyber Security 
Committee (Committee), with representatives from towns, counties, 
cities, and schools and state government. The Committee, established in 
May 2005, has been meeting monthly to develop a roadmap for addressing 
the cyber security needs of local governments. The Committee is focused 
on ascertaining the issues, building communication channels, and 
identifying mitigation strategies.
    The Committee's goal was to develop a document that provides a non-
technical resource to executives and managers to help them better 
understand the importance of cyber security and what they need to know 
about the issues.
    The Committee has produced one of its first priority projects: the 
Local Government Information Security: Getting Started Guide. This is a 
brief, practical reference intended for entities that may not have the 
technology or information security expertise of other entities and 
therefore need a basic ``how to get started'' resource for addressing 
information security challenges.
    This Guide is a joint effort with the U.S. Department of Homeland 
Security's National Cyber Security Division.

    The Getting Started guide covers the following topics:
        <bullet> Introduction to Information Security
        <bullet> Why is Information Security Important
        <bullet> What is an Unprotected Computer
        <bullet> What is a Cyber Incident
        <bullet> Top Ten Things that must be done
        <bullet> Glossary of information security terms
        <bullet> Daily/weekly/monthly/annual checklist for the 
        designated information security individual(s)
    Future volumes of the Guide will include appendices that expand on 
the topics presented in the first volume, providing more detail about 
the steps necessary to secure the information which the citizens have 
entrusted to local governments. The appendices will be distributed in 
installments periodically over the year and will contain non-technical, 
plain language descriptions with specific action steps, along with 
references for further information.
    We are also working on compiling a national database of contact 
information for local government representatives so that we can 
communicate more effectively and share information, including cyber 
alerts and advisories, future appendices of the Guides and other 
relevant information.

National Webcast Initiative
    The MS-ISAC, in cooperation with the U.S Department of Homeland 
Security, through its National Cyber Security Division, has launched a 
partnership to deliver a series of national webcasts which examine 
critical and timely cyber security issues.
    Embracing the concept that ``cyber security is everyone's 
responsibility,'' these webcasts are available to a broad audience to 
help raise awareness and knowledge levels. The webcasts provide 
practical information and advice that users can apply immediately. All 
sessions are recorded and archived for viewing via the MS-ISAC public 
website.
    Thousands of individuals from across the country and around the 
world participate in the webcasts.
    One of the highlights of the webcast program is the national 
webcast held in October as part of National Cyber Security Awareness 
Month. This webcast is focused on how to keep our children safe online 
and features an interactive play for 4th and 5th grade age levels. The 
session will be broadcast live via the Internet and satellite and will 
be rebroadcast several times throughout the day to maximize viewing in 
each time zone. Last October, more than 5,000 teachers, parents, 
students and others participated in that broadcast and we look forward 
to another successful event this October 4!
    To view a listing of all webcasts conducted through the National 
Webcast Initiative, please refer to Appendix B.

Partnership with U.S. Department of Homeland Security, National Cyber 
Security Division
    As highlighted in this testimony, the Multi-State ISAC has a strong 
partnership with the National Cyber Security Division (NCSD) and its 
operational arm, the US-CERT. Through this partnership, we work 
together on many initiatives including sharing and analyzing 
information regarding cyber threats and events, conducting national 
webcasts, publishing cyber security awareness materials, conducting 
cyber exercises, as well as National Cyber Security Awareness Month 
activities. These initiatives help further the goal of improving our 
nation's cyber security posture.

Training and Awareness Activities
    In New York, we have a number of ongoing training and awareness 
activities including:
        <bullet> Annual Statewide Cyber Security Conference. We just 
        held our ninth annual Cyber Security Conference. This 
        Conference is free of charge to government employees. 
        Consistent with our motto that ``Cyber Security is everyone's 
        responsibility,'' the scope of the Conference has expanded over 
        the years to where we now provide multiple tracks covering a 
        wide spectrum of cyber security issues, including technical, 
        legal, auditing, academia, business managers and local 
        government. This is the largest free government conference of 
        its type in the country.
        <bullet> Annual Kids Safe Online Conference. We are sponsoring 
        our second annual Kids Safe Online Conference next month. Our 
        target audience includes parents, educators, law enforcement 
        officers as well as kids. The subject is not only what are the 
        dangers for children online, but what are the solutions. This 
        Conference is free to the public.
        <bullet> Information Security Officers (ISOs). New York was the 
        first state to appoint a statewide Information Security Office 
        and I believe the first to require each agency to appoint an 
        information security officer. The agency ISOs have a dotted 
        line reporting relationship with my Office. We hold monthly 
        meetings with the ISOs where we focus on current issues and 
        training opportunities. Agency ISOs are required to have 
        twenty-four hours a year of continuing professional education. 
        We also sponsor statewide cyber security training for ISOs and 
        technical staff. For example, we are currently sponsoring a 
        seven-week online course for information security professionals 
        to increase their skills.
        <bullet> Technical Staff. We are sponsoring training on secure 
        coding for application developers. In the past, we provided a 
        12 week course designed to increase the cyber security 
        knowledge of technical staff and prepare staff to sit for the 
        CISSP (Certificated Information Security Systems Professional) 
        Exam. This training was video taped and made available to state 
        and local governments on a national level.
        <bullet> Senior Staff. Once a year, we provide a half-day 
        awareness session for agency heads and their senior staff. The 
        focus is to keep them informed of cyber security issues and to 
        ensure they have the requisite knowledge to address them. It's 
        also important to employ unique and creative solutions to 
        increase awareness and education. We need to make it real. One 
        of the approaches I took was to demonstrate to agency 
        commissioners what is really meant when a computer is hacked. 
        By having them see first-hand what could happen, it increased 
        their awareness of the importance of cyber security.
        <bullet> End Users. We developed a toolkit for State agencies, 
        along the same line as the toolkit developed for the Multi-
        State ISAC. This includes calendars, mouse pads and posters, 
        all with the cyber security message. We also produced a cyber 
        security video that is used for training new employees at State 
        agencies, as well as local governments. This was also made 
        available to state and local governments on a national level. 
        In addition, we conducted a ``phishing exercise'' with several 
        state agencies to assess the current state of cyber awareness 
        and identify where further education is necessary.
        <bullet> Cyber Exercises. We sponsor and participate in 
        periodic cyber security exercises to test our plans, policies, 
        practices and procedures.
    In our role as Coordinator of the Multi-State Information Sharing 
and Analysis Center, we work with states to develop, share and 
collaborate on training and awareness activities including:
        <bullet> Proclamations: In 2005, thirty-six Multi-State ISAC 
        members reported that proclamations were issued by their 
        respective governors proclaiming October 2005 as Cyber Security 
        Awareness month. This is an increase of twenty-four from the 
        previous year. This demonstrates the increasing awareness of 
        cyber security issues at the state level. A copy of our 2005 
        Cyber Security Month After-Action Report is attached.
        <bullet> Tool Kits. We develop an annual tool kit for the 
        states to use to promote Cyber Security Awareness. This 
        includes posters, calendars, mouse pads and new for 2006 is the 
        development of Public Service Announcements that are customized 
        for each state.
        <bullet> Cyber Exercise. In partnership with U.S. Department of 
        Homeland Security, we coordinate Multi-State (state and local 
        government) participation in regional and national exercises to 
        test our plans, policies, practices and processes in responding 
        to a cyber event. We need to insure that we have the capability 
        to provide prompt and accurate situational awareness reports at 
        the state and national level.
        <bullet> Technical Training. We coordinate state participation 
        of state and local governments in national training programs 
        sponsored by the federal government. We also negotiate some 
        volume discounts for states to participate in training provided 
        by the private sector.
        <bullet> End User. We are just completing the development of a 
        Computer Based Training Program that will be made available to 
        state and local governments nationally. This is a tutorial 
        which educates end users on the basics of information security 
        and what their responsibilities are to safeguard our government 
        information systems. We publish a monthly Cyber Security 
        Newsletter for end users. The newsletter focuses on one cyber 
        security issue each month that is relevant for end users/home 
        users. The newsletter is distributed to the states and local 
        government which then push it out to the end users.
    For a summary of the MS-ISAC Accomplishments, please refer to 
Appendix C.

Funding for the Multi-State ISAC
    We very much appreciate the fiscal support from the Department of 
Homeland Security for the Multi-State ISAC. The current funding level 
of one million dollars a year amounts to twenty thousand dollars per 
state. While we have worked hard to leverage this available funding, 
more meaningful, long lasting change would be possible if more funding 
was available. Our ability to help raise the awareness and preparedness 
of states and local governments (for example, intrusion prevention 
monitoring and correlation of data) to help improve their cyber 
security posture is constrained due to the limited fiscal resources.
    I appreciate the opportunity to testify today. Thank you Chairman 
Lungren and Members of this Subcommittee for your strong leadership and 
attention to this important matter.
Appendix A 
[GRAPHIC] [TIFF OMITTED] 35624.002

[GRAPHIC] [TIFF OMITTED] 35624.003

[GRAPHIC] [TIFF OMITTED] 35624.004

[GRAPHIC] [TIFF OMITTED] 35624.005

[GRAPHIC] [TIFF OMITTED] 35624.006

[GRAPHIC] [TIFF OMITTED] 35624.007

[GRAPHIC] [TIFF OMITTED] 35624.008

[GRAPHIC] [TIFF OMITTED] 35624.009

[GRAPHIC] [TIFF OMITTED] 35624.010

[GRAPHIC] [TIFF OMITTED] 35624.011

[GRAPHIC] [TIFF OMITTED] 35624.012


Appendix B--National Webcase Initiative Topics and Description
August 16, 2006
Instant Messaging

    The broadcast presentation raised awareness on instant messaging 
(IM) and how IM is being used today as a source of communication 
online--both at home and at work. While IM can be a convenient and 
quick way to chat with others or collaborate on business matters, there 
are security concerns that we must understand and address. This webcast 
provided attendees with accurate and up-to-date information so that 
each of us can take the necessary steps to help protect ourselves 
online.

June 28, 2006
Remote Access

    The broadcast presentation raised awareness on popular secure 
remote access solutions in terms of business use cases, high level 
deployment scenarios, and security and operational considerations.

April 13th, 2006
Voice-Over IP_How secure is your network infrastructure for handling 
VoIP?

    VoIP is growing in popularity. Two-thirds of the world's 2,000 
largest companies will be using VOIP systems in 2006 and by 2009, 27 
million Americans will use Internet phones at home. The presentation 
raised awareness on network security issues and challenges that arise 
in today's network world.

February 16th, 2006
Identity Theft_The crime that keeps on taking!

    The February 16th broadcast presentation focused on what ID Theft 
is, how to protect yourself, and what to do if you think you may have 
become a victim. The presenters walked through a variety of scenarios 
to help explain these concepts and provided specific advice on what 
steps to take.

December 15, 2005
Cyber Security Tips During the Holiday Season

    The broadcast included such topics as online shopping transactions 
and the need to secure your private information online; understanding 
how to properly check your security settings on the new computer you 
just received as a gift; and what to look for when visiting legitimate 
web sites.

October 20, 2005
Protecting Our Children on the Internet

    The National Webcast on Protecting Our Children on the Internet 
consisted of a play entitled Cyber Smart in Cyber Space geared toward 
the 4th and 5th grade age levels in which actors performed a cyber 
security-related skit interacting with the children. The play used 
content from CyberSmart!, an organization dedicated to teaching secure, 
responsible and effective Internet and computer use, and acted out with 
members of the Plays for Living organization, a nonprofit organization 
that utilizes live theater dramas to depict the real-life challenges 
and stresses many people face on a daily basis at work, at home and in 
the community.

July 20, 2005
Wireless Security

    The webcast provided a non-technical presentation on Wireless 
Security. The webcast applied to all computer users--whether you are 
using your wireless-enabled laptop at the local coffee house or running 
a network that hosts sensitive customer data, you need to understand 
the issues and how to use wireless technology safely. Attendees walked 
away with a better understanding of the diversity of wireless devices 
that are used today, the security that can be applied behind the 
wireless network, and solutions of how you can be more secure.

May 18, 2005
Botnets

    The webcast provided a non-technical presentation on BotNets. 
BotNets are becoming a significant problem across the Internet and are 
increasing at an alarming rate. They are a growing source for staging 
denial of service attacks, identity theft, phishing attacks and SPAM 
mail relay services. Please visit the archived presentation and learn 
about how to defend against BotNets, what to do when your machine has 
been compromised, and how to respond when your machine has been 
controlled by BotNets.

March 16, 2005
Are You Secure?. . .Are You Sure?
Vulnerability Management

    The webcast provided a ``low/medium technical'' discussion about 
what each of us should do on a daily basis to be more secure. The 
volume of malicious cyber activity continues on an upward curve. The 
sophistication of hacker tools continues to grow while the expertise 
required to deploy them is decreasing. Phishing schemes are becoming 
increasingly difficult to discern from legitimate email. Botnets are 
increasing at an alarming rate. These facts require that your 
information systems are as secure as possible and that you have 
appropriate measures in place to decrease your vulnerability to these 
cyber threats.

February 9, 2005
Adware/Spyware:
How to Protect Yourself from Today's Most Dangerous Spyware Threats
The webcast provided a non-technical discussion about what each of us 
should do on a daily basis to be more secure. This session focused on 
an in-depth analysis of today's most egregious spyware/adware programs.

October 19 , 2004
Are YOU the Weakest Link?

    The webcast provided a non-technical discussion about what each of 
us should do on a daily basis to be more secure. This session focused 
on the human elements of cyber security, which are just as important, 
if not more so, than the technical elements, and included examples of 
the various types of scams and pitfalls we need to watch out for, and 
how to protect ourselves.

August 26, 2004
Performing a Cyber Security Risk Assessment:
Why? When? and How?

    The webcast focused on the steps organizations should take in 
addressing risk and provided timely and practical advice that can be 
applied immediately.

June 22, 2004
Cyber Security: The Three Things You Should Have Done Yesterday and The 
Three Things You Should Do Today

    The webcast included discussion of the biggest challenges to 
security, what you should have already been doing in your organization 
to address those challenges, and what you must do today.

Appendix C--Highlights of MS-ISAC Accomplishments
        <bullet> establishment of a 24 x 7 operations center
        <bullet> distribution of cyber security advisories and 
        bulletins
        <bullet> cyber incident response assistance to MS-ISAC Members
        <bullet> monthly Member conference calls
        <bullet> annual meetings of the Members
        <bullet> two MS-ISAC websites--a public and a secure website
        <bullet> participation in cyber exercises, including the 
        national Live Wire and Cyber Storm exercises
        <bullet> development and adoption of common cyber alert level 
        protocols
        <bullet> development of draft cyber incident reporting 
        protocols
        <bullet> support and promotion of National Cyber Security 
        Awareness Month
                MS-ISAC Deliverables for 2005 National Cyber Awareness 
                Month:
                        36 MS-ISAC Members (35 States and the District 
                        of Columbia) signed proclamations recognizing 
                        Awareness Month;
                        Cyber Security Toolkits were developed and 
                        distributed to all 50 States and the District 
                        of Columbia;
                        PSAs for Governors were distributed;
                        National Webcast was conducted with more than 
                        5,000 registrants from across the country.
                        Awareness Month materials available at: http://
                        www.cscic.state.ny.us/msisac/ncsa/oct05/
                        index.htm
        <bullet> development and execution of legal NDA for the Members 
        to sign
        <bullet> development and adoption of the MS-ISAC Business Plan
        <bullet> development and adoption of the MS-ISAC Charter
        <bullet> development and adoption of MS-ISAC Member 
        Representative Guidelines
        <bullet> development and adoption of ISAC Council 
        Representation Guidelines
        <bullet> development and adoption of MS-ISAC Contact 
        Administration Guidelines
        <bullet> establishment of the MS-ISAC Nominating Committee
        <bullet> issuance of white papers
        <bullet> served as chair for the state and local section of the 
        ``Awareness and Outreach'' Task Force of the NCSP--the Task 
        Force issued a report detailing specific action items to be 
        taken to increase end user cyber security awareness
        <bullet> collaboration with all necessary parties

    Mr. Lungren. Thank you very much.
    Now, we will hear from Mr. Paul Kurtz, the executive 
director of the Cybersecurity Industry Alliance.

STATEMENT OF PAUL B. KURTZ, EXECUTIVE DIRECTOR, CYBER SECURITY 
                       INDUSTRY ALLIANCE

    Mr. Kurtz. Mr. Chairman and other members of the committee, 
thank you very much for asking me here today.
    Cyber systems are our newest and most pervasive 
infrastructure. They drive and organize every fact of our 
collective and individual lives from national and economic 
security to personal health and wellbeing.
    And, yet, we do not have a strategic national capability to 
assess how well the mot critical systems are protected and what 
the consequences are if they fail. There is little strategic 
direction or leadership from the federal government in the area 
of information security.
    Ensuring resiliency and integrity of our information 
infrastructure and protecting the privacy of our citizens 
should be a higher priority for the government. We must move 
beyond philosophy and statements of aspiration to defining 
priorities and programs.
    CSIA believes the government has a responsibility to lead, 
set priorities and coordinate and facilitate protection and 
response.
    Let me be clear. This is not a call for regulation for 
intervention. This is a call for leadership.
    So if I could, I am going to depart from my prepared notes 
and list six recommendations for consideration for DHS.
    Number one, lead, lead, lead. Number two, prevention and 
mitigation programs. In this area, I would highlight two key 
important points. R&D, Doug Bond, who is the head of 
cybersecurity R&D at DHS is doing a fantastic job, but he is 
lost in a bureaucratic morass. Doug's work needs to be 
recognized. It needs to be funded appropriately.
    Second, in this area, we need to investigate incentives 
specifically facilitating the growth of insurance.
    The third area that I would highlight would be establish an 
active early warning program that embraces the private sector. 
Currently, the ITISAC is being held at arm's distance by the 
Department of Homeland Security. It should be more fully 
embraced and its work should be recognized.
    Fourth, we need to establish command and control procedures 
for when the balloon goes up, and it will go up. That means two 
key questions. A, what is the process for determining an 
incident of national significance? What agencies are involved 
inside the government? Who is involved in the private sector, 
as well?
    Secondly, what are the implications of that decision? 
Legally, what does it mean for government? What does it mean 
for the private sector? A cyber incident of national 
significance, that language is drawn from the national response 
plan that has been prepared by DHS.
    The fifth recommendation is ensure we have resilient 
communications in place to execute command and control when a 
crisis surfaces. So imagine when we have a problem, we are 
going to grab that phone or we are going to use the computer, 
but think of the phone in an IT environment.
    Will it work when the very infrastructure is under attack? 
So we need to ensure we have resilient communications in place.
    The sixth recommendation is to establish a national 
information assurance policy, which enshrine basically the five 
recommendations that I outlined before.
    The protection of the information infrastructure goes 
beyond DHS. Clearly, the president has established that DHS has 
the lead in coordination. But when the balloon goes up and when 
we have problems, DOD will be involved, the FTC will be 
involved, and multiple other agencies will be involved at the 
same time.
    And with that, I will close and I will take questions 
later.
    Thank you.
    [The statement of Mr. Kurtz follows:]

                  Prepared Statement of Paul B. Kurtz

Introduction
    Chairman Lungren, Ranking Member Sanchez and members of the 
Subcommittee, thank you for the opportunity to testify today before the 
House Subcommittee on Economic Security, Infrastructure Protection, and 
Cybersecurity. My name is Paul Kurtz and I am Executive Director of the 
Cyber Security Industry Alliance (CSIA).
    CSIA is the only advocacy group dedicated to ensuring the privacy, 
reliability and integrity of information systems through public policy, 
technology, education and awareness. The organization is led by CEOs 
from the world's top security providers who offer the technical 
expertise, depth and focus needed to encourage a better understanding 
of security issues. It is our belief that a comprehensive approach to 
ensuring the security and resilience of information systems is 
fundamental to global protection, national security and economic 
stability.
    Before joining CSIA, I served at the White House on the National 
Security Council and Homeland Security Council. On the NSC, I served as 
Director of Counterterrorism and Senior Director of the Office of 
Cyberspace Security. On the HSC, I was Special Assistant to the 
President and Senior Director for Critical Infrastructure Protection.
    My testimony will address four themes for consideration by Congress 
on refining the role of the Department of Homeland Security as it 
relates to national cyber security:
        <bullet> Inadequate attention
        <bullet> Lack of leadership
        <bullet> No plan to prevent or minimize a major cyber disaster
        <bullet> No plan for working with the private sector to recover 
        from a cyber disaster

Cyber Security is Receiving Inadequate Attention from DHS
    Last week in his updated national strategy for counterterrorism, 
President George W. Bush declared that ``America is safer but we are 
not yet safe.'' The reality of physical terror occurring in the United 
States of America has riveted our attention since the attacks on 
September 11, 2001. Prevention of any physical incident of horror has 
since been priority one.
    The President's reminder for vigilance clearly applies to threats 
against our physical well-being, but his admonition must also apply to 
the threats against cyber security. To some the idea of terrorists or 
hackers breaking into computers may sound like an abstract threat, 
especially when compared to the shock of a suicide bomber killing 
innocent people and destroying property. However, a successful massive 
cyber attack could trigger grave harm for many Americans if it knocked 
out communications and information systems for emergency response, 
energy, transportation, and other critical resources that depend on IT. 
The nation experienced such vivid fallout from a regionalized natural 
disaster last year in the aftermath of Hurricane Katrina--imagine this 
disaster on a national scale.
    Since 9/11, responsibility for coordinating federal efforts on 
national safety shifted to the Department of Homeland Security. DHS has 
predictably reacted to a myriad of security challenges by focusing 
first on immediate physical threats. This focus is understandable, but 
it has also impeded progress toward stronger national cyber security. 
As a result, the United States remains unprepared to defend itself 
against a massive cyber attack or to systematically recover and 
reconstitute information systems after a successful attack.
    My testimony will describe what DHS is and is not doing with 
respect to national cyber security, plus the need for DHS to specify 
how it and the private sector would coordinate actions if a massive 
cyber attack were to occur. By realistically refining the Department's 
role in national cyber security, DHS can escalate cyber security 
efforts in concert with efforts to prevent physical terror in America.

There is no leadership at DHS for national cyber security
    Despite publication of more than 750 pages of strategies, 
directives and response plans, leadership in the U.S. government on 
cyber security is clearly absent. The practical significance of lack of 
leadership means the nation is not ready for a major disruption to our 
information infrastructure.
    National coordination of cyber security is the purview of the 
Department of Homeland Security, and its related leadership position is 
Assistant Secretary for Cyber Security and Telecommunications. This new 
position was established in July 2005 by Secretary Chertoff 
specifically to elevate the importance of cyber security in relation to 
DHS's main focus on physical security. Unfortunately, fourteen months 
later, the Assistant Secretary position is unfilled, which reflects the 
low priority DHS still has toward cyber security. No one is in charge 
to lead efforts to protect information infrastructure against cyber 
attacks or to lead response and recovery.
    Another consequence of this leadership vacuum at DHS is an unclear, 
uncoordinated strategy for cyber security. The agency has pushed plenty 
of paper on the topic but people responsible for securing information 
technology in government, public and the private sector would be hard 
pressed to identify the top DHS priorities.
    The threats to information security are real. Digital systems 
underpin vital infrastructure throughout the nation and a major 
disruption to, or widespread lack of confidence in these systems could 
have a devastating effect on our citizens, our economy and security. 
The real need is for concrete action guided by a few key national 
priorities understood by those who must ensure cyber security. DHS 
needs to immediately fill the position for Assistant Secretary for 
Cyber Security and Telecommunications to crystallize a few key 
priorities, and develop programs that support and achieve those 
priorities.
    An important role for the new Assistant Secretary will be ensuring 
that priorities for cyber security reflect the fact that all critical 
functions of all industry sectors rely on IT and telecommunications. 
Coordination and leadership should be the primary concern for DHS.
    Lastly, DHS and the White House can take steps to consolidate 
multiple presidential-level advisory bodies in the area of IT and 
telecommunications. For example, we have NSTAC and NIAC that clearly 
have overlapping responsibilities and areas of inquiry. These should be 
combined to ensure that presidential advice and recommendations are 
made holistically, looking across key critical infrastructures, and not 
in separate silos.

DHS needs to specify steps to prevent and/or minimize a massive cyber 
attack or telecommunications disaster
    DHS documents such as the National Response Plan and the National 
Infrastructure Protection Plan attempt to not omit any unconsidered 
detail. Virtually no agency, program or initiative is left unmentioned 
in sweeping surveys of the cyber security landscape. The downside to 
this ocean of detail is that every point seems equally important. Lack 
of prioritization makes it difficult for organizations to take 
practical coordinated action to secure their information systems.
    CSIA believes this lack of prioritization dilutes the Department's 
limited resources and makes it less effective in preparing the nation 
against a massive attack. DHS should articulate a smaller set of 
priorities focused on preventing and/or minimizing the likelihood or 
severity of a massive cyber attack or telecommunications disaster.
    Creating cyber security for critical systems entails using a 
combination of technological solutions and best practices for IT. With 
regard to cyber security technology, its successful use is linked to 
understanding vulnerabilities of operating systems, applications, 
networks, and literally thousands of protocols that enable modern IT. 
Acquiring this knowledge is a moving target due to the complex 
interdependencies of these technologies and their continuous evolution.
    There are 4 major areas of logical activity that DHS should 
crystallize programs around:
        <bullet> Risk Management--identification and classification of 
        Critical Infrastructure
        <bullet> Research & Development--solutions to identify, prevent 
        and recover from attacks
        <bullet> Incentives--encourage problems to be resolved, not 
        postponed
        <bullet> Insurance--ensures continuing US financial viability 
        after a cyber loss

Risk Management
    An important starting place is for DHS to encourage organizations 
to pursue cyber security as they would manage other types of risks. In 
evaluating the nation's IT resources, DHS should help identify the most 
critical interdependencies and urge organizations to concentrate on 
protecting those systems first. One positive effort underway is the 
partnership between DHS and the private sector in developing a 
protection plan for the IT infrastructure. Under the plan, the private 
sector is identifying common risk-management processes and techniques. 
However, this effort is lacking senior-level attention at DHS.

Research & Development
    DHS could play a major national role by funding cyber security 
research and development (R&D) in the private sector. Instead, more 
than 98 percent of last year's $1.039 billion science and technology 
budget of DHS went to R&D on weapons of mass destruction. Less than 2% 
($18 million) was for cyber security, and of that only about $1.5 
million was for basic research.\1\
---------------------------------------------------------------------------
    \1\ See CSIA Policy Briefing, ``Federal Funding for Cyber Security 
R&D'' (July 2005).
---------------------------------------------------------------------------
    We understand the concern about threats to physical security, but 
CSIA believes DHS has inadvertently placed the nation in the way of 
another harmful vector by virtually ignoring R&D on cyber security.
    Where DHS has spent money on cyber security R&D there has been some 
success. Over the past 18 months, the Department's Science and 
Technology (S&T) Directorate has participated in a technology 
demonstration project with the Oil and Gas sector. The project, 
entitled LOGIIC--Linking the Oil and Gas Industry to Improve 
Cybersecurity--is a public-private partnership between DHS, several 
companies from the oil and gas sector, process control system (PCS) and 
information security technology vendors, and the National Labs. This 
project is aimed at reducing vulnerabilities in process control 
environments used in the oil and gas sector by establishing a framework 
for assessing risks, evaluating new technologies, integrating these new 
technologies into a test environment, and demonstrating commercial 
event detection and correlation technologies that can significantly 
enhance situational awareness on PCS networks used in refineries and 
other large industrial facilities.
    There is strong historical precedent for federally funding R&D for 
emerging technologies of national significance. The Internet is the 
most famous example, beginning with seed money in 1962 from with the 
Defense Advanced Research Projects Agency's (DARPA). The Internet is 
now a vital global infrastructure almost entirely owned and operated by 
the private sector. Other examples of federal funding for R&D that 
resulted in important innovations for cyber security include firewalls, 
intrusion detection systems, fault tolerant networks, open operating 
systems, cryptography and advanced authentication. CSIA urges DHS to 
shift a larger portion of its R&D budget to programs that will bolster 
national cyber security.

Incentives
    The time-tested government practice of offering incentives for 
private investment is another avenue worthy of examination by DHS. By 
offering incentives such as tax credits for implementation of security 
solutions, the federal government could dramatically accelerate 
adoption of measures to shore up national cyber security--just as it 
has done to spur other initiatives deemed as important for the country 
by Congress. The key is to develop very carefully-crafted incentives 
targeted at high priority systems such as certain SCADA systems and 
Internet security protocols. Many SCADA systems operate on unsupported 
application platforms and must be moved to a virtual ``sandbox'' to 
remediate immediate and urgent security threats.

Insurance
    On a related non-technical note, insurance is a practical way for 
organizations to recover from catastrophic loss. Private insurance 
policies, however, do not usually provide ``cyber risk coverage'' due 
to the newness of this concept and lack of data enabling insurers to 
establish actuarial loss tables and a viable premium structure. To be 
effective, premiums for cyber attack coverage would have to include 
natural risk management incentives for organizations to balance the 
cost of premiums against the cost of taking preventative measures for 
security. CSIA believes DHS, in partnership with the Department of 
Commerce, should sponsor research into viable uses of private-sector 
insurance coverage for cyber attacks.
DHS has not specified how it will work with the private sector to a 
cyber incident of national significance
    The other major yet unarticulated priority for DHS is describing 
how it will work with the private sector to respond to and recover from 
a massive failure of information technology systems--whether from a 
cyber attack or a natural disaster. This issue is important because 
it's the private sector--not DHS--that owns and operates information 
technology systems for most of the nation's critical infrastructure. 
The unanswered question affecting all is: What is a suitable role for 
DHS as well as other key federal agencies, including DoD and the FCC in 
facilitating recovery and reconstitution from a cyber incident of 
national importance?
    DHS is well aware that the private sector ``runs the show,'' which 
may account for its encouragement of public-private partnerships. I am 
sure that everyone involved with the multitude of DHS-sponsored public-
private partnerships participates with the best of intentions, but 
there is a lack of clarity in what this work is accomplishing. The 
Government Accounting Office recently reported that progress on those 
initiatives is limited, some lack time frames for completion, and 
relationships between these initiatives are unclear.\2\
---------------------------------------------------------------------------
    \2\ ``Challenges in Developing a Public/Private Recovery Plan,'' 
GAO-06-863T (July 28, 2006).
---------------------------------------------------------------------------
    Consequently, DHS needs to articulate a chain-of-command for each 
step of recovery and reconstitution. For example, the DHS's U.S. 
Computer Emergency Readiness Team (US-CERT) may be aware of a network 
attack, but the North American Network Operators Group (NANOG) is the 
operational forum for backbone/enterprise networking. Considerations 
for this type of situation include:
        <bullet> Which entity should be in charge of coordinating the 
        actual work of recovery and reconstitution?
        <bullet> What, if any, related legal authority is possessed by 
        DHS and the federal government?
        <bullet> What obligations do private sector entities have to 
        obey directives from DHS?
        <bullet> Who would resolve conflicting demands for scarce cyber 
        resources?
        <bullet> What enforcement power does DHS have in the process of 
        helping the nation recover from a cyber disaster?
    In this context, I would note that DHS in February sponsored 
``Cyber Storm,'' a large-scale exercise focused on some of these 
questions. CSIA and its members supported the exercise but some six 
months after the event, DHS's after action report containing lessons 
learned has not been shared with key owners and operators in the 
private sector.
    In addition to chain-of-command, DHS needs to articulate an 
emergency communications system that works even when standard 
telecommunications and Internet connectivity are disrupted. Emergency 
communications entail more than simply establishing a resilient 
mechanism allowing people to talk. It also requires advance 
identification of the right people from appropriate organizations who 
speak the ``same language'' for establishing rapid recovery and 
reconstitution of national systems.
    These are but a few of the details that must be articulated and 
agreed upon in advance if the nation is to truly prepare for recovery 
and reconstitution from a cyber disaster. Ostensibly, DHS would have a 
leading role in planning.
    These issues should be answered in the DHS's 400-plus page National 
Response Plan. Unfortunately, the plan does not articulate clear 
answers on how federal agencies work with each other, with other 
government entities, or with the private sector in responding to a 
national disaster. Instead of one coordinator, there are at least six: 
Homeland Security Operations Center, National Response Coordination 
Center, Regional Response Coordination Center, Interagency Incident 
Management Group, Joint Field Office, and Principal Federal Official. 
The National Response Plan's discussion of cyber security is contained 
in the ``Cyber Incident Annex.'' The Annex mentions many other federal 
departments and agencies with ``coordinating'' responsibility for cyber 
incident response, including Defense, Homeland Security, Justice, 
State, the Intelligence Community, Office of Science and Technology 
Policy, Office of Management and Budget, and State, Local, and Tribal 
Governments. The agency tasked with maintaining the National Response 
Plan is FEMA.
    As I draw toward the end of my testimony, I wish to comment on one 
other topic that also requires close coordination of the government and 
private sector--namely, the need for a cyber early warning system that 
provides the nation with situational awareness of attacks. DHS has 
sponsored some mechanisms toward this end, such as US-CERT, and 
Information Sharing and Analysis Centers (ISACs) that share some cyber 
alert data from the private sector with the federal government. As 
noted by the Business Roundtable, however, the nation lacks formal 
``trip wires'' that provide rapid, clear indication that an attack is 
under way.\3\ This mechanism would be akin to NOAA's National Hurricane 
Center, which usually can provide a day or so of advance notice before 
a dangerous storm lands ashore. Cyber attacks often provide far less 
notice to prepare and react. DHS should lead the establishment of an 
efficient national cyber warning system because the private sector is 
most likely to first detect an attack, and data correlation and follow 
through coordination closely involves the government.
---------------------------------------------------------------------------
    \3\ Business Roundtable, ``Essential Steps to Strengthen America's 
Cyber Terrorism Preparedness'' (June 2006); see also Section 15 of 
Homeland Security Presidential Directive 5, ``Management of Domestic 
Incidents'' (Feb. 28, 2003), and the National Strategy to Secure 
Cyberspace (Feb. 2003).

Summary of Recommendations
    In summary, CSIA offers the following recommendations for the 
Subcommittee's consideration:
    Increase Attention to Cyber Security. DHS has inadvertently exposed 
the nation to another vector of attack by providing inadequate 
attention to cyber security. The Department should carefully assess its 
priorities to achieve more balance by shifting some attention from an 
almost exclusive focus on physical security.
    Appoint a Leader. There is no leader at DHS who is solely 
responsible for cyber security. DHS should swiftly fill the open 
position of Assistant Secretary for Cyber Security and 
Telecommunications to close the leadership vacuum.
    Plan to Prevent or Minimize a Major Cyber Disaster. DHS is too 
preoccupied with appearing to be in control of every detail related to 
cyber security. DHS should shift this energy to articulating a smaller 
set of priorities focused on preventing and/or minimizing the 
likelihood or severity of a massive cyber attack or telecommunications 
disaster.
    Plan to Work with the Private Sector to Recover from a Major 
Disaster. The existing DHS ``plan'' for recovery cites more than a 
dozen federal departments and agencies with ``coordinating'' 
responsibility--not including state, local and tribal governments. DHS 
needs to clearly articulate a chain-of-command between government and 
the private sector for recovery from a major cyber disaster.
    With that, I appreciate the opportunity to testify today and am 
pleased to answer your questions. Kurtz testimony before House 
Subcommittee on Economic Security, Infrastructure Protection, and 
Cybersecurity 9/13/2006 
[GRAPHIC] [TIFF OMITTED] 35624.001


    Mr. Lungren. Thank you very much for your testimony. I was 
trying to write as fast as I could, since you departed from 
your prepared text.
    [Laughter.]
    Mr. Kurtz. It is all in the written statement. I will put 
this together and send it.
    Mr. Lungren. The chair recognizes Mr. Guy Copeland, the 
chairman of the Information Technology Sector Coordination 
Council.

STATEMENT OF GUY COPELAND, CHAIR, INFORMATION TECHNOLOGY SECTOR 
                      COORDINATING COUNCIL

    Mr. Copeland. Mr. Chairman, distinguished members of the 
subcommittee, thank you for inviting me here today.
    As chairman of the Information Technology Sector 
Coordinating Council, I commend you for your attention to cyber 
and telecommunications security. I am also a vice president at 
Computer Sciences Corporation, but I am offering my personal 
reflections here today.
    Five years ago this week, we suffered a devastating 
terrorist attack. 9/11 did not include a cyber attack 
component, but it reaffirmed how dependent we are on 
information technology and communications.
    As an IT sector witness, I am focusing on our sector, but I 
also acknowledge the efforts of so many others who are 
dedicated to our common cause in their respective sectors.
    The IT Sector Coordinating Council formally began in 
January 2006, with over 30 founding members. It is broadly 
representative of the sector and works with DHS, our sector-
specific agency, the national cybersecurity division, or NCSD, 
and other organizations, in developing strategies and policies 
for critical infrastructure protection, collaborations, 
analysis and information sharing.
    The IT sector's 5-year-old information sharing and analysis 
center, or ITISAC, is recognized and endorsed by the IT Sector 
Coordinating Council as our lead for the sector.
    Under Secretary Foresman, Assistant Secretary Steffen, and 
Mr. Purdy have all worked tirelessly to include us in 
initiatives that affect the private sector. During and since 
its formation, the IT Sector Coordinating Council actively 
engage with government colleagues in the update of the national 
infrastructure protection plan, the NIPP, and we have formed a 
joint effort with them to draft the IT sector-specific plan.
    Secretary Chertoff has proposed the establishment of an 
assistant secretary position, as you have discussed earlier. We 
stand ready to work with the new assistant secretary. We have 
not been on hold awaiting this appointment, but it is very 
important to us.
    Recognizing the importance of IT and communications, Under 
Secretary Foresman, as he stated earlier, has recently directed 
his deputy undersecretary, Robert Zitz, to provide day-to-day 
oversight of the NCSD and the national communications system, 
which together constitute the cybersecurity and 
telecommunications organization.
    I have some observations and suggestions. Trusted 
partnership is a key priority. DHS leadership has made huge 
strides to improving partnership, but still appears to be 
hampered by the application of laws and regulations rightly 
intended for the protection of a procurement or regulatory 
relationship, but not for the operational partnership that 
homeland security needs.
    Adequate operational preparedness and timely response 
require physical collocation and daily interaction. DHS should 
build on its over 20 years experience of the national 
coordinating center for telecommunications, the NCC, add 
representatives from the IT sector and the other time critical 
or sometimes we call them the millisecond sectors, and resident 
members should represent the core group of each sector. That 
is, the most important entities for crisis response.
    Ultimately, this should become the national crisis 
coordination center.
    Since its establishment, the NCC has been collocated in the 
defense information systems agency headquarters, with the DOD's 
joint task force for global network operations. Current plans 
call for the NCC to relocate with the DHS U.S. CERT, as you 
heard earlier today.
    Instead, DOD, DISA and DHS should consider collocating all 
of them, the U.S. CERT, the NCC, the JTFGNO, and perhaps other 
important elements. That will allow for maximum interaction 
leading to enhanced efficiency and value for both government 
and industry, for both homeland and national security missions.
    Ultimately, the collocation facility could be a part of the 
national crisis coordination center.
    Mr. Chairman, subcommittee members, Congress can help. In 
my written testimony, there are more details, but here, 
briefly, are a few recommendations.
    Examine the collocation of those three entities, the NCC, 
the CERT and the JTFGNO, and other appropriate ones, to add 
better value. Examine the national crisis coordination center 
concept. Work with DHS and the IT Sector Coordinating Council 
and the Telecommunications Sector Coordinating Council to agree 
on cybersecurity priorities and ensure that DHS has the 
resources to implement them.
    Create a better environment for the critical infrastructure 
protection partnership. Consider forming a bipartisan House 
caucus for cybersecurity for IT and communications, to help you 
all understand the issues and complexities better.
    Encourage broader industry participation in critical 
infrastructure protection through membership in the sector 
coordinating councils and the ISACs.
    Mr. Chairman, thank you again for inviting me to appear 
today.
    [The statement of Mr. Copeland follows:]

                 Prepared Statement of Guy L. Copeland

    Mr. Chairman, distinguished members of the Subcommittee, thank you 
for inviting me to testify before you this afternoon. On behalf of the 
members of the Information Technology Sector Coordinating Council, I 
commend you for your continuing attention to Cyber and 
Telecommunications Security.
    Five years ago this week, we suffered the most devastating, 
terrorist attack in the history of our nation. The deliberate, horribly 
evil assaults on that day did not include a cyber attack. But they 
immediately reaffirmed how dependent we are on our information 
technology and communications sectors to respond quickly and 
effectively in any emergency and to recover and reconstitute normal 
societal functions. Subsequent analysis also showed that the 
technologies of these two sectors are equally crucial to prevention and 
preparedness at all levels.
    A little over a year ago now, Katrina painfully reminded us that 
natural emergencies can be devastating. The scale of Katrina's impact 
and the response required was unprecedented. Once again though, 
communications and information technology were essential to response, 
recovery and reconstitution. Lessons learned have since been folded 
into the preparedness posture and emergency plans of the critical 
institutions, both industry and government.
    My testimony today is based, in part, on my experiences and 
observations on how we have reacted to these and other tragedies. I've 
formed these observations, in part, based on my experience as Chairman 
of the Information Technology Sector Coordinating Council (IT SCC) and 
the immediate past President of the Information Technology Information 
Sharing and Analysis Center (IT-ISAC). Additionally, I am drawing on my 
experience as Vice President of Information Infrastructure Advisory 
Programs at Computer Sciences Corporation (CSC). However, I must 
emphasize that I am not speaking on behalf of CSC, the IT SCC or the 
IT-ISAC. I am offering my personal reflections, previously shared with 
key leaders in each organization.
    We--both the Private Sector and Government--have been building an 
increasingly strong partnership, starting long before DHS was created. 
The level and sophistication of activities and initiatives has grown 
tremendously during that period. As the Information Technology sector 
witness today, I am focusing my comments in that sector. But I am 
equally proud of the efforts of my friends, colleagues and others who 
are equally dedicated to our common cause in their respective sectors. 
Many companies--large and small--are among our best citizens in terms 
of their selfless contributions.
IT SCC
    In January 2005, while then serving as the President of the 
Information Technology Information Sharing and Analysis Center (IT-
ISAC), I briefed a joint industry and government group on an initial 
proposal to begin an effort in the IT sector to consider the formation 
of the IT Sector Coordinating Council (IT SCC). Working with Mr. Harris 
Miller, President of ITAA, the leadership of the IT-ISAC and other 
sector leaders and with the facilitation assistance of Meridian 
Institute provided by DHS, we developed the necessary formation 
documents through 2005. In November 2005, we announced the interim IT 
SCC and in January 2006, the formal charter, first slate of officers 
and the executive committee were approved by over thirty founding 
members.
    As with SCC's representing electricity, financial services, 
telecommunications, water, transportation, and others, the IT-SCC was 
organized to serve as a central point of coordination, collaboration 
and information sharing among the many members of the sector, and with 
the Federal agency(ies) responsible for interacting with a given 
private sector on critical infrastructure protection. The Department of 
Homeland Security--specifically the National Cyber Security Division 
(NCSD)--is the designated Sector Specific Agency responsible for 
collaborating with the IT sector.
    In January, the IT-SCC completed its formation procedures, ratified 
its operating charter, and elected its leadership. With Harris's 
departure from ITAA, Greg Garcia, ITAA's Vice President for Information 
Security, was elected to the SCC' Executive Committee, as the 
Secretary. I was elected Chairman; Michael Aisenberg of VeriSign, Vice 
Chairman; and Larry Clinton of the Internet Security Alliance, 
Treasurer.
    During and since its formation, the leadership and members of the 
IT SCC have been actively engaged in collaborative partnership with 
their government colleagues. We were invited to participate fully in 
the update of the National Infrastructure Protection Plan (NIPP) and 
our plans committee, under the leadership of Paul Kurtz of the Cyber 
Security Industry Alliance and John Lindquist of EWA, has formed a 
joint writing effort with our government colleagues, led by Cheri 
McGuire of the NCSD at DHS, to draft the IT Sector Specific Plan (SSP) 
which will in a few months be completed, staffed with our respective IT 
SCC and IT Government Coordinating Council membership, and approved as 
an annex to the NIPP. This joint effort exemplifies a marked 
improvement in the partnership as compared to the earliest days of DHS. 
The leadership on both sides should be commended for the strides that 
have been made.
    IT sector leadership has been pleased with the relationships we 
have developed with the current leadership within DHS. In particular, 
Under Secretary for Preparedness, the Honorable George Foresman: 
Assistant Secretary for Infrastructure Protection, Mr. Robert Stephan, 
and Acting Director of the National Cyber Security Division, Mr. Donald 
``Andy'' Purdy, have all worked tirelessly to include us in initiatives 
that affect the private sector. They have provided encouragement and 
support. They have been open to consideration of our recommendations. 
They have included us in the development of key documents such as the 
recent National Infrastructure Protection Plan (NIPP). Recognizing the 
importance of cyber securityand communications, Undersecretary Foresman 
has recently directed his Deputy Under Secretary, Robert Zitz, to 
provide day-to-day oversight of the NCSD and the National 
Communications System, which together constitute the new Cyber Security 
and Telecommunications organization. Our leadership has met with Mr. 
Zitz and we are impressed with how quickly he has picked up the reins 
and the approaches he is espousing. In short, they are trying as hard 
as anyone can--within current government restrictions on private sector 
relationships--to develop, nurture and grow a valuable and essential 
partnership for critical infrastructure protection.
    There are many challenges remaining for us to address and new ones 
are sure to arise. We look forward to meeting those challenges with 
them and with their successors.

IT-ISAC and the ISAC Council
    PDD 63 called for industry establishment of Information Sharing and 
Analysis Centers (ISACs). The Information Technology (IT) sector 
coordinator, Mr. Harris Miller, President of the Information Technology 
Association of America (ITAA) and other sector leaders began developing 
the necessary charter documents and reaching out to potential members. 
On January 16, 2001, in a press conference held at the Department of 
Commerce, 19 founding members formally announced the IT-ISAC. The 
mission of the IT-ISAC is to provide
        <bullet> Trusted and confidential reporting, exchange and 
        analysis of sensitive cyber and physical information concerning 
        incidents, threats, attacks, vulnerabilities, solutions, 
        countermeasures, and best security practices.
        <bullet> A trusted mechanism enabling the systematic and 
        confidential exchange of member information with strong and 
        enforceable legal protections.
        <bullet> Leadership visibility for IT-ISAC members with public 
        and private enterprises on cyber security processes and 
        information sharing issues.

    A sampling of the value of IT-ISAC membership includes:
        <bullet> Access to Sensitive Threat, Vulnerability and 
        Analytical Products
        <bullet> Collaboration in a Trusted Forum--vetted, trusted and 
        confidential
        <bullet> Anonymity for Members--within industry and to 
        government
        <bullet> Access to Cross Sector and Government Information, 
        Contacts and Tools
        <bullet> Emergency Response Coordination, Operational 
        Practices, and Exercises
    In July 2001, the IT-ISAC went operational through a 24/7 
operations center manned by their contract with Internet Security 
Systems. July 2001 also found them helping coordinate the response to a 
new form of malicious software, Code Red. On September 11, 2001, they 
helped to support the response activities and a few days later helped 
to coordinate the response to another cyber threat, NIMDA.
    In 2002, the IT-ISAC established formal information sharing 
memoranda of understanding (MOUs) with the Financial Services, 
Electricity and Communications ISACs. In 2003, it helped to establish 
the ISAC Council, an informal, voluntary, cross-sector body, consisting 
of the leadership of the active sector ISACs. Mr. John Sabo, the 
current IT-ISAC President, is also the current Chairman of the ISAC 
Council. 2003 also saw the IT-ISAC start daily cross-sector cyber 
security collaboration calls for all ISACs and government agencies 
(including DHS) which adhere to the MOU information sharing agreements.
    Since then the IT-ISAC has continued to mature and expand its 
capabilities. In 2005, they hired a full time Executive Director, Mr. 
Scott Algeier. In addition to the daily cyber calls, they host twice 
weekly cyber technical calls which can dive deeply into technical 
issues and analysis, for example, those associated with emerging 
exploits or newly released patches. And they have recently added a 
weekly physical issues call which supports cross-sector sharing of 
information regarding physical incidents, vulnerabilities and related 
matters.
    Throughout 2005, IT-ISAC leadership was at the forefront of efforts 
to form an IT Sector Coordinating Council (IT SCC). SCC's were 
requested of the critical infrastructures by DHS and Homeland Security 
Presidential Directive 7 (HSPD 7) and further detailed in the National 
Partnership Model of the President's National Infrastructure Advisory 
Council (NIAC). SCCs are intended to be broadly representative of their 
sector and to work with DHS, Sector Specific Agencies (SSAs) and other 
organizations in developing strategies and policies for critical 
infrastructure protection. In January 2006, the IT SCC was formalized 
and in May it recognized the IT-ISAC as the sector's official 
operational information sharing mechanism.
        ``For operations, analysis and information sharing, the 
        Information Technology Information Sharing and Analysis Center 
        (IT-ISAC) is recognized and endorsed by the Information 
        Technology Sector Coordinating Council (IT SCC) as our lead for 
        the IT sector. The IT-ISAC has served since 2001 and will 
        continue to serve as the main vehicle for communicating 
        information about threats, vulnerabilities and incidents, 
        especially through its Operations Center on a 24/7/365 basis. 
        It is also our main vehicle for information analysis.''
                IT SCC Chair and Vice Chair Letter to Asst. Sec. Robert 
                Stephan dated 5/26/06

Looking to the Future

Assistant Secretary for Cyber Security and Telecommunciations
    In his Second Stage Review, Secretary Michael Chertoff proposed the 
establishment of an Assistant Secretary position for cyber security and 
telecommunications to ``centralize the coordination of the efforts to 
protect the technological infrastructure.'' \1\
---------------------------------------------------------------------------
    \1\ ``Statement of Secretary Michael Chertoff, U.S. Department of 
Homeland Security, Before the United States Senate Committee on 
Commerce, Science, and Transportation.'' July 19, 2005.
---------------------------------------------------------------------------
    The IT Sector Coordinating Council, the IT-ISAC, and the other 
bodies I have briefly described, stand ready to welcome and work with 
the new Assistant Secretary from the moment he or she is announced. We 
have no doubts that it is in the interests of all of us to partner with 
him or her to address our common security concerns which cannot be 
addressed by each of us alone.
    Even before announcement by DHS of this Assistant Secretary 
position, the IT Sector leadership had long advocated a senior Cyber 
Security executive (IT and Communications) for long term leadership, 
visibility, making the case for resources, and giving the issue area 
stature commensurate with the growing risks as IT and Communications 
become ever more critical to so many of our most important societal 
functions. The ideal appointee to this new position
        <bullet> must be credible to both government and industry,
        <bullet> must be open to new ideas and recognize the value of 
        experienced input,
        <bullet> must be a strong leader who can build and maintain 
        trusted partnerships, and
        <bullet> must convey and get support for a vision of success 
        and a path to achieve it.
    In addition, he or she will need the commitment of DHS and 
Administration leadership to succeed. That commitment must strive to 
ensure the new Assistant Secretary is
        <bullet> empowered and supported with the resources to succeed,
        <bullet> supported by positive, ``can-do'' legal advisers 
        willing to break new ground for the close, trusted 
        relationships required for critical infrastructure protection,
        <bullet> unhampered to readily and effectively partner and 
        communicate with the private sector, including
                <bullet> unhampered by administrative and bureaucratic 
                trivia,
                <bullet> unhampered by excessive diversion from 
                priorities, and
                <bullet> unhampered by well meaning but inappropriately 
                applied restrictions.

Prioritize and Focus
    The new Assistant Secretary must avoid and be protected from 
chasing the issue of the day or week. To avoid that trap, he or she 
must ensure that lower priorities are handled as and where needed in 
the organization but focus his or her attention and that of senior 
management and oversight on the main priorities
    Congress can help empower the new Assistant Secretary by helping to 
set the right priorities, ensuring resources to achieve them, removing 
inappropriate and hampering restrictions and providing oversight to the 
priorities while avoiding diversion of time and attention to minor 
items

Trusted Partnership
    Trusted partnership is a key, critical priority. For critical 
infrastructure protection, the directly involved key personnel from 
Government and industry must develop into a well trained, close knit 
team. The current leadership at DHS has made huge strides to improving 
partnership but still appear to be hampered by perhaps conservative 
interpretation and application of laws and regulations rightly intended 
for protection of a procurement or regulatory relationship, not the 
national security partnership that Homeland Security needs. Our sectors 
are complex, evolutionary and robust. Regulation and mandates cannot 
achieve the intelligent preparedness and response capabilities that 
thoughtful, voluntary partnership and teamwork can achieve. The best 
partnership and teamwork is fostered through physical co-location and 
daily interaction in planning, training and executing--just as in any 
successful sports team or military unit.

Physical Co-Location for Crisis Coordination--Build on the NCC
    A top priority for continuing preparedness and timely response must 
be physical co-location and frequent daily interaction of 
representatives of all key players--industry and government--for crisis 
response management. Ultimately, we execute well that which we develop 
thoughtfully and practice carefully, learning and improving as we go. 
Writing a plan for winning isn't enough. I suggest that DHS build on 
the 20+ years experience with the NCC. Continue to strengthen NCC 
interoperation with other key 24/7 operations such as those operated by 
ISACs. Add representatives from other, time-critical (``millisecond 
sectors''). Add others in time, with core group representation (i.e., 
representation from the most important organizations for response in 
the sector or entity.)

National Crisis Coordination Center
    The concept of a jointly (industry and government) manned, National 
Crisis Coordination Center has been around for at least a few years 
now. In 2004, the Early Warning Task Force begun as one of the National 
Cyber Security Summit task forces, recommended \2\ creation of a 
national crisis Coordination Center to:
---------------------------------------------------------------------------
    \2\ National Early Warning Task Force Recommendation, A NATIONAL 
CRISIS COORDINATION CENTER, National Cyber Security Partnership, March 
2004

        <bullet> House government, industry and academic security 
        experts, both physical and cyber, to bridge the cultural 
        barriers that have hampered a true partnership in 
        counterterrorism and cyber security
        <bullet> Jointly prepare, exercise, evaluate and update 
        National Joint Crisis Response plans to prevent, detect and 
        respond
        <bullet> Operate joint watch centers
        <bullet> Conduct joint exercises at the national level to train 
        and test the plans
        <bullet> Conduct joint field training at the regional level to 
        train and further test the plans
        <bullet> Respond jointly to traditional natural events, as well 
        as malicious events
        <bullet> Proactively share intelligence--both national security 
        and law enforcement
        <bullet> Include a secure, compartmented intelligence facility 
        staffed equally with government and private sector 
        representatives, as well as appropriate state, local and other 
        representation
        <bullet> Proactively address priority remediation of systemic 
        vulnerabilities in national level infrastructures
    In March 2006, the NSTAC's Next Generation Networks Report 
recommended a Joint Coordination Center.\3\
---------------------------------------------------------------------------
    \3\ Next Generation Networks Task Force Report, NSTAC, March 28, 
2006.
---------------------------------------------------------------------------
        A joint coordination center for industry and Government should 
        be established. This would be a cross-sector industry/
        Government facility with a round-the-clock watch, and would be 
        brought up to full strength during emergencies. Such a center 
        would improve communications between industry and Government as 
        well as among industry members, and would incorporate and be 
        modeled on the NCC.
        The center should be a Government-funded, appropriately 
        equipped facility, manned jointly by experts from all key 
        sectors. In a fully converged NGN environment, everything will 
        be interconnected and interdependent to a greater degree, and 
        thus means of coordinating among all key sectors must exist. 
        Physically collocated, joint manning is vital to achieve the 
        high level of interpersonal trust needed for sharing sensitive 
        specific information and to achieve the level of mutual 
        credibility required in a fast-paced decision-oriented 
        environment. It should provide the full set of planning, 
        collaboration, and decision-making tools for those experts to 
        work, whether together as a whole or in focused subgroups. 
        Industry is at times hesitant to share information with the 
        Government because it is unsure of how the information will be 
        used, and Government-to-industry information sharing should 
        also be improved.\4\ DHS has a vision for how HSOC will 
        function to improve information sharing; however, the HSOC's 
        current operational interface to the private sector [the 
        National Infrastructure Coordination Center (NICC)] is nascent 
        and needs further development. An environment of trust must be 
        established. A joint operations center could play a key role in 
        fostering that environment and in enhancing HSOC operations. In 
        addition, appropriately cleared industry experts collocated in 
        a joint coordination center with their Government counterparts 
        could assist the Homeland Infrastructure Threat and Risk 
        Analysis Center (HITRAC), the DHS intelligence analysis arm, in 
        performing its analytical and reporting functions, helping to 
        ensure that HITRAC products are more complete, credible and 
        useful.
---------------------------------------------------------------------------
    \4\ Both these observations were confirmed at the August 2005 NGN 
Incident Response Subject Matter Experts meetings. See Appendix D of 
the Next Generation Networks Task Force Report, NSTAC, March 28, 2006.
---------------------------------------------------------------------------
    The Inspector General at DHS has also stated, ``If the partnership 
between the federal government and private sector is to be successful, 
another key requirement is establishing a permanent physical location 
or forum so that critical and non-critical sectors can interface with 
one another and their federal counterparts. This is essential to 
developing and maintaining long-term collaborative relationships.''\5\
---------------------------------------------------------------------------
    \5\ A Review of the Top Officials 3 Exercise, DHS OIG Report OIG-
06-07, p. 24 (Nov. 2005).

    NCC Relocation--an Immediate Concern
    Since its establishment, the National Coordinating Center for 
Telecommunications (NCC) has been housed in the Defense Information 
Systems Agency (DISA) headquarters facility. That location was natural 
because the same facility housed the National Communication System 
(NCS) which served as the support Secretariat for the NSTAC and also 
was assigned responsibility for the jointly manned NCC. That location 
turned out to be invaluable for trusted, sensitive information sharing. 
It also housed or came to house DISA's Global Network Operations and 
Security Center (GNOSC) and its subordinate Defense Department computer 
emergency response team (CERT), and the Department of Defense Joint 
Task Force--Global Network Operations (JTF-GNO). The synergy and 
trusted interaction between and among these entities has become 
important to all participants for both national security and emergency 
response purposes. Unfortunately, current plans call for relocating the 
NCC to co-locate it with the US-CERT operated by DHS.
    We should strongly consider the wisdom of separating the NCC from 
the DoD entities with which it is located. Instead we should encourage 
the leadership of the DoD, DISA and DHS to consider an approach that 
could strengthen the value for all: co-locate the US-CERT and other 
NCSD operational response elements with the NCC and their counterpart 
DoD elements. While each has a different mission and set of customers, 
they are all ultimately looking at overlapping sets of data and similar 
problem sets. Co-location will allow for greater interaction and 
synergy, leading to enhanced efficiency and value for all their 
``customers.''
    Because the Base Realignment and Closure process is expected to 
relocate DISA in a few years, part of the examination of the value for 
the nation in achieving multi-organization co-location will have to be 
an examination of facility alternatives. But that should not deter us 
from at least exploring the potential benefits that could be achieved 
for the nation and both our national and homeland security. Ultimately, 
the co-location facility could be part of the National Crisis 
Coordination Center which I have already described.
    My industry colleagues and I would be happy to participate in such 
an examination.

Congress Can Help
Support Examination of NCC Co-location and Expansion to a National 
Crisis Coordination Center
    Look at co-location of the NCC, the US-CERT, the JTF-GNO and other 
existing similar entities for advantages to their missions, their 
``customers'' and the nation. Similarly, examine the National Crisis 
Coordination Center (NCCC) concept in detail and strongly support its 
implementation if it holds up to your scrutiny as many of us expect it 
will. Be sure to include international liaison in the NCCC. Many of our 
allies are even more closely intertwined with us in the Cyber world 
than in the physical world. But in both, the interdependencies can be 
enormous. In particular, with Canada, many of our key critical 
infrastructures and dependencies are mutually shared across our common 
border.

Focus on Priorities
    Use your oversight and appropriations powers to work with DHS and 
the private sector in the establishment of Cyber Security priorities. 
Then follow-up to ensure DHS has the necessary resources to implement 
those priorities.

Create a Better Environment
    Congress can create a better environment for homeland security 
partnership, helping us achieve a tight knit, superbly prepared, 
professional team with high morale, and a commitment to each other to 
succeed. The current environment for government and industry 
interaction is designed rightly to prevent fraud and abuse in 
procurement or regulatory matters or other areas where an unscrupulous 
actor might try to further a personal or organizational agenda, 
contrary to the public good. In many ways, those rules implicitly 
require Government personnel to maintain an ``arms length,'' almost 
adversary relationship. At the very least, it implicitly impugns 
motives before the fact. But Homeland Security partnerships must be 
close, trusted, and non-public. Could the Washington Redskins or any 
professional team succeed if their members were not allowed to get 
together to plan and train out of sight of their opponents when needed?
    We cannot do away with protection against fraud and abuse. But the 
close teamwork and rapid response requirements of Homeland Security and 
Critical Infrastructure Protection demand high levels of interpersonal 
trust that can only be developed through frequent interaction, 
including informal, relationship building interaction. To accomplish 
this and still protect against fraud and abuse, I believe that we will 
need to replace the rigid rules and bureaucratically slow exception 
handling processes with alternative systems that provide strong, 
independent oversight to detect, report, halt and punish fraud and 
abuse but encourage true partnership, trusted relationships and team 
building, treating all participants as if they are members of the same 
organization/team, operating under the same code of ethics but free to 
form trusted and close relationships.

    Examine Innovative Ways to Encourage Private Sector Active 
Participation
    Congress might be able to help encourage even more private sector 
participation in critical infrastructure protection through private 
sector bodies such as the SCCs and ISACs. Here are a few examples which 
might be worth exploring.

        Value Proposition
    Congress and the DHS should work with SCCs, ISACs and other private 
sector institutions to develop a compelling value proposition with 
industry to further improve our working relationship for critical 
infrastructure protection and expand improved cyber security behavior. 
Not doing so is contrary to our national and homeland security 
interest. Many companies and other private sector institutions 
understand this. But many still do not. We need to make the value 
proposition compelling so that the vast majority--and all the critical 
ones--understand and pro-actively participate.

Congressional and Executive Support for SCCs and ISACs
    Carefully examine the positive role that DHS and Administration 
executive leadership could and should play in encouraging sector 
members to participate in their respective SCCs and ISACs. Private 
sector leaders responded to previous Government requests and have 
expended significant resources to create the partnership model 
organizations requested. But when it comes to encouraging sector 
members to join those bodies and actively participate in them, 
Government executives have been strangely absent or quiet for the most 
part. Also, in some cases they have reached out through other 
organizations not formed for these specific purposes. The net effect of 
their silence or misaimed outreach is contrary to the very goals they 
envisioned achieving when they asked the private sector to form ISACs 
and SCCs.
    Simply put, they should always turn first to the organizations they 
asked us to form to fit their model for working with them. And they 
should not be shy about encouraging sector members to join those 
organizations (ISACs and SCCs), even to the extent of expressing 
unhappiness with important sector ``core'' players who fail to do so. 
If there are any rules in place that impede such demonstrable support, 
they should be revisited swiftly and decisively.

Technical and Operational Support
    The ultimate goal of our partnership model is to create an 
infrastructure environment that is intended to deter attacks as much as 
feasible and operationally prepared to respond, recover and 
reconstitute to any attack or emergency as rapidly and effectively as 
feasible. Operational preparedness and success will depend ultimately 
on a partnership that is focused on operations even more than on 
policy. The recommendations I have made for a jointly manned, National 
Crisis Coordination Center (NCCC) will help significantly to shift to 
an operational focus. But it will also take working out and testing our 
individual and collective Concepts of Operations (CONOPS), constantly 
improving them so our operational metrics continually improve. The best 
solutions may call for cross sector or even government to industry 
provisioning of technical and operational support. For example, DHS 
support to operational ISACs might be appropriate. Operational 
readiness and improvement should be one of our highest priorities.

Congressional Charters
    Examine the Potential Value of a Congressional Charter for 
established SCCs and ISACs. If a National Crisis Coordination Center is 
supported, consider a Congressional Charter for it as well. 
Congressional Charters would give Congress enhanced visibility into 
their functioning and would allow for periodic GAO audit. They would 
also help many SCCs and ISACs recruit the broad membership and 
participation they need from their sectors.

Procurement
    Consider using procurement in DHS, or even government-wide, as a 
carrot for greater private sector participation and proactive, 
operational commitments.

Congressional Awareness and Education
    Finally, to help prepare you for the increasingly complex issues of 
the Cyber Security Age, I suggest you consider forming a bipartisan 
House caucus for cyber security (IT and communications) to provide a 
forum for educating staff and members on the relevant issues.

                               Attachment

Summary of a few Key Cyber Security and Telecommunications Partnerships 
                          and Key Initiatives

NSTAC
    President Ronald Reagan created the National Security 
Telecommunications Advisory Committee (NSTAC) by Executive Order 12382 
in September 1982. Composed of up to 30 industry chief executives 
representing many of the major communications and network service 
providers and information technology, finance, and aerospace companies, 
the NSTAC provides industry-based advice and expertise to the President 
on issues and problems related to implementing national security and 
emergency preparedness (NS/EP) communications policy. Since its 
inception, the NSTAC has addressed a wide range of policy and technical 
issues regarding communications, information systems, information 
assurance, critical infrastructure protection, and other NS/EP 
communications concerns.
    NS/EP communications enable the Government to make an immediate and 
coordinated response to all emergencies, whether caused by a natural 
disaster, such as a hurricane, an act of domestic terrorism, such as 
the Oklahoma City bombing and the September 11th attacks, a man-made 
disaster, or a cyber attack. NS/EP communications allow the President 
and other senior Administration officials to be continually accessible, 
even under stressed conditions.
    The NSTAC has addressed numerous issues in the past 24 years. A few 
examples illustrate NSTAC's capabilities to address NS/EP 
communications issues in today's environment: the establishment of the 
National Coordinating Center for Telecommunications (NCC); the 
implementation of the Government and NSTAC Network Security Information 
Exchange (NSIE) process; the Telecommunications Service Priority (TSP) 
program; Government Emergency Telecommunications Service (GETS) and 
Wireless Priority Service (WPS); and the examination of the NS/EP 
implications of Internet technologies and the vulnerabilities of 
converged networks. These accomplishments are briefly described below.

NCC--From ``NSTAC Report to the President on the National Coordinating 
Center,'' May 10, 2006
    The NCC was established to fulfill a critical need for a national 
coordinating mechanism to organize and manage the initiation and 
restoration of NS/EP communications services. This need was identified 
at the dawn of the divestiture of AT&T and the height of the Cold War. 
As Government increasingly relied on commercial communications services 
and no longer had a single point of contact (POC) for the industry, 
Government needed a joint industry and Government-staffed organization 
to coordinate emergency requests. The NCC became operational on January 
3, 1984.
    The National Coordinating Center (NCC) has been the hub for 
coordinating the initiation and restoration of national security and 
emergency preparedness (NS/EP) communications services for more than 20 
years--supporting four administrations and evolving as threats and 
national priorities have shifted. Following the September 11, 2001, 
terrorist attacks, the NCC proved its value to the Nation as it 
supported the restoration of communications in the New York and 
Washington, D.C., areas. The NCC has also repeatedly shown its strength 
during hurricane recovery efforts, including Hurricane Katrina.
    . . .the NSTAC recommended designating the NCC as the Information 
Sharing and Analysis Center (ISAC) for telecommunications in 1999.
    With the establishment of the Department of the Homeland Security 
(DHS) and the transfer of the National Communications System (NCS) to 
the new department in 2003, the NCC also has made the transition to 
DHS.
    The primary mission of the NCC throughout its history has been to 
coordinate the restoration and provisioning of communications services 
for NS/EP users during natural disasters, armed conflicts, and 
terrorist attacks. Significant events such as the Hinsdale, Illinois, 
central office fire, the Oklahoma terrorist bombing, the events of 
September 11, 2001, and Hurricane Katrina have proved the value of this 
partnership. During a crisis, Government personnel communicate NS/EP 
requirement priorities to industry, and industry representatives assist 
the Government in developing situational awareness by providing 
restoration status information. Having the representatives in one 
location ensures a smoother restoration effort. The NCC's all-hazards 
response depends on the flexible application of NCS resources, such as 
its priority service programs (e.g., Government Emergency 
Telecommunications Service, Wireless Priority Service, and 
Telecommunications Service Priority [TSP] Program).
    During day-to-day operations, NCC members work on plans and share 
information on vulnerabilities and threats to the telecom 
infrastructure. Planning activities include developing lessons learned 
following events, creating comprehensive service restoration plans, 
planning for continuity of operations (COOP)/continuity of Government 
(COG) activities, and participating in exercise planning. In addition, 
the NCC works with international emergency response partners, including 
the North Atlantic Treaty Organization (NATO), International 
Telecommunication Union (ITU), and Canada, on crisis communications and 
mutual assistance.
    In 2000, the NCC was designated the ISAC for telecommunications per 
the guidance in the 1998 Presidential Decision Directive 63 (PDD-63), 
Protecting America's Critical Infrastructures, which encouraged the 
private sector to establish ISACs to ``serve as the mechanism for 
gathering, analyzing, appropriately sanitizing and disseminating 
private sector information.'' As part of the ISAC mission, the NCC 
collects and shares information about threats, vulnerabilities, 
intrusions, and anomalies from the communications industry, Government, 
and other sources. Analysis on information is performed with the goal 
of averting or mitigating impact on the communications infrastructure.
    The NCC has historically been an operational element and as such 
does not fall under provisions of the Federal Advisory Committee Act 
(FACA). A June 1, 1983, letter to the NCS from Assistant Attorney 
General William F. Baxter discussed issues of incident management and 
information sharing for the proposed National Coordinating Mechanism 
(NCM) (which became the NCC) and noted that such an organization posed 
no significant antitrust problems.
    . . .Since the transition to DHS, the NCC has been involved in 
additional critical infrastructure protection (CIP) activities. As part 
of the implementation of Homeland Security Presidential Directive 
(HSPD) 7, DHS is tasked with identifying, prioritizing, and protecting 
the Nation's critical infrastructure. Through the NCC, the NCS often 
coordinates data calls on the identification of assets, coordinates 
planning for national special security events (NSSE), and provides 
impact analyses. In the future, NCC industry members may be asked to 
further assist in the risk assessment process as detailed in the 
sector's Sector-Specific Plan.

NSIE--From ``GUIDE TO UNDERSTANDING THE NATIONAL COORDINATING CENTER 
FOR TELECOMMUNICATIONS AND THE NETWORK SECURITY INFORMATION 
EXCHANGES,'' PREPARED BY THE OFFICE OF THE MANAGER, NATIONAL 
COMMUNICATIONS SYSTEM, MARCH 2001

        In April 1990, the Chairman of the National Security Council's 
        (NSC) Policy Coordinating Committee--National Security 
        Telecommunications and Information Systems requested the 
        Manager, NCS, identify what action should be taken by 
        Government and industry to protect critical national security 
        telecommunications from the ``hacker'' threat. . . .In response 
        to the NSC tasking, the Manager, NCS and the NSTAC established 
        separate, but closely coordinated, NSIEs. In May 1991, the NSIE 
        charters were finalized, and Government departments and 
        agencies and NSTAC companies designated their NSIE 
        representatives, chairmen, and vice-chairmen. The first joint 
        meeting of the Government and NSTAC NSIEs was held in June 
        1991.
    The Government and NSTAC NSIEs meet jointly approximately every two 
months. The NSIEs provide a working forum to identify issues involving 
penetration or manipulation of software and databases affecting NS/EP 
telecommunications. The NSIEs share information with the objectives of:
                <bullet> Learning more about intrusions into and 
                vulnerabilities affecting the PN--Developing 
                recommendations for reducing network security 
                vulnerabilities
                <bullet> Assessing network risks affecting network 
                assurance
                <bullet> Acquiring threat and threat mitigation 
                information
                <bullet> Providing expertise to the NSTAC on which to 
                base network security recommendations to the President.
    The success of the NSIEs is based in large part on the 
establishment of trusted interpersonal relationships. Participants--
government and industry--must hold requisite security clearances and 
sign individual non-disclosure agreements. The organizations sending 
participants to the NSIEs must also sign organizational non-disclosure 
agreements.

TSP--From NCS Web site
        Telecommunications Service Priority (TSP) provides service 
        vendors with a Federal Communications Commission (FCC) mandate 
        for prioritizing service requests by identifying those services 
        critical to NS/EP. A telecommunications service with a TSP 
        assignment is assured of receiving full attention by the 
        service vendor before a non-TSP service.

        From briefing ``NCS Roles During the Attack on America,'' 
        Deputy Manager, NCS, August 9, 2002
        Nearly 40,000 TSP circuits enrolled by NCS prior to 9/11 
        tragedy
                TSP vital in accelerating the opening of Wall Street on 
                9/17
                        Major coordination in restoration of 
                        telecommunications for Broad Street switches--
                        major role to restore stock and bond markets
                NCS supported nearly 600 provisioning requests 
                following 11 Sep 01
                        46 organizations (incl. FBI, FEMA , FRB, Port 
                        Authority, DoD)

GETS--From NCS Web site
        Implemented in the early 1990's, Government Emergency 
        Telecommunications Service (GETS) is an emergency phone service 
        provided by the National Communications System (NCS) in the 
        Information Analysis and Infrastructure Protection Division of 
        the Department of Homeland Security. GETS supports federal, 
        state, local, tribal, industry, and non-governmental 
        organization (NGO) personnel in performing their National 
        Security and Emergency Preparedness (NS/EP) missions. GETS 
        provides emergency access and priority processing in the local 
        and long distance segments of the Public Switched Telephone 
        Network (PSTN). It is intended to be used in an emergency or 
        crisis situation when the PSTN is congested and the probability 
        of completing a call over normal or other alternate 
        telecommunication means has significantly decreased.

        From briefing ``NCS Roles During the Attack on America,'' 
        Deputy Manager, NCS, August 9, 2002
        The AT&T long distance network carried a record 431 million 
        call attempts on Sept. 11, 101 million more than the previous 
        high-traffic day.
        Massive congestion in WTC & Pentagon areas
                Over 10,000 GETS calls in WTC/Pentagon areas
                        Over 95% completion rate--Highest calling in 
                        first 48 hours
                GETS PIN Cards:
                        Over 1,500 key personnel made GETS calls
                        Over 20,000 GETS PIN cards issued following 
                        events of September 11th

WPS--From NCS Web site
        Wireless Priority Service (WPS), is the wireless complement to 
        GETS. In the early 1990's, the OMNCS initiated efforts based on 
        NSTAC recommendations, to develop and implement a nationwide 
        cellular priority access capability in support of national 
        security and emergency preparedness (NS/EP) telecommunications 
        and pursued a number of activities to improve cellular call 
        completion during times of network congestion. Subsequently, as 
        a result of a petition filed by the NCS in October 1995, the 
        FCC released a Second Report and Order [FCC-00-242, July 13, 
        2000] (R&O) on wireless Priority Access Service (PAS). The R&O 
        offers Federal liability relief for NS/EP wireless carriers if 
        the service is implemented in accordance with uniform operating 
        procedures. The FCC made PAS voluntary, found it to be in the 
        public interest, and defined five priority levels for NS/EP 
        wireless calls.

        Wireless network congestion was widespread on September 11, 
        2001. With wireless traffic demand estimated at up to 10 times 
        normal in the affected areas and double nationwide, the need 
        for wireless priority service became a critical and urgent 
        National requirement. In response, the National Security 
        Council requested that the NCS deploy a nationwide priority 
        access queuing system for wireless networks.

        From briefing ``NCS Roles During the Attack on America,'' 
        Deputy Manager, NCS, August 9, 2002:
                Verizon Wireless experienced a 50 to 100 percent 
                increase nationwide. Wireless networks remained near 
                saturation in NY through September 28th.
                Cingular Wireless' attempted calls ballooned by 400 
                percent in Washington and 1000 percent in its N.J. 
                Switching Center

PDD 63 and Sector Coordinators
    Presidential Decision Directive 63 (PDD 63) was released in May 
1998. It ordered the development of sector-specific critical 
infrastructure protection plans and established the role of private 
industry sector coordinators. The Information & Communications Sector 
as then designated under PDD 63, had four organizations sharing the 
sector coordinator role: the Cellular Telecommunications and Internet 
Association (CTIA), the Information Technology Association of America 
(ITAA); the Telecommunications Industry Association (TIA); and the 
United States Telecom Association (USTA).
    Important early contributions of the Sector coordinators included
                <bullet> developing internal sector awareness
                <bullet> organizing voluntary sector participation in 
                planning
                <bullet> leading the way in the formation of 
                Information Sharing and Analysis Centers for 
                Information Technology and Telecommunications
            <bullet> developing the I&C Sector National Strategy Input 
            for Critical Infrastructure and Cyberspace Security, May 
            2002

PCIS
    The Partnership for Critical Infrastructure Security (PCIS) 
consists generally of the leadership (usually the Chairs) of the 
organized Sector Coordinating Councils for the various critical 
infrastructures. The PCIS coordinates cross sector critical 
infrastructure protection interests and initiatives within the private 
sector and with the Government under the partnership model described 
within the National Infrastructure Protection Plan

NCSP (Santa Clara Dec 03 Summit, TFs, reports, Wye I, Wye II)
        The National Cyber Security Partnership (NCSP) combines 
        representatives from government, industry and academia working 
        together to harden the nation's cyber defenses. The partnership 
        provides a forum, structure and common agenda for 
        interdisciplinary, cross-industry information exchange with 
        government. Lead organizations of the partnership are: the 
        Business Software Alliance, Information Technology Association 
        of America, TechNet and the U.S. Chamber of Commerce. The 
        public-private partnership was formed during the National Cyber 
        Security Summit on December 3, 2003, in Santa Clara, 
        California, which aimed to gather cyber security experts across 
        disciplines to embark on a work program to develop 
        recommendations for implementing key challenges posed in the 
        2003 National Strategy to Secure Cyberspace. The partnership 
        established five task forces comprised of cyber security 
        experts from industry, academia and government. Each task force 
        was led by two or more co-chairs. The NCSP-sponsoring trade 
        associations act as secretariats in managing task force work 
        flow and logistics. The task forces included:
                Awareness for Home Users and Small Businesses
                Cyber Security Early Warning
                Corporate Governance
                Security Across the Software Development Life Cycle
                Technical Standards and Common Criteria
    The resulting task force recommendations in 2004 were provided to 
DHS. Many are still valid an valuable.
    In follow-up to the National Cyber Security Summit and the reports 
of the task forces, DHS' National Cyber Security Division hosted a 
government and private sector exchange at the Wye River Conference 
Center in Maryland in January 2005. A second follow-up exchange (``Wye 
II'') was hosted by the NCSP in Annapolis, MD, in September 2005. Many 
of the original Summit Task Forces' Recommendations continue to be 
brought up as potentially valuable.

CIPAC--extracted from DHS sources
    In March 2006, the Department of Homeland Security established the 
Critical Infrastructure Partnership Advisory Council (CIPAC) to 
facilitate effective coordination between Federal infrastructure 
protection programs with the infrastructure protection activities of 
the private sector and of state, local, territorial and tribal 
governments.
    The CIPAC represents a partnership between government and critical 
infrastructure/key resource (CI/KR) owners and operators and provides a 
forum in which they can engage in a broad spectrum of activities to 
support and coordinate critical infrastructure protection.
    CIPAC membership will encompass CI/KR owner/operator institutions 
and their designated trade or equivalent organizations that are 
identified as members of existing Sector Coordinating Councils (SCCs). 
It is also includes representatives from Federal, state, local and 
tribal governmental entities identified as members of existing 
Government Coordinating Councils (GCCs) for each sector

IDWG--extracted from DHS sources
    The Internet Disruption Working Group (IDWG) is a DHS hosted, 
informal gathering of industry and government Internet technical 
operation experts who collaboratively explore vulnerability issues and 
identify recommended actions to address them. The IDWG is beginning to 
establish important, trusted interpersonal relationships amongst 
government and industry technical experts. The IDWG was established by 
NCSD in partnership with the National Communications System (NCS), in 
response to security concerns surrounding the growing dependency of 
critical infrastructures and national security and emergency 
preparedness users on the Internet for communications, operational 
functions, and essential services.
    The IDWG's near-term objectives are to improve the resiliency and 
recovery of Internet functions in the event of a cyber-related incident 
of national significance; work with both government and private sector 
stakeholders to identify and prioritize protective measures necessary 
to prevent and respond to major Internet disruptions; and assess the 
operational dependencies of critical infrastructure sectors on the 
Internet. The 2005 IDWG Forum identified specific areas for action by 
both government and private sector stakeholders, including risk 
assessments, information sharing, protective measures, research and 
development, and Internet development issues. The IDWG is engaging with 
both public and private stakeholders to address these action items. The 
IDWG also plans to hold future forums and tabletop exercises, including 
an IDWG Tabletop Exercise, on June 15, 2006, to maintain both a pulse 
of the issues and an understanding of existing capabilities.

    Mr. Lungren. Thank you very much for your testimony.
    Now, we would hear from Mr. David Barron, the chairman of 
the Telecommunications Sector Coordination Council.

STATEMENT OF DAVID M. BARRON, CHAIR, TELECOMMUNICATIONS SECTOR 
                      COORDINATING COUNCIL

    Mr. Barron. Good afternoon, Mr. Chairman and fellow members 
of the subcommittee. It is an honor and a pleasure to be here 
with you today and I thank you for the opportunity to discuss 
this very important topic, the future of cybersecurity and 
telecommunications.
    I am David Barron. I am assistant vice president for 
federal relations and national security for Bell South, here in 
our Washington Office, but I am appearing today as the chair of 
the Communications Sector Coordinating Council. My testimony 
reflects my personal views as the chair of the council and not 
the views of Bell South.
    Sector-specific planning and coordination are addressed to 
private sector and government coordinating councils that are 
established for each sector through the national infrastructure 
protection plan.
    Sector coordinating councils are comprised of private 
sector entities, representatives. Government coordinating 
councils are comprised of representatives from government 
agencies, state, local and tribal entities.
    Established in 2005, the Communications Sector Coordinating 
Council has over 25 owners and operators and associations 
represented on the council today and we anticipate adding new 
members, as we continue to broaden our membership.
    While Homeland Security Presidential Directive 7 defined 
our sector as telecommunications, we in the industry feel that 
communications is a more representative title and that 
represents our diverse membership more accurately.
    Our membership today includes wire line, wireless, 
satellite, equipment manufacturers and Internet service 
providers, among others. We are also actively trying to expand 
the membership to include cable telephony, emergency service 
providers, and broadcasters, so that the Communications Sector 
Coordinating Council truly represents the breadth of this 
dynamic sectors.
    One of the sectors we call, as Guy said, the millisecond 
sector because of the nature of how our sector works.
    The Communications Sector Coordinating Council is currently 
engaged in a wide variety of activities not only with our 
government colleagues, but also with the Department of Homeland 
Security, as well as other sector coordinating councils on a 
number of initiatives the foremost of which, and you have heard 
about it today, is the creation of the sector-specific plan.
    We are well into that and we are anxious to get that 
project finished as soon as possible.
    In addition to the sector-specific plan, the Communications 
Sector Coordinating Council is engaged in several other 
important activities and I think the point is, as Guy said, we 
are not on hold. We are working every day to ensure the best 
security we can for the nation.
    These other activities include pandemic flu planning, 
national coordinating center, regional coordination concepts, 
post-Katrina issues, such as access, credentialing and 
emergency responder status as it relates to the Stafford Act, 
emergency wireless protocols, and many other activities.
    Finally, the world of communications often has considerable 
interaction and interdependencies with information technology, 
another critical infrastructure identified through HSPD-7. As 
such, the Communications Sector Coordinating Council has 
established a close working relationship with the Information 
Technology Sector Coordinating Council on issues of mutual 
concern.
    In September, the Communications and Information Technology 
Councils will be holding the first ever joint meeting with all 
four councils present, both communications, IT and the 
government counterparts, to discuss cross-sector issues, such 
as the creation of sector-specific plans that are complementary 
and support of each other.
    With the support of Under Secretary Foresman, the assistant 
secretary for infrastructure protection, Bob Steffen, has 
overseen many of these initiatives while in the acting 
assistant secretary for cybersecurity and telecommunications 
position and while serving as the manager of the national 
communications systems, known as the NCS.
    We are pleased with the progress that has been made, but 
the industry would welcome additional focus brought to bear by 
a dedicated assistant secretary for cybersecurity and 
telecommunications.
    Obviously, we should view all critical infrastructures and 
key resources defined in HSPD-7 as critically important to the 
nation. However, communications and information technology are 
unique in that they underlie and support all the other sectors.
    Each of the other sectors depends upon computer systems, 
voice networks, broadband systems, wireless networks, and 
countless other structures and services provided by the 
communications and IT communities. Those sectors are equally 
critical in support of the nation's homeland security mission.
    While DHS has been very helpful and responsive in many of 
these matters, there are areas in which the private sector 
would specifically like to see continued progress and 
improvement.
    First, while the current team of leadership at DHS has done 
a good job working with the sector, the position of assistant 
secretary for cybersecurity and telecommunications remains 
vacant. As I stated earlier in my testimony, Assistant 
Secretary Steffen has done an admirable job in working with the 
communications and IT sectors, but a dedicated assistant 
secretary could dramatically strengthen this critical public-
private partnership.
    Second, a clear definition of the mission needs to be 
established. What does cybersecurity and telecommunications 
really mean as it relates to national security, homeland 
security and emergency preparedness? In other words, what is 
the problem we are trying to solve?
    There is such a wide range of threats and vulnerabilities 
that a clear vision of the problem tied to priorities is 
essential.
    Third, DHS needs to clearly define roles and 
responsibilities for all of those involved in this process, and 
this comes back to the understanding of the problem and a clear 
strategy based on risk assessment and priorities. By clarifying 
who is in charge of what, more will be accomplished in an 
efficient and effective manner.
    Finally, and I think very importantly, DHS should recognize 
that the private sector is willing and fully committed to this 
partnership. If this framework is truly intended to be a 
partnership, then more emphasis needs to be placed on ensuring 
there is a trusted relationship between the public and private 
sectors, which is in the best interest of the nation's 
security.
    For example, the national coordinating center for 
communications, the NCC, is a model to follow for the 
partnership that is mandated by the future. In the NCC, 
government and industry sit together every day to prepare for 
and to respond to events that threaten the nation's 
communications networks.
    The NCC has had a long history of success. I think this 
model could and should be expanded to include other 
infrastructure, like information technology and electric power.
    As I close, I would like to, again, thank the subcommittee 
for the opportunity to speak today and for your support on 
these efforts. The partnership framework is incredibly valuable 
and continues to serve as a conduit for unprecedented 
cooperation and collaboration between government and private 
industry.
    There is room for improvement, to be sure, but the 
suggestions I have presented here today are intended to further 
strengthen those valued interactions and ensure we jointly 
consider to take steps to secure our homeland.
    Thank you, sir.
    [The statement of Mr. Barron follows:]

                 Prepared Statement of David M. Barron

    Good Afternoon Mr. Chairman and fellow members of the committee. It 
is an honor to appear before you today and I thank you for the 
opportunity to discuss this very important topic, the future of cyber 
security and telecommunications.
    I am David Barron, Assistant Vice President for Federal Relations/
National Security with BellSouth Corporation here in our Washington 
office, but I am appearing today as the Chair of the Communications 
Sector Coordinating Council (CSCC). My testimony reflects my personal 
views as Chairman of the CSCC and not the views of Bell South.
    Let me begin by giving you a brief background on the Sector 
Partnership Model and the Communications SCC in particular. Homeland 
Security Presidential Directive 7 (HSPD-7) established the basis for a 
national coordinated approach to critical infrastructure protection, 
including the development of the National Infrastructure Protection 
Plan (NIPP) as well as the Sector Partnership Model. The NIPP defines 
the organizational structure that provides the framework for 
coordination of Critical Infrastructure and Key Resources (CI/KR) 
protection efforts at all levels of government, as well as within and 
across sectors.
    Sector-specific planning and coordination are addressed through 
private sector and government coordinating councils that are 
established for each sector. Sector Coordinating Councils (SCCs) are 
comprised of private sector representatives. Government Coordinating 
Councils (GCCs) are comprised of representatives of the Sector-Specific 
Agencies, other Federal departments and agencies, and state, local, and 
tribal governments.
    Established in 2005, the Communications Sector Coordinating Council 
has over 25 owner/operators and associations represented on the Council 
and we anticipate adding new members as we continue to broaden our 
membership. While HSPD-7 defined our sector as ``Telecommunications'', 
we in the industry feel that ``Communications'' is a more encompassing 
title that represents our diverse membership. Our membership today 
includes wireline, wireless, satellite, equipment manufacturers, and 
internet service providers among others. We are also actively trying to 
expand the membership to include cable telephony, emergency service 
providers and broadcasters so that our Communications Sector 
Coordinating Council truly represents the breadth of this dynamic 
sector; one of the sectors we call the ``millisecond'' sector due to 
the nature of how our sector works.
    The CSCC is currently engaged in a wide variety of activities not 
only with our Communications Government Coordinating Council 
counterparts, but also with the Department of Homeland Security as well 
as other Sector Coordinating Councils on a number of initiatives, 
foremost of which is the creation of our Sector Specific Plan.
    The NIPP base plan is supported by several Sector Specific Plans 
(SSPs) that provide further detail on how the critical infrastructure 
and key resources protection mission of each sector will be carried 
out. In late August the Communications SCC and GCC held a joint meeting 
in Washington, D.C. to coordinate on several issues, the most prominent 
of which is the development of the Sector-Specific Plan (SSP) as I 
mentioned before. The CSCC and GCC have been actively collaborating on 
a draft of the Communications SSP, with both Councils providing input 
and comments throughout the process. This effort is continuing and we 
are on track to submit the Communications SSP by the end of the year to 
DHS.
    In addition to the SSP, the Communications SCC is engaged in 
several other important activities, including Pandemic Flu planning, 
National Coordinating Center (NCC) regional coordination, post-Katrina 
issues such as access, credentialing, and emergency responder status 
related to the Stafford Act, emergency wireless protocols, and many 
other activities.
    Finally, the world of Communications often has considerable 
interaction and interdependencies with Information Technology (another 
critical infrastructure established by HSPD-7). As such, the 
Communications SCC has established a close relationship with the 
Information Technology SCC to work on issues of mutual concern. In 
September the Communications and Information Technology SCCs and GCCs 
will be holding the first ever Joint meeting, with all four councils 
present, to discuss cross-sector issues such as the creation of Sector 
Specific Plans that are complimentary and supportive of each other.
    With the support of Under Secretary Foresman, Assistant Secretary 
for Infrastructure Protection Bob Stephan has overseen many of these 
initiatives while in the Acting Assistant Secretary for Cyber Security 
and Telecommunications position and while serving as the Manager of the 
National Communications System (NCS). We are pleased with the progress 
that has been made. But the industry would welcome the additional focus 
brought to bear by a dedicated Assistant Secretary for Cyber Security 
and Telecommunications.
    Obviously, we should view all the critical infrastructures and key 
resources defined in HSPD-7 as critically important to the nation. 
However, Communications and Information Technology is unique in that it 
underlies and supports all of the other sectors. Each of the other 
sectors depend upon computer systems, voice networks, broadband 
systems, wireless networks, and countless other structures and services 
provided by the Communications and IT communities. As a result, 
Congress has mandated and DHS has begun implementing strategies and 
procedures to ensure specific emphasis on these valuable cross-sector 
interdependencies. For example, the National Infrastructure Protection 
Plan and the supporting Sector Plans are working very specifically to 
address this convergence of Communications and Information Technology 
into what is referred to as the Next Generation Networks. As this work 
continues, there must be a balanced approach when looking at Cyber 
Security and Telecommunications. Both sectors are equally critical in 
support of the Nation's Homeland Security mission.
    While DHS has been very helpful and responsive in many of these 
matters, there are areas in which the private sector would specifically 
like to see continued progress and improvement. First, while the 
current team of leadership at DHS, including Under Secretary Foresman, 
Deputy Under Secretary Robert Zitz, and Assistant Secretary Stephan, 
have done an excellent job, the position of Assistant Secretary for 
Cyber Security and Telecommunications remains vacant. As I stated 
earlier in my testimony, Assistant Secretary Stephan has done an 
admirable job in working with the Communications and Information 
Technology community but a dedicated Assistant Secretary could 
dramatically strengthen this critical public/private partnership.
    Second, a clear definition of the mission needs to be established. 
What does Cyber Security and Telecommunications really mean as it 
relates to National Security, Homeland Security and Emergency 
Preparedness? In other words, what is the problem that we are trying to 
solve? There is such a wide range of threats and vulnerabilities that a 
clear vision of the problem tied to priorities is essential.
    Third, DHS needs to clearly define roles and responsibilities for 
all of those involved in this process. Again, this comes back to the 
understanding of the problem and a clear strategy based on risk 
assessment and priorities. By clarifying who is in charge of what, more 
will be accomplished in an efficient and effective manner.
    Finally, DHS should recognize that the private sector is willing 
and fully committed to this partnership. If this framework is truly 
intended to be a partnership, then more emphasis needs to be placed on 
ensuring there is a trusted relationship between the public and private 
sectors, which is in the best interest of our Nation's security. For 
example, the National Coordinating Center for Communications--the NCC--
is a model to follow for the partnership that is mandated by the 
future. In the NCC, government and industry sit together everyday to 
prepare for and to respond to events that threaten the Nation's 
communications networks. The NCC has had a long history of success and 
I think this model could and should be expanded to include other 
infrastructures like Information Technology/Cyber and Electric Power. 
The continued health and evolution of the partnership depends not only 
on private sector participation, but DHS' s recognition of the value of 
that partnership with a commitment to work more closely with industry.
    As I close, I would like to again thank Congress for the 
opportunity to speak today and for their support in these efforts. The 
partnership framework is incredibly valuable and continues to serve as 
a conduit for unprecedented cooperation and collaboration between 
government and private industry. There is room for improvement to be 
sure, but the suggestions I have presented here today are intended to 
further strengthen these valued interactions and ensure we jointly 
continue to take steps to secure our homeland.
    Thank You.
    Mr. Lungren. Thank you all for your testimony.
    We will go to a round of questioning. We promised that we 
would get you out of here no later than 6:00. So we will see 
how long that takes us with the members who are here.
    Let me begin the questioning by asking you, Mr. Pelgrin, 
how would you describe the overall priority that the federal 
government has placed on cyber-related critical infrastructure 
protection?
    Mr. Pelgrin. I believe that they have put a high priority 
on it. I think that they definitely need to fill the assistant 
secretary position. But I know that even the undersecretary, 
that when he was in Virginia, was actually one of our multi-
state ISAC members.
    So he, from early on, believed very much in cybersecurity. 
So from my experience, from the governmental experience, from 
the state and local government, the support that we have 
received, the direction, the cooperation with the federal 
government has been excellent.
    I think there is always room to improve. I think that there 
is always a need, both on a state and local government side, to 
move this forward. I am a big believer that this is to build it 
as you go and it really is a time to make sure that we have 
very strict deliverables and get those deliverables executed.
    So from a priority perspective, I think that that badly, by 
not having the assistant secretary position filled, taints all 
the good work that they are doing and they are doing a lot of 
good work.
    Mr. Lungren. Mr. Kurtz, of the six points that you have 
made, the first, I noted, was lead, lead, lead.
    Is that a suggestion that the department is not leading at 
the present time?
    Mr. Kurtz. It would be a suggestion that they are not 
leading.
    Mr. Lungren. Are they compromised not leading because of 
the absence of a leadership position being filled?
    Mr. Kurtz. I think so. Certainly, the assistant secretary 
of cybersecurity and telecommunications will provide some 
leadership. It is not a panacea, though. I think we have to go 
higher up the line in the department, as well, to ensure that 
they are paying attention to the issue at the most senior 
levels.
    I commend Under Secretary Foresman for spending the time 
today to address this issue up here on the Hill. He was at a 
committee meeting earlier today, and it is very good to see him 
here.
    Mr. Lungren. And I got a deliverable. I got a letter from 
the secretary answering my questions, from my letter of July 5. 
Maybe we ought to have these meetings more often.
    Mr. Kurtz. If I can, I think it is symptomatic of across 
the federal government. We have, if you will, a reluctance 
among senior officials to engage on cyber and I think one of 
the real reasons it it is not visual. You can't see it, you 
can't touch it, you can't feel it.
    When you go into a cyber?
    Mr. Lungren. You can't show it to your constituents.
    Mr. Kurtz. You can't show it to your constituents, as well. 
You go into a cyber knock and you look at it and, quite 
frankly, it can be pretty boring. But this logical system, this 
nervous system that we depend upon controls every facet of our 
lives.
    And just because we can't see it and taste it and smell it 
doesn't mean we shouldn't be paying attention to it.
    Mr. Lungren. Mr. Kurtz, who is further along, in your 
estimate, the private sector or the federal government, in 
terms of cybersecurity?
    Mr. Kurtz. I think there are elements of the private sector 
that are quite far along. I would highlight the banking and 
finance industry. The banking and finance industry has brought 
incredible sophistication to this space.
    Can they do better? Sure. I think the energy, the oil and 
gas sector is getting more serious about this. I think Doug 
Bond's program, Doug at least was behind a little bit ago, the 
logic program that they are doing on working on SCADA control 
systems and improving the security is a fantastic program and 
it is a partner program.
    So there is work under way in that area. Frankly, I think 
the other sectors, many of the other sectors have a long way to 
go.
    Mr. Lungren. I mean, if we are going to have a team in 
this, you look at the football analogy, you have got to have 
both the offense and the defense and the special teams all 
working together.
    I look at this as a partnership opportunity and obligation, 
private sector-public sector, in part, because 85-90 percent of 
the critical infrastructure is owned not by the government, but 
by the private sector.
    I would assume that if we have got the cyber world involved 
in critical infrastructure, that we would have that same sort 
of percentage. So we have got to be firming up both sides.
    And to Mr. Copeland and Mr. Barron, thank you for your 
testimony and thank you for the work that you are doing. You 
are doing double-duty, too. I mean, you are doing the work for 
your companies and you are also doing the work in these 
coordinating councils.
    A general question to the two of you and then maybe if we 
get time for a second round, I can go into more specifics.
    How well is the concept of the coordinating councils 
working? You are putting a lot of effort into it. Obviously, 
you think it is worthwhile, because you are both still doing 
it.
    You are getting the cooperation of not only your companies, 
but like companies. But is government listening? Is government 
really acting as a partner with you in this coordinating 
councils?
    Do you feel that your time is well spent? And has the 
experience been such that it is encouraging to have other 
companies become involved and commit their people to the time 
that is necessary to actually make a contribution?
    Mr. Copeland. Mr. Chairman, as a general observation, of 
course, our sector coordinating councils are just getting 
started. So the answer is it remains to be seen how they will 
survive in the long run, but I am very excited about how they 
are starting out.
    The intention was that they would provide broad 
representation for their sectors to work with their government 
counterparts, to attack a variety of issues, many of which you 
have heard discussed here today.
    I have to say, even as we were going through our formative 
process, we were already working with our government 
colleagues, doing, for example, detailed word-by-word reviews 
on the national infrastructure protection plan.
    So we had that kind of interaction with them. The writing 
team that we have formed and which Paul co-chairs for us, that 
is working on the sector-specific plan, is made up of both 
industry and government representatives. So I am very positive 
on that.
    Is there room for progress? Yes. I am very concerned that 
we need to quickly move on to reaching out across the country 
to the many different, some very key players who need to become 
aware of the sector coordinating council and become involved in 
it, as well.
    When I spoke to the recommendation of encouragement and 
looking to our government colleagues, both the executive branch 
and Congress, for that kind of encouragement, you can do some 
of that when you are back in your districts and you are talking 
to executives.
    You can build some of that encouragement, where 
appropriate, into legislation, where there might be an 
opportunity. I would like to see more of the senior executives 
in both the executive branch and Congress sending letters to 
the senior executives in the private sector, saying, ``Look, 
this is an important activity. It will ultimately bring value 
to your company, help provide general protection to you, 
protect you in the mission or business services that you offer 
to your clients, and it will help the nation.''
    And even beyond that, because the whole issue of 
information security and cybersecurity is inextricably 
intertwined with many of our closest allies, but most 
particularly with our Canadian allies because of the border 
that we share and the way that our infrastructures happen to 
built and intertwined very, very closely.
    So it is going to have international impact, as well, for 
them to participate.
    I have watched with pleasure as some motivating factors 
have creeped into things that are extremely useful. So, for 
example, the federal financial institutions examination council 
has now built into their guidelines for examining information 
security and financial institutions a requirement that whoever 
provides their information technology and communications must 
be participating in an ISAC, and that could be the company 
itself or it could be an outsourced company like mine that may 
provide those kind of services to them.
    So that is positive reinforcement for joining those 
institutions and working together to solve these common 
problems.
    Mr. Lungren. Thank you.
    Mr. Barron?
    Mr. Barron. Thank you, Mr. Chairman. I think the sector 
coordinating council concept is working very well.
    Telecommunications and communications, in general, has a 
longstanding history with the government through the national 
communications system and the NCC. We have been partners with 
them for well over 20 years and there is a close relationship 
there.
    It has performed very well, 9/11, Katrina, I mean, we have 
been there and we have had a lot of success in the face of 
disasters. So I think that relationship and that partnership 
is, without question, there through the NCS.
    The key is, I think, trying to turn the sector-specific 
plans from something that you are required to do to something 
that you want to do and we are making progress there and 
bringing in what I call, Mr. Chairman, nontraditional players 
into the Communications Sector Coordinating Council, cable 
telephony, those kind of folks who haven't traditionally been 
involved, but they are very critical players, are now getting 
engaged and we are very pleased with that, and think the NCS 
and the DHS folks are helping us with that.
    So I think the partnership is working.
    Mr. Lungren. Thank you very much.
    The gentleman from Washington is recognized.
    Mr. Dicks. Thank you.
    Mr. Kurtz, when did you serve on the White House staff?
    Mr. Kurtz. I joined the White House staff in 1999, before 
the millennium, at the very end of the Clinton administration 
and stayed on into early 2004 in the Bush administration.
    Mr. Dicks. Are there people at the White House doing the 
kind of work today that you were doing at that time?
    Mr. Kurtz. Not on a full-time basis.
    Mr. Dicks. Part-time?
    Mr. Kurtz. Yes. Certainly, there are people there within 
the National Security Council, Homeland Security Council and 
the Office of Technology and Policy who are spending some time 
on this issue.
    Mr. Dicks. You described a little bit the--but flesh out 
why you think this has been downplayed in this administration. 
Why are they not taking this as seriously as the previous 
administration did? Obviously, you had the millennium, the 2000 
thing, which was a big factor and had everybody's attention on 
it.
    Mr. Kurtz. My own personal view is the Clinton 
administration, toward the end of the Clinton administration, 
they were, in fact, paying attention to this, because that is 
when we started to see the problems surface. The massive denial 
of service attacks in 2000 prompted an event with the 
president.
    However, President Bush, when he first started off, one of 
the first briefings he took was on cybersecurity. When I was on 
staff there, it was one of the very first briefings he had and 
he stood up the critical infrastructure protection board, 
which, in turn, produced the national strategy to secure 
cybersecurity in 2003.
    I think after that strategy was issued, that is when we had 
the change. Under the strategy, the vast majority of the work 
was to go over to the Department of Homeland Security. I 
believe that decision made good sense, because we were standing 
up the department at that time.
    However, the department had massive issues on its hands and 
in my written testimony we talk about the preoccupation, and 
understandable preoccupation with the physical threats, threats 
to kill people, blow up buildings. That is understandable.
    However, several years down the line, it is hard to defend 
that and especially in the context that we have increased 
threats and increased vulnerabilities and more dependency on 
this information infrastructure.
    I also think the intervening events for the department have 
been, obviously, Hurricane Katrina. Katrina took a lot of 
energy out of the department. Really, though, quite frankly, I 
am out of excuses. The time is now to have higher level 
attention within the federal government to this issue.
    And I would argue, and I talked about this a little bit 
this morning, that DHS needs to assert more leadership, but I 
would also argue that the White House needs to step up more.
    Mr. Dicks. When you say leadership, what do you mean by 
that? When I look at it, either you are talking about 
resources, as an appropriator, or you are talking about 
regulation or you are talking about bringing together people to 
work together to try to understand each other's problems and to 
convince each of these sectors that they have got to do 
something themselves to protect their own cybersecurity.
    Mr. Kurtz. I would argue, in a sense, all four of those 
issues that you mentioned, with the caveat around the third 
one, regulation.
    By leadership, I mean--
    Mr. Dicks. I know you are afraid of regulation, because of 
your clients.
    Mr. Kurtz. But leadership, I mean--
    Mr. Dicks. If you don't get the job done, and this goes 
back all the way back to the first days of the ICC and 
railroads. I mean, you know, at some point, the government has 
to step in and say you have got to do it.
    Mr. Kurtz. But by leadership, I mean a senior individual 
who is consistently focused on a problem. One of the reasons 
why we have the national strategy to secure cyberspace, and I 
still think it has good standing in the private sector, is we 
had a very senior individual push that through.
    Mr. Lungren. How about an assistant secretary for 
cybersecurity and telecommunications?
    Mr. Kurtz. I think it certainly helps, but I do argue that 
we need to have more senior involvement on a regular basis by 
others within the department and other agencies, as well.
    I think as far as resources, yes, resources, though, follow 
leadership when you can establish the priorities and programs 
that we need to pursue. Regulation in a limited degree, when we 
know we have had market failure, and there is an opportunity 
before the Congress now to pass legislation to secure sensitive 
personal information.
    There are multiple bills under consideration up here and I 
do think that is an important step forward that ought to be 
paid attention to.
    Mr. Dicks. Privacy, obviously, is a very important issue. 
But, again, you think maybe having somebody else at the White 
House staff who is on the National Security Council and 
Homeland Security Council.
    Mr. Kurtz. The decision to move it over to the Department 
of Homeland Security was correct and stands true today.
    Mr. Dicks. But it was correct that they picked up the ball 
and did something with it, but so far they haven't done that.
    Mr. Kurtz. Let me give a practical example. As we develop 
the IT sector-specific plan, we have been working very closely 
with our colleagues on a working level at the Department of 
Homeland Security. In fact, we have quite a good relationship.
    But what is absent is that we don't have other agencies at 
a more senior level participating and only within the last week 
or so have we gotten people at the White House to, if you will, 
tune in more to this problem.
    The reason why, I think, is that there are some very 
complex policy questions that need to be resolved that cross 
jurisdictions, that cross agencies. An example, in Hurricane, 
Katrina, ultimately, the president turned to the Department of 
Defense to help us in the response to Hurricane Katrina.
    If we have a massive disruption in the information 
infrastructure, DHS is going to play a lead coordinating role, 
but you can be darn sure that DOD is going to care and the FCC 
is going to care. And what would happen in that instance is you 
would have probably not a total Internet blackout, but you 
would probably have very limited bandwidth available, which 
means information going across the Internet would need to be 
prioritized.
    All right, so who is first? Does DOD take precedence? Does 
the financial community take precedence? Obviously, in the 
context of a larger scale disaster, first responders, 
hospitals, medical institutions, we haven't come close to 
making those decisions.
    That is why I argue that we have to have more senior level 
input into this process. An assistant secretary can certainly 
help queue up those issues for more senior people to ultimately 
make those decisions. That is where the assistant secretary is 
critical, as he or she can work across federal agencies to 
queue up these decisions.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Lungren. The time of the gentleman has expired.
    And the gentleman from Indiana is recognized for 5 minutes.
    Mr. Souder. I thought that was a very interesting 
discussion, because we keep hearing leadership without 
specifics. But you put a finger on that it is cross-
jurisdictional, because, in effect, if the secretary of 
homeland security and the Department of Defense are in an 
argument, what kind of official, short of the president or vice 
president, is going to be able to referee that.
    There isn't going to be a national security advisor or a 
lower level staff and you have got, arguably, the two biggest 
agencies in jurisdictional tussles.
    Let me come back to a variation of the question I asked 
earlier, and the answer was there is government enforcement and 
there is private sector enforcement and insurance was 
mentioned.
    I was kind of trying to make a list in my head. What would 
be the government incentives to fix this? And, basically, other 
than altruism and a desire to help the American system, which 
is important and I am not arguing isn't a motivation, but it 
basically comes down to fear of loss of your job and career 
ruining.
    In the private sector, the incentives are somewhat 
different. Has there been any court case that has established a 
liability of, if you haven't plugged a certain hole on 
cybersecurity, that you can have a massive fee on your firm?
    Mr. Kurtz. The most obvious example that comes to my mind 
is the FTC, the Federal Trade Commission's actions over the 
past year and a half, where, in three cases, there were three 
retailers, separate events--well, two retailers and a data 
broker who did not take adequate steps to secure sensitive 
personal information.
    Those entities involved knew that they had problems and 
didn't attend to them. And in one case in particular, the FTC 
levied a $14 million fine.
    There have been subsequent cases and I think all of them 
have been less than $14 million. That is a relatively new 
development.
    Mr. Souder. Because that will certainly affect insurance 
rates on everyone and the question is how to fairly disburse 
that, then, because your weakest links are going to be driving 
up the insurance rates on those who are actually investing, 
because the catastrophic costs drive up costs.
    You also have potential loss of sales to any company that 
basically gets penetrated, because people say this isn't a safe 
place, or a financial institution. If it is others, you have 
the potential restoring costs to that, which the federal 
government would have, too, if we had damages in a facility 
that we run.
    We also have the absolute wiping out of a brand name, in 
the sense of your company could be destroyed. There are 
multiple private sector things.
    Why do you think, with all those pressures on the private 
sector, that the private sector, particularly given these kind 
of cases, isn't ramping up at a faster rate?
    At the federal government, we react to problems. We need to 
be better at preempting. Certainly, Katrina and 9/11, voters 
want to know that they have every single bag--I mean, in this 
committee we debate this--want to have every single bag checked 
multiples times and this and that we put so much money in there 
that we are not dealing with cybersecurity.
    We have X amount of money. That is risk assessment, ramping 
up, and the general public is reacting off of what happened in 
the past, to ramp up that and we are missing some bigger risks.
    Part of my question would be, as the private sector, 
clearly, has multiple risks here, why aren't they ramping up 
more? Is it that the guys at the margin who aren't making as 
much money and don't have the ability to do the costs are the 
ones not ramping up?
    Mr. Kurtz. I think that that last point is an important 
point. I think there are elements in the private sector, as I 
said earlier, that are taking this issue seriously, because if 
they experience a loss, it has a real impact on their business, 
their customers, their market share.
    Mr. Souder. Can I ask you? Because my time is about--let me 
ask you, then. Given the assumption that you are saying, that 
if you have the ability, you understand the risk and you are 
doing it.
    If it is the group--if our weakest link destroys our 
biggest link, in other words, you get into our electrical grid, 
whether it is in Canada or the United States, you are wrecked. 
If the weakest link, unless we have these firewalls that shut 
you off you are going to wreck everybody else around you.
    If the financial market incentive isn't there for our 
weakest link, do we have a choice, other than the regulatory 
side?
    Mr. Kurtz. I think, first of all, we need to pursue those 
incentives. I don't think we are at the point yet where we can 
say that the market has failed for all those industries who 
haven't necessarily taken it seriously.
    Mr. Souder. Are there tax incentive type things that we 
could do to accelerate that?
    Mr. Kurtz. I am certainly not going to say no to the idea 
of a tax incentive. I think we ought to explore that. But I 
think the insurance market is something interesting, because 
the reason why the insurance community, as I understand it, the 
reason why the insurance community cannot write as much 
insurance in this space as they would like is that there are, 
if you will, no common standards that they can base risk upon.
    In other words, if I know X firm has done the following 10 
things, that I have a reasonable understanding that a lot of 
other firms are going to follow, as well, and I can have that 
certified in some manner, self-certification or third-party 
certification, then I am going to feel, as a insurance person, 
and I have no background in this area, though, I would feel, as 
an insurance person, it is a better risk. I could write 
insurance in that area.
    The problem is we don't really have that nexus now in the 
federal government between places like the Department of 
Commerce and the Department of Homeland Security to look at 
these issues.
    If I can, the fascinating detail, I think, is currently, 
despite our dependence upon the information infrastructure, we 
have no federal agency today that is tracking the costs of 
cyber attacks. We have no one at the Department of Commerce, no 
one who is, if you will--we have all sorts of statistics as to 
how well our economy is doing, how our labor force is doing, 
how productive we are.
    But when it comes down to understanding the costs of cyber 
attacks, the cost of disruptions, and, granted, it is a 
difficult problem to solve, no one is tracking that today.
    Mr. Souder. Mr. Chairman, I would like to say, too, that in 
the GAO testimony, some of these things are out there, but they 
are usually way back in the reports or they do not put this 
clearly, but there is information in here about the slammer 
worm taking a nuclear power plant down, their security 
monitoring system, for 5 hours.
    Somebody did a movie on that. I mean, our whole nuclear 
policy is based on that Jane Fonda movie. One movie and all of 
a sudden cybersecurity changes. Similar, that in here about?
    Mr. Lungren. Are you suggesting Hollywood can make 
cybersecurity sexy?
    Mr. Souder. Yes. And TV, in other words, when you look at 
the--if you are airline flights are canceled, your automatic 
teller machine failed, and network outages, if people knew what 
actually happened, it is scary.
    And part of the problem, the way we respond is that, hey, 
we run every 2 years, the Constitution made us basically 
weather vanes and somebody has got to be blowing the weather.
    And part of the problem we have in homeland security is we 
are charging around that way and cybersecurity has to become--
the danger has to become more sexy to the general public.
    Mr. Lungren. I thank the gentleman for his comments.
    And now I would recognize someone who I would never call a 
weather vane, the gentlelady from Houston.
    Ms. Jackson-Lee. I will take that in the spirit that it is 
offered and I will wonder about the spirit.
    Mr. Kurtz. He meant it as a compliment, I think.
    Mr. Lungren. I meant an independent thinker is what I 
meant.
    Ms. Jackson-Lee. I said I would take it as such.
    I am going to go with Mr. Souder's passion and continue at 
his level, which is where I stopped off, which is this sense of 
urgency that is not gripping some of the segments of homeland 
security as I think it deserves.
    And so I am going to go back to you, Mr. Kurtz, and then 
Mr. Pelgrin, because as we look at the tragedy of terrorist 
acts, we know that Washington is certainly a target, but so are 
our notable areas of high risk, from New York to California.
    And, of course, I happen to be a high risk proponent, but I 
do believe it is important to translate information so that all 
of the homeland can be secure.
    But I have a simple question on time. You have laid out the 
obstacles, Mr. Kurtz, and Undersecretary Mr. Foresman, in a 
February 2006 press conference on cybersecurity or Cyberstorm, 
about the role of the department in the event of an attack, at 
the time, he said, ``The key thing that you bring to the table 
is coordination. We will bring the ability to leverage multiple 
people towards a common goal, towards a common solution, in 
order to deal with the problem so that it is not a haphazard 
approach.''
    Well meaning, but the question is if you had to give an 
answer when the American people could feel comfortable that our 
cybersecurity is--the term under control is not accurate, but 
under extreme or very vibrant oversight, and our infrastructure 
is in lace and we have leveraged, when do you think that would 
be?
    Mr. Pelgrin. I guess my response, from a DHS perspective, 
when we have an early warning system in place, a solid early 
warning system program in place that embraces the private 
sector.
    Secondly, an emergency communications system that allows us 
to communicate when the very infrastructure we are seeking to 
protect is under attack.
    Ms. Jackson-Lee. Would you want that emergency system to be 
seamless, meaning that it would go across the nation, as 
opposed to saying all of New York would talk to each other?
    Mr. Kurtz. Among critical owners and operators across the 
nation. In other words, key government entities, key folks 
within the private sector.
    And then the third key area would be recovery and 
reconstitution issues. In other words, you have to accept that 
you have to plan as though there will be successful attacks. So 
what happens when that happens? How do you reconstitute the 
Internet? How do you reconstitute major protocols that may have 
been broken out there? We need to think through those.
    Once we have those questions solved, we can accept that 
there are always going to be attacks. The nature of the beast 
is we are always going to have bad guys out there and always 
going to have people coming after us. But if we have a system 
in place to protect and respond, then we will be in a much 
better spot.
    And, hopefully, along the way, we will have more resilient 
networks being developed through R&D.
    Ms. Jackson-Lee. Well, we think of Hurricane Katrina when 
we think of recovery. But for those of us who went to New York 
during 9/11 and went specifically to Wall Street, which was not 
hit, per se, but, obviously, was shut down, if, for example, an 
attack was on that system, the question is what is the timing 
of recovery.
    What preparedness do we have? Because that system is 
obviously interwoven into the cybersecurity, if you will, 
superhighway, using an old term. And what is the recovery? I 
don't know if any of us know that.
    Some of these things, I am sort of doubtful of discussing 
them publicly, but I think we have some real issues here and I 
guess I didn't hear a timeframe, but the fact that you have 
given me three elements would suggest that these three elements 
are not yet there.
    Mr. Kurtz. No, they are not yet there. But in the case of 
the banking and finance industry, it is probably worthwhile for 
you to have a discussion with them, because they are very 
advanced in that area and they learned a lot from 9/11 and they 
have got some very sophisticated programs in place, which are 
worth learning about.
    Ms. Jackson-Lee. And the only question, I would say, is 
they are probably sophisticated, but are they complete and what 
more can they do and what more can we do to help them. I think 
that is the real question.
    Mr. Pelgrin, the whole issue is to be able to communicate 
with state and local officials. Are we there yet, particularly 
on this aspect of security?
    Mr. Pelgrin. I don't think we are there yet and it has to 
do a lot with still awareness and education and dollars and 
resources at the state and local government level.
    I think we have made huge progress from when we started in 
2003. The multi-state ISAC, we meet every month with all the 
states. We share information on an interactive call every 
month.
    But trying to get that message out to local governments is 
a true challenge. We are working diligently on doing that and 
actually we have a pilot with five states, New York being one 
of those states, in which we are expanding the multi-state into 
local governments by allowing each state to have a state ISAC, 
which allows them to communicate.
    Ms. Jackson-Lee. What states are they? What are the five 
states?
    Mr. Pelgrin. It is Florida, New York, Wisconsin, Michigan, 
and I am blocking on the fifth and I will have to get back to 
you on the fifth. Congresswoman, I will get back to you on the 
fifth one. Michigan. If I didn't say Michigan, it is Michigan.
    It is an opportunity to reach them. But you need to put it 
in context from a local government perspective. When a local 
government official is a town supervisor who is part-time and 
they are working out of their home part-time and that computer 
that they are using is also, by the way, used by their kids at 
night, think about the challenges and what type information is 
contained on it.
    We had one town clerk who said when we talked about the 
importance of erasing media in an appropriate way, from 
destruction of the media to wiping it clean to ensure that data 
is protected, the comment initially was, ``I don't understand 
why we are talking about this, because we want to produce one 
of our supplements on how to do that.''
    And she said, ``When my computer dies, I just toss it 
out.'' Well, that information doesn't get deleted just because 
that computer died on her. So it is critical that we reach all 
of these individuals, education and awareness at the earliest 
of ages.
    And one of the things I would recommend, Undersecretary 
Foresman mentioned it, but October is cybersecurity awareness 
month, it would be wonderful if Congress embraced that. We 
actually have our toolkit that we are providing you.
    We have five packages of toolkits for you. That deals with 
everything from calendars for kids to adults, mouse pads, 
anything we can do to bring this message home that they have to 
take basic precautions.
    I am not sure if it was Guy or David who said that the 
weakest link is just one link that you have to be concerned 
with.
    Ms. Jackson-Lee. Mr. Chairman, thank you. It is not just 
the town supervisor's computer that is thrown way. I can tell 
you that large cities, having come out of local government, do 
likewise and I am not sure whether they are now more informed 
about cleaning those, the terminology ``cleaning,'' with 
quotes, but to eliminate the data on those thrown away computer 
and/or the donated computers that are subsequently donated to 
schools.
    I think there is certainly a large question of data 
preservation and/or particularly if we connect on some of these 
very secure matters.
    I yield back. Thank you very much.
    Mr. Lungren. I thank the gentlelady for yielding. I thank 
the witnesses for your valuable testimony today and members for 
their questions.
    Members of the committee may have some additional questions 
for the witnesses and we would ask you to respond to those in 
writing. The hearing record will be open for 10 days.
    Thank you once again for your participation. It was very, 
very helpful.
    Without objection, the committee stands adjourned.
    [Whereupon, at 5:44 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
